CASE NO. _________________

IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________
ANTHONY KIRKLAND, Petitioner,
vs.
STATE OF OHIO, Respondent.
___________________________________________
On Petition for a Writ of Certiorari to
the Supreme Court of Ohio
___________________________________________
PETITIONER’S APPENDIX
(CAPITAL CASE: EXECUTION DATE IS SEPTEMBER 18, 2024)

Andrew P. Avellano (OH 0062907)*
MEMBER OF THE BAR OF THIS COURT
Attorney at Law
4200 Regent Street, Suite 200
Columbus, Ohio 43219
Phone: (614) 237-8050
Email: drewavo@wowway.com
Timothy F. Sweeney (OH 0040027)
MEMBER OF THE BAR OF THIS COURT
LAW OFFICE OF TIMOTHY FARRELL SWEENEY
The 820 Building, Suite 430
820 West Superior Ave.
Cleveland, Ohio 44113-1800
Phone: (216) 241-5003
Email: tim@timsweeneylaw.com
*COUNSEL OF RECORD
Counsel for Petitioner Anthony Kirkland

INDEX OF APPENDIX
Appendix A:
State v. Kirkland, Supreme Court of Ohio, Opinion & Judgment
in Case No. 2018-1265, August 18, 2020........................................... APPX-0001
Appendix B:
State v. Kirkland, Supreme Court of Ohio, Order denying
reconsideration in Case No. 2018-1265, October 13, 2020 ............... APPX-0050
Appendix C:
State v. Kirkland, Supreme Court of Ohio, Opinion & Judgment
in Case No. 2010-0854, May 13, 2014 .............................................. APPX-0051
Appendix D:
State v. Kirkland, Supreme Court of Ohio, Order denying
reconsideration in Case No. 2010-0854, September 24, 2014 ......... APPX-0103
Appendix E:
Kirkland v. Ohio, U.S. Supreme Court, Order denying
certiorai in Case No. 14-7726, April 6, 2015 .................................... APPX-0104
Appendix F:
State v. Kirkland, Supreme Court of Ohio, Order in
Case No. 2010-0854 of remand for new mitigation and sentencing
hearing (May 4, 2016) & reconsideration denied (Nov. 9, 2016) ..... APPX-0105
Appendix G:
State v. Kirkland, Ohio Ct. of Common Pleas, Hamilton County,
sentencing opinion & judgment of current death sentence,
August 28/29, 2018............................................................................. APPX-0107
Appendix H:
State v. Kirkland, Ohio Ct. of Common Pleas, Hamilton County,
sentencing opinion & judgment of original death sentence,
March 31, 2010 ................................................................................... APPX-0127

[Cite as State v. Kirkland, 160 Ohio St.3d 389, 2020-Ohio-4079.]

THE STATE OF OHIO, APPELLEE, v. KIRKLAND, APPELLANT.
[Cite as State v. Kirkland, 160 Ohio St.3d 389, 2020-Ohio-4079.]
Criminal law—Aggravated murders—Death sentences imposed after resentencing
hearing affirmed.
(No. 2018-1265—Submitted March 10, 2020—Decided August 18, 2020.)
APPEAL from the Court of Common Pleas of Hamilton County, No. B 0901629.
______________
FRENCH, J.
{¶ 1} Between 2006 and 2009, appellant, Anthony Kirkland, murdered two
teenaged girls, Casonya C. and Esme K., and two adult women, Mary Jo Newton
and Kimya Rolison. Kirkland pleaded guilty to the murders of Newton and Rolison
and was sentenced to 70 years to life in prison. A jury found Kirkland guilty of the
aggravated murders of Casonya and Esme, and he was sentenced to death for each
aggravated murder.
{¶ 2} This court initially affirmed Kirkland’s convictions and sentence.
State v. Kirkland, 140 Ohio St.3d 73, 2014-Ohio-1966, 15 N.E.3d 818 (“Kirkland
I”). However, upon Kirkland’s subsequent motion for relief, we vacated the death
sentences and remanded this case to the trial court for resentencing, in accordance
with R.C. 2929.06(B), on the aggravated-murder convictions. 145 Ohio St.3d
1455, 2016-Ohio-2807, 49 N.E.3d 318 (“Kirkland II”). On remand, the jury
recommended a death sentence for each murder and the trial court again sentenced
Kirkland to death for the aggravated murders of Casonya and Esme.
{¶ 3} This is an appeal of right from those two death sentences. Kirkland
presents 11 propositions of law. For the reasons we explain below, we affirm the
judgment of the trial court.

Appendix A
APPX-0001

SUPREME COURT OF OHIO

I. FACTS
A. The Murders
1. Casonya C.
{¶ 4} Fourteen-year-old Casonya C. lived in Cincinnati with her
grandmother, Patricia C. On May 3, 2006, around 11:00 p.m., Patricia learned that
Casonya had left the house. The next day, Casonya was absent from school, and
Patricia learned that Casonya’s mother had not seen her. Patricia called the police
and reported Casonya missing.
{¶ 5} On May 9, 2006, city workers called police after finding a body
underneath a pile of old tires in a secluded area near the end of a dead-end road.
The body was heavily charred and decomposed. Some teeth had been recently
knocked out.
{¶ 6} Just past the end of the road, police found a charred area where it
appeared that the body had been burned before being moved and covered with tires.
Nearby they found a piece of timber that was charred at one end; it had apparently
been used to stir the fire. The victim was later identified as Casonya C.
2. Mary Jo Newton
{¶ 7} On June 15, 2006, smoldering human remains were found near the
end of a dead-end street, about half a mile from where Casonya’s body had been
found. An autopsy indicated that the victim was already dead when the body was
set on fire. The victim was identified as Mary Jo Newton.
{¶ 8} Cincinnati homicide detective Keith Witherell interviewed Kirkland
in March 2007 in connection with the homicides of Newton and Casonya. Kirkland
admitted having had sex with Newton, but denied ever harming her. When he was
shown a photograph of Casonya, he said he did not recognize her. Having no
evidence to link Kirkland with these murders, police did not then arrest or charge
him.

Appendix A
2

APPX-0002

January Term, 2020

3. Kimya Rolison
{¶ 9} On June 13, 2008, the scattered bones of a third victim were found in
a wooded area at the dead end of Pulte Street in Cincinnati. No specific cause of
death could be determined. However, there was a cut on one of the cervical (neck)
vertebrae that the coroner’s office determined had been caused by a sharp
instrument, such as a knife, being applied with significant force. The bones had
been burned. In 2009, the remains were identified as those of Kimya Rolison, who
had been missing since October 2006.
4. Esme K.
{¶ 10} On the afternoon of March 7, 2009, 13-year-old Esme K. went
jogging around a reservoir near her home. She was wearing a purple wristwatch
and carrying her iPod.
{¶ 11} Later that day, Esme’s mother called 9-1-1 to report that Esme was
missing. Responding to the call, police searched an abandoned house and a wooded
area near the reservoir. Two officers spotted Kirkland sitting under a tree. They
saw knives protruding from his pocket, so they disarmed and searched him. In his
pockets they found a purple watch and an iPod with Esme’s name on it. Esme’s
mother identified these items as Esme’s.
{¶ 12} Kirkland initially gave a false name and claimed he had found the
watch and iPod. After police efforts to confirm his identity failed, Kirkland gave
his real name. As the search for Esme continued, police took Kirkland to the police
station.
{¶ 13} Searchers found Esme’s body in the woods. Her body was nude
except for socks and shoes and was seated, with her back up against a fallen tree
branch, legs apart. Her genitals, inner thighs, and left hand had been severely
burned.
{¶ 14} An autopsy indicated that Esme had been killed by ligature
strangulation. The large number of petechiae (ruptured blood vessels) on her face

Appendix A
3

APPX-0003

SUPREME COURT OF OHIO

was consistent with a long struggle, possibly eight to ten minutes. Hemorrhaging
underneath her scalp showed that she had been struck on the back of the head.
{¶ 15} There was also evidence of premortem trauma to Esme’s vagina and
anus, possibly caused by an attempt to penetrate those areas with a penis or foreign
object. DNA consistent with Esme’s was found on Kirkland’s hands, penis, and
underwear.
B. Kirkland’s Interrogation
{¶ 16} Detective Witherell interviewed Kirkland on March 8, 2009. During
this interview, Kirkland told multiple inconsistent stories.
{¶ 17} At first, he claimed to have no idea his arrest was related to the
missing girl. Kirkland said that while walking in the woods around the reservoir
on the morning of March 7, he found a purple watch and a “pink radio” (Esme’s
iPod), which he pocketed. He repeatedly denied having seen anyone jogging near
the reservoir, pretended he did not even know the missing girl’s race, and expressed
surprise when he was told that the watch and “radio” belonged to the missing girl.
{¶ 18} After further questioning, Kirkland admitted that he had met Esme
at the reservoir. He claimed that he and Esme collided, causing him to drop his
beer and lose his temper. He admitted that he had punched and kicked Esme, but
claimed he had left her alive.
{¶ 19} After detectives told Kirkland that Esme’s body had been found, he
changed his story again, claiming to have no memory of what had happened. He
then admitted that he had chased Esme into the woods. But he continued to claim
that he had left her alive.
{¶ 20} Then Kirkland changed his story again, claiming he had left Esme
alive with an acquaintance he knew only as Pedro. Finally, Kirkland admitted that
he had known that Esme was dead and that he had gone back to the reservoir to
move her body. He said, “She died because of my hatred.” Still, he denied having
killed her.

Appendix A
4

APPX-0004

January Term, 2020

{¶ 21} About two hours later, Detective Bill Hilbert questioned Kirkland
about Newton and Casonya C. Kirkland confessed to Newton’s murder. According
to Kirkland, on the day of the murder, he picked Newton up in the College Hill
area. They drove around to various places, ending up in the Eden Park area, where
they had an argument.
{¶ 22} According to Kirkland, during the argument, Newton struck him,
and he then choked her to death. He drove to Avondale, dumped her body at the
end of a dead-end street, and set her body on fire, using gasoline as an accelerant.
According to Kirkland, he burned the body because “fire purifies” and burning the
body was “a proper burial.”
{¶ 23} Kirkland also confessed to murdering Casonya. He told Detective
Hilbert that he first saw Casonya around 1:00 a.m. on a bridge near Walnut Hills
High School. According to Kirkland, Casonya started a conversation with him and
he paid her $20 to continue talking to him. But they had an argument, and Casonya
threw the money back at him. Angry, Kirkland grabbed Casonya, and she kneed
him. He then choked her to death. He carried her body to a wooded area and burned
it, using lighter fluid as an accelerant. He then carried her body down a hill and
covered it with tires.
{¶ 24} Kirkland then gave another account of Esme’s murder. He said that
he collided with Esme; she was apologetic, but he became enraged and chased her
into the woods. When she tripped over a small fence, he caught her and choked
her.
{¶ 25} At first, Kirkland denied having raped Esme. But he eventually told
Hilbert, “[She] said that she would do whatever I wanted, just don’t hurt her.” He
had sex with her but was unable to penetrate her completely, so he made her
masturbate him. Esme said she would not tell anyone, but Kirkland did not believe
her, so he choked her to death. (In a later interview, Kirkland explained that he had
strangled her with a rag after failing to kill her with his bare hands.)

Appendix A
5

APPX-0005

SUPREME COURT OF OHIO

{¶ 26} Kirkland propped Esme’s body up against a fallen tree branch and,
using her clothes as an accelerant, partially burned her body. After staying with the
body for a while, he went to find lighter fluid “to perform the [burning] ritual.” He
eventually returned to the woods but did not go back to the body; instead, he fell
asleep under a tree, and that is where the police found him.
{¶ 27} In a third interview, detectives asked Kirkland about an unidentified
burned body found in the Pulte Street area. At first, Kirkland claimed he had killed
only three victims, but he finally admitted to having killed “one more.”
{¶ 28} According to Kirkland, he knew the Pulte Street victim as Kim. She
was working as a prostitute when he met her in December 2006. He picked her up
in his van and paid her for sex. As they drove along, they began to argue; Kirkland
pulled the van over and stabbed her in the throat with her own knife. He laid her
body out on a bed of wood, sprayed it with lighter fluid, burned it, and covered it.
Some of the information Kirkland provided during his confession enabled police to
identify the Pulte Street remains as those of Kimya Rolison.
C. Procedural History
{¶ 29} In 2009, the state filed a 12-count indictment against Kirkland. The
indictment included four counts of aggravated murder with death-penalty
specifications.

Count Two charged Kirkland with the aggravated murder of

Casonya C. while committing or attempting to commit rape. Count Two included
two death specifications: one alleging that the aggravated murder was part of a
course of conduct involving the purposeful killing of or attempt to kill two or more
people, R.C. 2929.04(A)(5), and one alleging felony-murder predicated on rape,
R.C. 2929.04(A)(7). Count Four charged Kirkland with the aggravated murder of
Casonya while committing or attempting to commit aggravated robbery. Count
Four included death specifications for course of conduct and felony-murder
predicated on aggravated robbery.

Appendix A
6

APPX-0006

January Term, 2020

{¶ 30} Count Nine charged Kirkland with the aggravated murder of Esme
while committing or attempting to commit rape, with death specifications for
murder to escape detection for rape, R.C. 2929.04(A)(3), course of conduct, and
felony-murder predicated on rape.

Count Eleven charged Kirkland with the

aggravated murder of Esme while committing or attempting to commit aggravated
robbery, with death specifications for murder to escape detection for attempted
rape, course of conduct, and felony-murder predicated on aggravated robbery.
{¶ 31} The indictment also included eight noncapital counts, including one
charging Kirkland with the murder of Newton. A separate indictment charged
Kirkland with the murder of Rolison and abuse of her corpse. The indictments were
consolidated for trial.
{¶ 32} Kirkland pleaded guilty to the murder and corpse-abuse counts
relating to Newton and Rolison. The trial court sentenced him to 70 years to life in
prison for those murders. In 2010, a jury found Kirkland guilty on all remaining
counts, including all the death-penalty specifications. Kirkland was sentenced to
death for the aggravated murders of Casonya and Esme.
{¶ 33} In 2014, we affirmed Kirkland’s convictions and death sentences.
Kirkland I, 140 Ohio St.3d 73, 2014-Ohio-1966, 15 N.E.3d 818. However, on May
4, 2016, on Kirkland’s motion, we remanded this case to the trial court for a new
mitigation-and-sentencing hearing (“resentencing hearing”), in accordance with
R.C. 2929.06(B), on the aggravated-murder convictions. Kirkland II, 145 Ohio
St.3d 1455, 2016-Ohio-2807, 49 N.E.3d 318. At the resentencing hearing, a jury
again recommended death sentences on all aggravated-murder counts and the trial
court sentenced Kirkland to death on each count. Kirkland now appeals those death
sentences.

Appendix A
7

APPX-0007

SUPREME COURT OF OHIO

II. DISCUSSION
A. Voir Dire Issues
1. Denial of Individual, Sequestered Voir Dire
{¶ 34} At the beginning of the resentencing hearing, during voir dire, 15
prospective jurors indicated either that they supported capital punishment in all
cases or that they opposed it in all cases. These prospective jurors were subjected
to further voir dire with respect to their views on capital punishment. Kirkland
asked the trial court to conduct the death-qualification voir dire of these 15
prospective jurors individually and outside the presence of other prospective jurors.
The trial court denied the request and instead death-qualified these prospective
jurors in a group. In his first proposition of law, Kirkland contends that the trial
court erred by denying his request for individual, sequestered voir dire.
{¶ 35} Capital defendants are not entitled to individual, sequestered voir
dire. Rather, “[t]he determination of whether a voir dire in a capital case should be
conducted in sequestration is a matter of discretion within the province of the trial
judge.” State v. Mapes, 19 Ohio St.3d 108, 484 N.E.2d 140 (1985), paragraph three
of the syllabus; see also State v. McKelton, 148 Ohio St.3d 261, 2016-Ohio-5735,
70 N.E.3d 508, ¶ 84.
{¶ 36} Kirkland contends that the group voir dire prejudiced him in two
ways. He argues that because the first prospective juror examined was excused
after stating that she would be unable to consider imposing a death sentence, “all
the other prospective jurors in the room saw what they should say to get out of jury
duty in a capital case.” Kirkland seems to suggest that subsequent prospective
jurors may have lied about their beliefs “to get out of jury duty,” but nothing in the
record supports that conjecture. Moreover, the voir dire process gave the defense
a full opportunity to test the validity of any prospective juror’s claim of being biased
against the death penalty.

Appendix A
8

APPX-0008

January Term, 2020

{¶ 37} Kirkland also contends that the prosecutor made two “improper
remarks” during voir dire that tainted all prospective jurors in the courtroom. We
examine each in turn.
{¶ 38} First, Kirkland points to the following statement by the prosecutor:
“[I]f in doing that weighing process, the aggravating circumstances have the greater
weight, you shall recommend a sentence of death.” The defense objected to the use
of the word “recommend” and moved for a mistrial, which the trial court denied.
{¶ 39} The prosecutor’s use of the word “recommend” did not violate the
Constitution. See State v. Bey, 85 Ohio St.3d 487, 496, 709 N.E.2d 484 (1999). A
jury’s verdict in favor of death is a recommendation, since the judge may impose a
life sentence even if the jury recommends death, see R.C. 2929.03(D)(3), and we
have “consistently rejected” arguments that an accurate instruction to that effect
“impermissibly reduces the jury’s sense of responsibility.” State v. Carter, 72 Ohio
St.3d 545, 559, 651 N.E.2d 965 (1995); see also State v. Maxwell, 139 Ohio St.3d
12, 2014-Ohio-1019, 9 N.E.3d 930, ¶ 88.
{¶ 40} Second, Kirkland points to the prosecutor’s statement that jurors
would be “required to sign a death verdict” if they found that the aggravating
circumstances outweighed the mitigating factors. “It is * * * only if you make such
a finding, not only can you sign a death verdict, the law says to sit on this case, you
have to sign a death verdict.” Kirkland does not explain how this statement was
improper. And in fact, it is an accurate statement. See R.C. 2929.03(D)(2) (if the
jury unanimously finds that the aggravating circumstances outweigh the mitigating
factors, it “shall recommend * * * that the sentence of death be imposed”).
{¶ 41} Kirkland “has neither recited facts showing abuse of discretion nor
demonstrated prejudice resulting from the court’s refusal to conduct a sequestered
voir dire,” Carter at 555. Accordingly, we reject his claim that the trial court erred
by denying his request for individual, sequestered voir dire.

Appendix A
9

APPX-0009

SUPREME COURT OF OHIO

2. Excusals for Cause
{¶ 42} Kirkland also contends in his first proposition of law that the trial
court erroneously excused prospective jurors for cause on the ground of their
reservations about capital punishment.
{¶ 43} It is constitutionally impermissible to exclude an impartial
prospective juror for cause simply because the prospective juror expresses
reservations about imposing the death penalty. State v. Keith, 79 Ohio St.3d 514,
519-520, 684 N.E.2d 47 (1997), citing Witherspoon v. Illinois, 391 U.S. 510, 520523, 88 S.Ct. 1770, 20 L.Ed.2d 776 (1968). The standard for determining when a
prospective juror may be excluded for cause based on his views on capital
punishment is whether the prospective juror’s views “would prevent or
substantially impair the performance of his duties as a juror in accordance with his
instructions and oath.” Adams v. Texas, 448 U.S. 38, 45, 100 S.Ct. 2521, 65
L.Ed.2d 581 (1980); see also Wainwright v. Witt, 469 U.S. 412, 424, 105 S.Ct. 844,
83 L.Ed.2d 841 (1985); State v. Rogers, 17 Ohio St.3d 174, 478 N.E.2d 984 (1985),
paragraph three of the syllabus, vacated on other grounds, 474 U.S. 1002, 106 S.Ct.
518, 88 L.Ed.2d 452 (1985). The trial court’s finding is entitled to deference, Witt
at 426, and will not be disturbed on appeal absent an abuse of discretion, see, e.g.,
Maxwell, 139 Ohio St.3d 12, 2014-Ohio-1019, 9 N.E.3d 930, at ¶ 94.
{¶ 44} Kirkland’s brief principally discusses three prospective jurors:
prospective juror Nos. 2, 8, and 27.1 The trial court excused each of these
prospective jurors for cause.
a. Prospective Juror No. 2
{¶ 45} Prospective juror No. 2 stated that she could not fairly consider the
imposition of a death sentence and that her views on capital punishment would
prevent or substantially impair the performance of her duties as a juror in
1. In his brief, Kirkland mistakenly refers to prospective juror No. 2 as prospective juror No. 8, and
vice versa.

Appendix A
10

APPX-0010

January Term, 2020

accordance with her instructions and oath. She said: “I just can’t do it”; “No, I
couldn’t do it”; and “I could not sentence a person to death.”
{¶ 46} Defense counsel pointed out that on her questionnaire, the
prospective juror had indicated that she agreed that the death penalty “should
sometimes be used as punishment in certain murder cases.” The prospective juror
explained that she had given that response because “others have different opinions,”
but she did not think she could “do it” (i.e., impose a death sentence).
{¶ 47} She adhered to this position during most of the defense’s voir dire.
However, when defense counsel asked her whether “[d]espite [her] personal
misgivings,” she could “apply the law * * * and give reasonable, meaningful
consideration to the death penalty,” she said, “Perhaps.”
{¶ 48} The trial judge asked the prospective juror whether she had a belief
that would prevent her from signing a death verdict. She said, “Yes.” In response
to a defense follow-up question, she said, “Within me, I could not sign [a verdict]
stating that someone should be put to death.”
{¶ 49} Prospective juror No. 2’s responses were consistent overall: she
repeatedly proclaimed her inability to impose a death sentence. Only once did she
waver even to the extent of saying, “Perhaps.” The record supports a finding that
this prospective juror’s ability to apply the law in a capital case was at least
substantially impaired. The trial court did not abuse its discretion when it excused
prospective juror No. 2 for cause.
b. Prospective Juror No. 8
{¶ 50} Prospective juror No. 8 told the judge: “I would consider your
instructions but ultimately, I couldn’t sign a verdict for the death penalty.” Under
defense questioning, she elaborated: “I would certainly consider the Judge’s
instructions, and if the option of capital punishment is on the table, I would give
that consideration, but I can tell you unequivocally that under no circumstances will
I ever agree to put that sentence.”

Appendix A
11

APPX-0011

SUPREME COURT OF OHIO

{¶ 51} Shortly after that, prospective juror No. 8 agreed that she “could give
meaningful consideration” to the law, and she said that she “would absolutely
follow the law.” However, the trial judge then asked: “Bottom line is * * * you
cannot put your name on a piece of paper that would seek the death penalty for any
individual including this individual; is that correct?” The prospective juror replied:
“That’s correct, Your Honor,” and the trial court then excused her.
{¶ 52} Notwithstanding her general promises to follow the law, prospective
juror No. 8 stated “unequivocally that under no circumstances [would she] ever
agree” to a death sentence. Her mind was made up, and the record fully supports
excusing her.
c. Prospective Juror No. 27
{¶ 53} Prospective juror No. 27 gave varying answers during voir dire.
Initially, he said that he could not fairly consider a death sentence and that his views
would prevent or substantially impair his performance as a juror. Immediately after
that, though, he told the judge that although he is opposed to the death penalty, he
could follow the court’s instructions and fairly consider a death sentence. He
added, “If I am selected, I have no choice but to do it” (i.e., follow the law). But
he then said, “I just ask not to be in that position,” because the conflict between his
opposition to capital punishment and his belief in following the law would be “very
difficult.”
{¶ 54} Prospective juror No. 27 then reverted to his initial position: he told
the court that he could not sign a death verdict and “unequivocally” could not fairly
consider a death sentence. He reiterated this position during the state’s voir dire.
{¶ 55} Prospective juror No. 27 wavered slightly under defense
questioning: he said he could weigh the mitigating factors against the aggravating
circumstances. But then he flipped again, stating that he could not sign a death
verdict. Defense counsel asked: “You wouldn’t follow the law?” The prospective
juror replied: “I don’t know. * * * I am back and forth.”

Appendix A
12

APPX-0012

January Term, 2020

{¶ 56} Kirkland contends that prospective juror No. 27 should have been
retained because he did not “unequivocally say he couldn’t follow the law.” In fact,
he did say just that. The trial court asked, “Are you stating unequivocally that under
no circumstance will you follow my instructions * * * in that you cannot and will
not consider fairly the imposition of the sentence of death, if appropriate in this
case?” The prospective juror answered, “Yes, Your Honor.”
{¶ 57} In any event, the test is not whether the prospective juror
unequivocally proclaims a bias; it is whether the prospective juror’s views would
prevent or substantially impair the performance of his duties. Witt, 469 U.S. at 424,
105 S.Ct. 844, 83 L.Ed.2d 841; see also Rogers, 17 Ohio St.3d 174, 478 N.E.2d
984, at paragraph three of the syllabus.
What common sense should have realized experience has proved:
many veniremen simply cannot be asked enough questions to reach
the point where their bias has been made “unmistakably clear”; these
veniremen may not know how they will react when faced with
imposing the death sentence, or may be unable to articulate, or may
wish to hide their true feelings. Despite this lack of clarity in the
printed record, however, there will be situations where the trial
judge is left with the definite impression that a prospective juror
would be unable to faithfully and impartially apply the law. * * *
[T]his is why deference must be paid to the trial judge who sees and
hears the juror.
(Footnote omitted.) Witt at 424-426. Thus, a trial court does not abuse its discretion
when it excuses prospective jurors who give conflicting answers on voir dire, see,
e.g., State v. Neyland, 139 Ohio St.3d 353, 2014-Ohio-1914, 12 N.E.3d 1112,

Appendix A
13

APPX-0013

SUPREME COURT OF OHIO

¶ 135, or prospective jurors who “[do] not know how they will react when faced
with imposing the death sentence,” Witt at 426.
{¶ 58} Prospective juror No. 27 said several times that he could not consider
imposing death. A few of his responses pointed the other way. Perhaps he came
closest to the truth when he said: “I don’t know. * * * I am back and forth.”
{¶ 59} When a prospective juror gives contradictory responses, as
prospective juror No. 27 did, “it is for the trial court to determine which answer
reflects the juror’s true state of mind.” State v. Jones, 91 Ohio St.3d 335, 339, 744
N.E.2d 1163 (2001). The voir dire gave the trial court good grounds for concluding
that prospective juror No. 27’s views would prevent or substantially impair the
performance of his duties. His responses amounted to “substantial testimony,”
State v. Wilson, 29 Ohio St.2d 203, 211, 280 N.E.2d 915 (1972), supporting the
trial court’s decision to excuse him for cause. The trial court did not abuse its
discretion by excusing him.
d. Prospective Juror Nos. 63, 66, 68, and 87
{¶ 60} According to Kirkland, prospective juror Nos. 63, 66, 68, and 87
were excused because “they said they couldn’t handle the death penalty.”
Kirkland’s brief does not make clear whether he is claiming that they were
erroneously excused. If he is making such a claim, it lacks merit. Prospective juror
Nos. 66, 68, and 87 all stated expressly that they could not fairly consider imposing
a death sentence and could not sign a death verdict. As for prospective juror No.
63, he was excused on a defense challenge for cause due to his bias in favor of a
death sentence; he favored an automatic death sentence for all murderers and said
no possible mitigation could outweigh two aggravated murders. Thus, any error in
excusing prospective juror No. 63 could only have benefited Kirkland. And if there
was any error that benefited the state by excusing prospective juror No. 63,
Kirkland invited it by challenging him for cause. See State v. Ford, 158 Ohio St.3d
139, 2019-Ohio-4539, 140 N.E.3d 616, ¶ 279.

Appendix A
14

APPX-0014

January Term, 2020

3. Jury-Questionnaire Cover Page
{¶ 61} In his second proposition of law, Kirkland contends that the cover
page of the jury questionnaire discouraged candid responses and thereby impaired
the adequacy of voir dire. The cover page contained the following notice:
POTENTIAL JURORS


Please be aware that the following questionnaire you will fill out
may be subject to review by the media or others pursuant to a
public records request.



Please also note that no actual identification information will be
released. Any information you provide on your questionnaires
that could be used to individually identify you would be deleted
or blacked out before any questionnaires would be released.

(Underlining and boldface sic.) Before voir dire, the defense requested that the
cover page be omitted. The trial court denied the request.
{¶ 62} Kirkland argues that by giving the prospective jurors notice that the
questionnaires were subject to disclosure, the cover page exerted a “chilling effect”
on them, discouraging candid answers by calling their attention to the possibility
that their answers could be made public. But we have said that “trial courts should
* * * conspicuously advise prospective jurors in writing that * * * their responses
may be subject to public disclosure.” State ex rel. Beacon Journal Publishing Co.
v. Bond, 98 Ohio St.3d 146, 2002-Ohio-7117, 781 N.E.2d 180, ¶ 26.
{¶ 63} Moreover, the prospective jurors were not told only that the
questionnaires were subject to disclosure; they were also told that personal
identifying information would be deleted before any disclosure. In light of that
assurance, Kirkland’s claim of a “chilling effect” amounts to speculation. The trial
court’s suggestion that prospective jurors concerned about privacy would find the

Appendix A
15

APPX-0015

SUPREME COURT OF OHIO

assurance comforting—and as a consequence be more candid than otherwise—is at
least equally plausible.
{¶ 64} And the trial court affirmatively encouraged candor when it told the
prospective jurors to “answer the questionnaires as if you were answering the
questions in the courtroom” and instructed, “[T]he oath that you took earlier to well
and truly answer all questions applies to * * * the questionnaire.” The prospective
jurors understood that they were sworn to answer the questionnaire truthfully. The
trial court reasonably declined to assume that the cover-page notice would cause
prospective jurors to violate their oath.
{¶ 65} Finally, we note that the jury questionnaire is not the sole, or even
the principal, means by which litigants learn about prospective jurors. It is the voir
dire itself—the face-to-face exchange between the prospective jurors and
counsel—that is central to obtaining an impartial jury. The voir dire process gave
defense counsel a full opportunity to question the prospective jurors and thereby
elicit complete and candid answers from them.
{¶ 66} The trial court did not deny Kirkland an adequate opportunity for
voir dire by including the cover page with the questionnaire. Kirkland’s second
proposition of law is overruled.
4. Failure to Dismiss Allegedly Biased Juror
{¶ 67} In his third proposition of law, Kirkland contends that one of the
prospective jurors who ended up seated on the jury, prospective juror No. 36,
favored an automatic death penalty in every murder case and therefore should have
been removed. However, Kirkland never challenged this prospective juror for
cause; he has therefore forfeited this claim, absent plain error.
{¶ 68} On her questionnaire, prospective juror No. 36 checked boxes
indicating that the death penalty is “[a]ppropriate in every case where someone has
been murdered” and “should always be used as the punishment for every murder.”

Appendix A
16

APPX-0016

January Term, 2020

{¶ 69} On voir dire, defense counsel asked the panel members as a group
whether they understood that the death sentence is not automatic:
And just because Mr. Kirkland has been found guilty by a
prior jury does not mean that Mr. Kirkland automatically gets the
death penalty. Fair? Everybody gets that?
Just because a jury has said guilty, that he is guilty of
aggravated murder and specifications associated with aggravated
murder, the case is not over. Everybody understands that, right?
Good.
No prospective juror responded to these questions.
{¶ 70} Defense counsel also briefly questioned prospective juror No. 36
about the views expressed on her questionnaire:
MR. CUTCHER [defense counsel]: I think you listed the
death penalty is necessary?
[Prospective juror No. 36]: Yes.
MR. CUTCHER: Did you mean necessary in some cases, all
cases?
[Prospective juror No. 36]: Some cases.
MR. CUTCHER: Thank you for correcting me so quickly.
The death penalty should always be used as a punishment for every
murder. You put you agreed with that.
[Prospective juror No. 36]: In answering the question, yes,
at the time, yes. I answered yes.
MR. CUTCHER: So you don’t think it is appropriate in
every case?

Appendix A
17

APPX-0017

SUPREME COURT OF OHIO

[Prospective juror No. 36]: In listening to—there are so
many different cases that was discussed earlier today, I don’t know
how to answer that honestly.
MR. CUTCHER: That’s all right. I didn’t mean to put you
on the spot.
(Emphasis added.) Defense counsel asked no further questions of prospective juror
No. 36. Neither did the trial court. The defense did not challenge prospective juror
No. 36 for cause, and she served on the jury in the resentencing hearing.
{¶ 71} By declining to challenge prospective juror No. 36 for cause,
Kirkland forfeited this claim. See State v. Mammone, 139 Ohio St.3d 467, 2014Ohio-1942, 13 N.E.3d 1051, ¶ 78. For this court to consider this claim, Kirkland
must show plain error: that an error occurred, that it was plain, and that it affected
his substantial rights. State v. Barnes, 94 Ohio St.3d 21, 27, 759 N.E.2d 1240
(2002). If he makes this showing, we must decide whether we will, in our
discretion, correct the error. Id.
{¶ 72} A plain error is “an ‘obvious’ defect in the trial proceedings.” Id.
To qualify as correctible plain error, the defect “must have affected ‘substantial
rights,’ ” which “mean[s] that the trial court’s error must have affected the outcome
of the trial.” Id. We have held that a defendant must “demonstrate a reasonable
probability that the error resulted in prejudice.” (Emphasis sic.) State v. Rogers,
143 Ohio St.3d 385, 2015-Ohio-2459, 38 N.E.3d 860, ¶ 22.
{¶ 73} “Actual bias is ‘bias in fact’—the existence of a state of mind that
leads to an inference that the person will not act with entire impartiality.” United
States v. Torres, 128 F.3d 38, 43 (2d Cir.1997), citing United States v. Wood, 299
U.S. 123, 133, 57 S.Ct. 177, 81 L.Ed. 78 (1936). Here, the questionnaire contains
an expression of partiality on the part of prospective juror No. 36. A juror who will
automatically impose a death sentence is biased. Morgan v. Illinois, 504 U.S. 719,

Appendix A
18

APPX-0018

January Term, 2020

729, 112 S.Ct. 2222, 119 L.Ed.2d 492 (1992). Hence, by stating that capital
punishment should be imposed on all murderers, prospective juror No. 36 revealed
“a state of mind that leads to an inference that [she would] not act with entire
impartiality,” Torres at 43.
{¶ 74} But the expression of partiality does not end the analysis. A court
will find actual bias when a prospective juror’s unambiguous statement of partiality
is “coupled with a lack of juror rehabilitation or juror assurances of impartiality.”
Miller v. Webb, 385 F.3d 666, 675 (6th Cir.2004).
{¶ 75} Prospective juror No. 36’s questionnaire statement was not coupled
with a lack of juror rehabilitation. While she did not say she could set aside the
opinion expressed on her questionnaire, she did indicate that she no longer held that
opinion. As soon as defense counsel brought up her statement on the questionnaire,
she immediately contradicted it. These responses showed that prospective juror
No. 36 had reconsidered her original opinion in response to what she heard during
voir dire, and they indicated a newfound understanding that a single dogmatic
response is not appropriate to every murder conviction.
{¶ 76} When a prospective juror gives contradictory answers, it is the trial
judge’s function to determine her true state of mind. Jones, 91 Ohio St.3d at 339,
744 N.E.2d 1163. The question whether a juror is impartial is “one of historical
fact.” Patton v. Yount, 467 U.S. 1025, 1036, 104 S.Ct. 2885, 81 L.Ed.2d 847
(1984); hence, a trial court’s finding is entitled to deference on appellate review.
E.g., State v. Webb, 70 Ohio St.3d 325, 339, 638 N.E.2d 1023 (1994).
{¶ 77} Given the prospective juror’s change of mind during voir dire, we
cannot find that the trial court committed an obvious error in failing to dismiss her
sua sponte.

Accordingly, no plain error exists here.

Kirkland’s third proposition of law.

Appendix A
19

APPX-0019

We therefore overrule

SUPREME COURT OF OHIO

B. Ineffective Assistance of Counsel
{¶ 78} In his sixth proposition of law, Kirkland contends that his counsel
rendered ineffective assistance during the resentencing hearing. To establish
ineffective assistance, Kirkland must show (1) deficient performance by counsel,
i.e., performance falling below an objective standard of reasonable representation,
and (2) prejudice, i.e., a reasonable probability that but for counsel’s errors, the
proceeding’s result would have been different. Strickland v. Washington, 466 U.S.
668, 687-688, 694, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984); State v. Bradley, 42
Ohio St.3d 136, 538 N.E.2d 373 (1989), paragraphs two and three of the syllabus.
Kirkland contends that his trial counsel failed him in three ways, each of which we
address below.
1. Ineffective Voir Dire
{¶ 79} In part one of his sixth proposition of law, Kirkland recasts his jurorbias claim regarding prospective juror No. 36, who ended up seated on the jury, as
an ineffective-assistance claim. According to Kirkland, his counsel should have
“question[ed prospective juror No. 36] specifically on [her] views on the death
penalty” and should have “remov[ed her] from the pool” (i.e., challenged her for
cause).
{¶ 80} There are two problems with this argument. First, as Kirkland
concedes, to show prejudice, he must show that the juror was actually biased against
him. State v. Mundt, 115 Ohio St.3d 22, 2007-Ohio-4836, 873 N.E.2d 828, ¶ 67.
Here, the record does not show that the juror was actually biased, since she
contradicted her questionnaire answers on voir dire. Second, there is no way to
know what prospective juror No. 36 would have said if trial counsel had questioned
her in greater depth. It would be speculative to assume that more or different
questions would have exposed bias.
{¶ 81} At oral argument, Kirkland cited our recent decision in State v.
Bates, 159 Ohio St.3d 156, 2020-Ohio-634, 149 N.E.3d 475, in which we reversed

Appendix A
20

APPX-0020

January Term, 2020

a capital conviction for ineffective assistance of counsel. In Bates, we determined
that defense counsel rendered constitutionally ineffective assistance by failing to
challenge, or even question, a seated juror who had expressed racial bias on her
questionnaire. But this case is easily distinguishable from Bates. Unlike Kirkland’s
counsel, defense counsel in Bates asked no questions of the juror relating to the
biased answer on her questionnaire. Id. at ¶ 29, 31-32. And as a result, the juror in
Bates—unlike prospective juror No. 36—said nothing on voir dire to counteract the
biased statement on the questionnaire. Id. at ¶ 36.
{¶ 82} In this case, we can find neither deficient performance by counsel
nor a reasonable probability that the result would have been different but for
counsel’s alleged errors. Accordingly, we reject Kirkland’s claim of ineffective
assistance with respect to prospective juror No. 36.
2. Failure to Cross-Examine Witnesses
{¶ 83} Kirkland also contends that his trial counsel performed deficiently
by declining to cross-examine four prosecution witnesses: Casonya’s grandmother,
who reported her missing; Mary Jo Newton’s sister, who testified about Newton’s
substance-abuse, behavioral, and psychiatric problems; Detective Witherell, whose
video-recorded interrogation of Kirkland was played for the jury; and Detective
Hilbert, who investigated the murders of Casonya and Newton and who also
interrogated Kirkland.
{¶ 84} Kirkland concedes that to demonstrate that his counsel provided
ineffective assistance by failing to cross-examine these witnesses, he must identify
questions that counsel should have asked and provide some sense of the information
that might have been elicited. See State v. Beasley, 153 Ohio St.3d 497, 2018-Ohio493, 108 N.E.3d 1028, ¶ 155. Yet Kirkland fails to do so. He merely asserts that
counsel “should have used these witnesses to bring out and develop mitigating
factors as to the crimes and as to Kirkland.” This claim is vague and speculative:
Kirkland neither indicates what kind of mitigating information trial counsel could

Appendix A
21

APPX-0021

SUPREME COURT OF OHIO

have attempted to elicit from these witnesses nor gives any reason to suppose that
the witnesses had any such information.2
3. Failure to Call Witnesses
{¶ 85} Finally, Kirkland contends that his trial counsel should have called
more mitigation witnesses. He argues that counsel should have called family
members who could have corroborated his claims of childhood abuse and neglect.
He also argues that counsel should have called an expert on domestic violence and
one or more of the doctors who treated Kirkland when he was admitted to the
University of Cincinnati Hospital for depression in 2008.
{¶ 86} Kirkland’s claim regarding his family rests on speculation. Nothing
in the record shows what testimony his relatives would have given had they taken
the stand. Accordingly, he can show neither deficient performance nor prejudice.
See State v. Elmore, 111 Ohio St.3d 515, 2006-Ohio-6207, 857 N.E.2d 547, ¶ 121,
124.
{¶ 87} As for Kirkland’s 2008 hospitalizations, the jury knew about them,
because an expert witness called by the defense discussed them in her testimony.
Kirkland does not say what further testimony on this point would have added,
except to speculate that testimony from a doctor who had treated him “would have
impressed upon the jury his compromised mental state.” Likewise, Kirkland fails
to explain what mitigation testimony a domestic-violence expert might have
offered. Kirkland’s sixth proposition of law is overruled.

2. We are unable to even guess what mitigating evidence Kirkland believes his trial counsel might
have elicited from Casonya’s grandmother or Newton’s sister. Nothing in the record indicates that
they knew anything about Kirkland or had any firsthand information about the murders.

Appendix A
22

APPX-0022

January Term, 2020

C. Evidentiary Issues
1. Evidence Relating to Other Murders
a. Newton and Rolison Murders
{¶ 88} In his fourth proposition of law, Kirkland contends that the state
violated Evid.R. 404(B) by introducing evidence relating to the murders of Mary
Jo Newton and Kimya Rolison, because the resentencing hearing was not for those
two murders—it was for only the aggravated murders of Esme and Casonya.
{¶ 89} This proposition is meritless. Evid.R 404(B) provides: “Evidence of
other crimes, wrongs, or acts is not admissible to prove the character of a person in
order to show action in conformity therewith.” (Emphasis added.) At the guilt
phase of Kirkland’s original trial, the jury found Kirkland guilty of murdering Esme
and Casonya as part of a course of conduct including two or more intentional
killings. The Newton and Rolison murders were part of that course of conduct, and
the jury was required to weigh the course-of-conduct specification in
recommending a sentence. Thus, for purposes of the resentencing hearing that is
the subject of this appeal, the Newton and Rolison murders were not “other crimes,
wrongs, or acts.”
{¶ 90} Nor were the Newton and Rolison murders introduced to prove
Kirkland’s character in order to show that he acted in conformity therewith. That
is, they were not introduced to show that he was guilty of murdering Esme and
Casonya. He had already been found guilty of those murders; guilt was not at issue
in this resentencing hearing.
{¶ 91} Kirkland also contends that evidence relating to the Newton and
Rolison murders should have been excluded because its probative value was
substantially outweighed by the danger of unfair prejudice, Evid.R. 403(A). This
assertion has even less merit. Again, the Newton and Rolison murders were part
of Kirkland’s course of conduct, which was one of the aggravating circumstances
the jury was required to weigh against the mitigating factors. As such, they were

Appendix A
23

APPX-0023

SUPREME COURT OF OHIO

central to the sentencing determination the jury had to make and could not be
unfairly prejudicial.
b. 1987 Leola Douglas Murder
{¶ 92} Kirkland also contends that during the cross-examination of a
defense mitigation witness, the prosecutor introduced evidence that Kirkland had
been convicted of a 1987 homicide, a homicide that was not part of the course of
conduct.
{¶ 93} The 1987 homicide first came up on cross-examination during the
video deposition of defense medical expert Joseph Wu. On direct examination, Dr.
Wu had testified that damage to the brain’s frontal lobe can impair the brain’s
ability to regulate aggression and cause significant changes in personality. Dr. Wu
further testified that Kirkland had a history of multiple traumatic brain injuries,
including one in 2004, after which, according to Dr. Wu, a friend of Kirkland’s
“reported that he became a completely different person,” and another in 2006.
{¶ 94} On cross-examination, the prosecution asked Dr. Wu whether
Kirkland “was exhibiting extremely violent behavior * * * well before 2004.” And
Dr. Wu admitted that Kirkland was. The prosecution then called his attention to a
presentence investigation report “for a homicide [Kirkland] committed in * * * May
1987 when he killed his uncle’s girlfriend and set the house on fire to cover that
up.”
{¶ 95} The defense objected, arguing that the 1987 homicide was irrelevant
and that its probative value was significantly outweighed by its unfair prejudicial
effect. During the resentencing hearing, the trial judge overruled this objection and
Dr. Wu’s video deposition was then played for the jury. Kirkland makes no claim
that the trial court erred by overruling that objection.
{¶ 96} After the jury heard Dr. Wu’s deposition, the defense presented
another expert, psychologist Patti van Eys. On cross-examination, the prosecutor
asked Dr. van Eys whether she had received a presentence report indicating that

Appendix A
24

APPX-0024

January Term, 2020

“the defendant basically did the same thing to another woman when he was 18 years
old.” Dr. van Eys acknowledged that she had received the report. The prosecutor
then asked:
And * * * the defendant and the victim * * * engaged in a
verbal altercation. According to the defendant, she * * * threatened
to tell his uncle, who was her boyfriend, that they had been having
sexual intercourse. And at that point the defendant became angry,
choked her to death and then poured lighter fluid on her and set her
on fire; is that correct?
{¶ 97} Later, the prosecutor asked Dr. van Eys two other questions about
the 1987 murder. Explaining her belief that Kirkland did not display antisocialpersonality disorder, Dr. van Eys testified that Kirkland did not “externalize all the
blame” for his actions. The prosecutor asked: “Leola Douglas, the first victim, back
in 1987, he killed her because she threatened to rat him out. * * * Isn’t that
externalizing the blame?” Finally, the prosecutor asked Dr. van Eys whether she
knew that Kirkland had been suspected of the murders of Newton and Casonya in
2006 “because the police saw he had done something very similar years ago.”
{¶ 98} The defense did not object to any of these references to the 1987
murder. Kirkland’s failure to object forfeits this issue, absent plain error. We find
no plain error here because the jury already knew about the 1987 murder. That
murder was properly introduced during Dr. Wu’s cross-examination, as the trial
court ruled and as Kirkland does not dispute. Thus, Kirkland cannot show a
reasonable probability that mentioning it during the cross-examination of Dr. van
Eys resulted in prejudice. See Rogers, 143 Ohio St.3d 385, 2015-Ohio-2459, 38
N.E.3d 860, at ¶ 22.
{¶ 99} We overrule Kirkland’s fourth proposition of law.

Appendix A
25

APPX-0025

SUPREME COURT OF OHIO

2. Gruesome Photographs
{¶ 100} In his fifth proposition of law, Kirkland argues that gruesome
autopsy photographs were improperly admitted into evidence at the resentencing
hearing.
{¶ 101} “[T]he mere fact that a photograph is gruesome or horrendous is
not sufficient to render it per se inadmissible.” State v. Maurer, 15 Ohio St.3d 239,
265, 473 N.E.2d 768 (1984). However, this court has established “a stricter
evidentiary standard” for admitting gruesome photographs in capital cases. State
v. Morales, 32 Ohio St.3d 252, 257-258, 513 N.E.2d 267 (1987). “Properly
authenticated photographs, even if gruesome, are admissible in a capital
prosecution if relevant and of probative value in assisting the trier of fact to
determine the issues or are illustrative of testimony and other evidence, as long as
the danger of material prejudice to a defendant is outweighed by their probative
value and the photographs are not repetitive or cumulative in number.” Maurer at
paragraph seven of the syllabus. Unlike Evid.R. 403, which turns on whether
prejudice substantially outweighs probative value, this standard requires “a simple
balancing” of prejudice and probative value. Morales at 258. In other words, if the
probative value of a photograph in a capital case does not, in a simple balancing of
the relative values, outweigh the danger of prejudice to the defendant, the evidence
must be excluded. Id. A trial court’s decision that a photo satisfies this standard is
reviewable only for abuse of discretion. State v. Vrabel, 99 Ohio St.3d 184, 2003Ohio-3193, 790 N.E.2d 303, ¶ 69; Mammone, 139 Ohio St.3d 467, 2014-Ohio1942, 13 N.E.3d 1051, at ¶ 96.
a. Autopsy Photographs
{¶ 102} Kirkland’s argument focuses principally on the autopsy
photographs that were introduced at the resentencing hearing. The trial court
admitted the following autopsy photographs: state’s exhibit Nos. 17A through 17J,
33A through 33P, 20A through 20E, and 23A through 23H.

Appendix A
26

APPX-0026

January Term, 2020

{¶ 103} Ten photographs from Casonya’s autopsy were admitted. One of
these, state’s exhibit No. 17D, depicts a bone with little or no flesh and is not
gruesome. The others, which depict charred and partly decomposed portions of the
body, are gruesome.
{¶ 104} A Hamilton County deputy coroner testified that because of the
“serious severe burning” of the body, it “seemed to be very likely” that an
accelerant had been used. Each photo is of a different body part, and each photo
had probative value in that collectively, they show the full extent of the burning.
And there was little repetition in this group of photographs; only one, state’s exhibit
No. 17G, appears to be repetitive in that it shows nothing that is not also shown in
other admitted photographs.
{¶ 105} The trial court admitted 16 photographs from Esme’s autopsy,
state’s exhibit Nos. 33A through 33P. Her body was found soon after the murder
and was only partly burned. Only three of these photos qualify as gruesome: state’s
exhibit Nos. 33A, 33N, and 33P.
{¶ 106} State’s exhibit No. 33A shows the body lying on a table and gives
an overview of which areas were burned. State’s exhibit No. 33P is a closer image
of the burned areas. While graphic, this photograph also shows a genital injury not
caused by burning. The Hamilton County chief deputy coroner, Dr. Karen Looman,
testified that this injury could have been caused by “something attempting to
penetrate [Esme’s] vagina,” a fact relevant to the attempted-rape felony-murder
specifications. No other photograph shows this injury. State’s exhibit No. 33N
shows the head with the scalp peeled back to expose the skull. This shows that
hemorrhaging took place underneath the scalp; from this, Dr. Looman concluded
that Esme had been struck on the back of the head hard enough to at least stun her.
{¶ 107} In five other photographs, state’s exhibit Nos. 33C, 33D, 33E,
33M, and 33O, some charred flesh is visible. In two of them, it is only barely
visible.

In no photograph is it prominently depicted.

Appendix A
27

APPX-0027

The eight remaining

SUPREME COURT OF OHIO

photographs show nothing worse than small abrasions, petechiae, and ligature
marks.
{¶ 108} Five photographs from Newton’s autopsy were admitted. Only two
are gruesome—state’s exhibit Nos. 20A and 20B, which show Newton’s charred
body from different angles. State’s exhibit No. 20A, a full-length view of the body
lying face down on a table, illustrates the deputy coroner’s testimony that the body
went into “pugilistic posturing” when the fire’s heat made the arm and leg muscles
flex, indicating that the body was burned before rigor mortis set in. State’s exhibit
No. 20B shows the victim’s face with the lips retracted, helping to confirm that the
body was burned before rigor mortis set in. These photographs are not repetitive:
each shows something the other does not. Both were used to support the same
conclusion about when the body was burned with respect to rigor mortis, but using
two photographs for that purpose was not unreasonably cumulative.
{¶ 109} State’s exhibit Nos. 20C through 20E show Newton’s skull and
lower jaw after the burned flesh was removed. All were probative. State’s exhibit
No. 20C shows her head injuries; State’s exhibit Nos. 20D and E show the dental
work that was used to identify her.
{¶ 110} Finally, eight photographs show Rolison’s skeletonized remains in
the coroner’s office.

These photographs are not gruesome: they depict no

discernible blood, bodily fluids, wounds, damaged or decomposed flesh, or insect
activity.
{¶ 111} Kirkland contends that the trial court erred in admitting the autopsy
photographs of Newton and Rolison because the resentencing hearing addressed
only the aggravated murders of Esme and Casonya, and not the murders of Newton
and Rolison. But as we noted earlier in response to Kirkland’s fourth proposition
of law, the Newton and Rolison murders were part of Kirkland’s course of conduct
and the jury was required to weigh that aggravating circumstance against the
mitigating factors in making its sentencing determination.

Appendix A
28

APPX-0028

January Term, 2020

{¶ 112} In all, 14 gruesome autopsy photographs were admitted. Repetition
was minimal; with the one noted exception, each has some probative value not
found in the others. We conclude that the trial court did not abuse its discretion in
admitting them.

The probative value of each photograph outweighed any

prejudicial effect, and any repetition did not materially prejudice Kirkland.
Moreover, our independent review of the sentence can minimize any improper
impact on the sentence that may have arisen from the admission of these
photographs. See, e.g., State v. Twyford, 94 Ohio St.3d 340, 358, 763 N.E.2d 122
(2002).
b. Crime-Scene Photographs
{¶ 113} Photographs of the victims at the crime scenes were also introduced
during the resentencing hearing. Kirkland’s brief makes cursory mention of these
photographs but fails to provide any explanation to support his argument that the
trial court erred in admitting them. “We are not obligated to * * * formulate legal
arguments on behalf of the parties,” State v. Quarterman, 140 Ohio St.3d 464,
2014-Ohio-4034, 19 N.E.3d 900, ¶ 19, and we decline to do so here.
{¶ 114} Kirkland’s fifth proposition of law is overruled.
D. Prosecutorial Misconduct
{¶ 115} In his seventh proposition of law, Kirkland contends that
prosecutorial misconduct in closing arguments denied him a fair trial. When
reviewing a claim of prosecutorial misconduct, our inquiry is twofold: we must first
decide whether the prosecutor’s actions were improper, and if so, we consider
whether the conduct prejudicially affected the defendant’s substantial rights. State
v. Clinton, 153 Ohio St.3d 422, 2017-Ohio-9423, 108 N.E.3d 1, ¶ 228. “The
touchstone of due process analysis * * * is the fairness of the trial, not the
culpability of the prosecutor.” Smith v. Phillips, 455 U.S. 209, 219, 102 S.Ct. 940,
71 L.Ed.2d 78 (1982). Thus, “[t]he relevant question is whether the prosecutors’
comments ‘so infected the trial with unfairness as to make the resulting conviction

Appendix A
29

APPX-0029

SUPREME COURT OF OHIO

a denial of due process.’ ” Darden v. Wainwright, 477 U.S. 168, 181, 106 S.Ct.
2464, 91 L.Ed.2d 144 (1986), quoting Donnelly v. DeChristoforo, 416 U.S. 637,
643, 94 S.Ct. 1868, 40 L.Ed.2d 431 (1974); see generally State v. Johnson, 144
Ohio St.3d 518, 2015-Ohio-4903, 45 N.E.3d 208, ¶ 78. Kirkland cites three
instances of alleged misconduct. First, Kirkland contends that the prosecutor
committed misconduct by speculating as follows on the dying thoughts of Esme K.:
“You know maybe earlier she would have said, please don’t hurt me. At this point,
she probably is praying to God as the vomit filled her throat, please let me die.”
(Emphasis added.) The trial court overruled an objection by the defense but
immediately instructed the jury, “[T]his is closing arguments, not evidence. You
make a decision what the evidence is.”
{¶ 116} This court has said that it is improper for prosecutors to comment
on what the victim was thinking when he or she died, as it “ ‘invites the jury to
speculate on facts not in evidence.’ ” State v. Lynch, 98 Ohio St.3d 514, 2003Ohio-2284, 787 N.E.2d 1185, ¶ 122, quoting State v. Wogenstahl, 75 Ohio St.3d
344, 357, 662 N.E.2d 311 (1996); see also State v. Williams, 99 Ohio St.3d 493,
2003-Ohio-4396, 794 N.E.2d 27, ¶ 147, citing State v. Combs, 62 Ohio St.3d 278,
283, 581 N.E.2d 1071 (1991).
{¶ 117} Although the trial court should have sustained the defense
objection, it nevertheless mitigated the impact of the prosecutor’s statement by
instructing the jury that the closing argument was “not evidence” and that it was for
the jury to decide what the evidence showed.

And the court repeated that

instruction before sending the jury out to deliberate. See State v. Apanovitch, 33
Ohio St.3d 19, 24, 514 N.E.2d 394 (1987) (jury instruction that closing arguments
are not evidence contributed to determination that prosecutor’s improper statements
did not deny a fair trial).
{¶ 118} Kirkland also argues that the prosecutor improperly “belittled” and
“personally attacked” Dr. Wu. The prosecutor said:

Appendix A
30

APPX-0030

January Term, 2020

First we have got Dr. Wu. * * * I have been in the prosecutor’s
office—this is my 38th year. I have been doing this a long time.
I know I look too young to be that old. This is what I have done
for a long time. I have heard of experts like this forever. I have
never personally seen someone I would hold in less repute in an
actual case than him.
(Emphasis added.) The defense objected that the prosecutor was “commenting on
the veracity of a witness” and being “[p]ersonal.” The prosecutor withdrew the
comment, and the trial court made no ruling.
{¶ 119} An attorney may not express his personal opinion as to the
credibility of a witness, State v. Smith, 14 Ohio St.3d 13, 14, 470 N.E.2d 883
(1984), unless the opinion is based on evidence presented at trial, State v. Leonard,
104 Ohio St.3d 54, 2004-Ohio-6235, 818 N.E.2d 229, ¶ 159. Thus, the prosecutor
could properly attack Dr. Wu’s credibility, so long as his attack was based on the
evidence. But the above argument was not. The prosecutor instead cited his own
experience and placed his personal credibility in issue. See State v. Waddy, 63 Ohio
St.3d 424, 435-436, 588 N.E.2d 819 (1992) (argument inviting jury to substitute
prosecutor’s experience for its own evaluation was improper).
{¶ 120} However, the prosecutor’s prompt withdrawal of the improper
comment diminished its prejudicial effect. See United States v. Jackson, 990 F.2d
251, 255 (6th Cir.1993); State v. Green, 2d Dist. Greene No. 2007 CA 2, 2009Ohio-5529, ¶ 141. Moreover, he immediately changed course and attacked Dr.
Wu’s testimony properly, by discussing Dr. Wu’s cross-examination and the
testimony of the state’s rebuttal witnesses.
{¶ 121} Finally,

Kirkland

argues that the prosecutor improperly

“disparaged” the defense for not putting on evidence to support its claim that

Appendix A
31

APPX-0031

SUPREME COURT OF OHIO

Kirkland was abused in childhood. The prosecutor stated that only Kirkland
himself said he had been abused: “He is the only one who said he was abused. His
sisters don’t say it. His mom doesn’t say it.” The prosecutor noted that Kirkland
could have subpoenaed witnesses to support his allegations but had not. The trial
court overruled an objection by the defense.
{¶ 122} Like the trial court, we see nothing improper in these arguments.
“[T]he state may comment upon a defendant’s failure to offer evidence in support
of its case. * * * Such comments do not imply that the burden of proof has shifted
to the defense, nor do they necessarily constitute a penalty on the defendant’s
exercise of his Fifth Amendment right to remain silent.” State v. Collins, 89 Ohio
St.3d 524, 527-528, 733 N.E.2d 1118 (2000). This is especially true in the penalty
phase of a capital case because the defendant has the burden of persuading the
sentencer of the existence of mitigating factors. See State v. Jenkins, 15 Ohio St.3d
164, 171-172, 473 N.E.2d 264 (1984). The prosecutor committed no misconduct
by asking the jury to consider whether Kirkland had shown that the mitigating
factors he claimed to exist really did exist.
{¶ 123} Kirkland’s

claim

that

the

arguments

in

question

were

“inflammatory” and “denigrate[d]” defense counsel is incorrect. Attacking the
defense case as weak because it lacks evidentiary support is not the same as
attacking defense counsel personally. The cited portions of the state’s argument do
not mention defense counsel, even by implication.
{¶ 124} When evaluating prejudice, we consider the effect any improper
comments may have had on the jury in the context of the entire proceeding.
Clinton, 153 Ohio St.3d 422, 2017-Ohio-9423, 108 N.E.3d 1, at ¶ 228, citing State
v. Keenan, 66 Ohio St.3d 402, 410, 613 N.E.2d 203 (1993). Kirkland has identified
two improper comments by the prosecution, both of which were mitigated to a
degree. These isolated instances did not “pervade the trial to such a degree that
there was a denial of due process,” State v. LaMar, 95 Ohio St.3d 181, 2002-Ohio-

Appendix A
32

APPX-0032

January Term, 2020

2128, 767 N.E.2d 166, ¶ 149. We therefore conclude that any error with respect to
the prosecutor’s comments did not prejudicially affect Kirkland’s substantial rights.
Kirkland’s seventh proposition of law is overruled.
E. Jury Instructions and Verdict Forms
{¶ 125} In his eighth proposition of law, Kirkland contends that the trial
court erred by denying his requests regarding the wording of two jury instructions
and the verdict forms.
1. Parole-Eligibility Instruction
{¶ 126} Kirkland asked the trial court to instruct the jury as follows:
Under no circumstances could Anthony Kirkland ever be
released from prison on parole if under a sentence of life in prison
without the possibility of parole. Likewise, if you were to select
one of the other two life imprisonment options, then Anthony
Kirkland would in fact stay in prison for a minimum of either
twenty-five or thirty full years before he could even be
considered for parole much less actually being granted parole.
The court did not give that instruction, but it gave this one:
During your deliberations you will decide whether Anthony
Kirkland shall be sentenced to, one, life imprisonment without
parole eligibility for 25 full years, or, two, life imprisonment
without parole eligibility for 30 full years, or, three, life
imprisonment without the possibility of parole, or four, death.
{¶ 127} Kirkland contends that without his proposed instruction, the jury
probably thought a defendant sentenced to life would “be released in less time than

Appendix A
33

APPX-0033

SUPREME COURT OF OHIO

the actual wording of the law allows.” However, we have rejected such claims and
upheld instructions similar to the one the trial court gave here. See, e.g., State v.
Davis, 116 Ohio St.3d 404, 2008-Ohio-2, 880 N.E.2d 31, ¶ 215-219; State v.
Jackson, 107 Ohio St.3d 53, 2005-Ohio-5981, 836 N.E.2d 1173, ¶ 102-103. The
instruction that was given adequately conveyed to the jurors when, if ever, Kirkland
would be eligible for parole if they chose one of the life-sentence options. See
Davis at ¶ 219 and Jackson at ¶ 103.
2. Moral-Culpability Instruction
{¶ 128} Kirkland asked the trial court to provide the following instruction
to the jury: “Mitigating factors are factors that lessen the moral culpability or
diminish the appropriateness of a death sentence.” (Emphasis added.) The trial
court’s instructions did not include the words “moral culpability.” The court
instructed the jury as follows:
Mitigating factors are factors about an individual or an
offense that weigh in favor of a decision that a life sentence rather
than a death sentence is appropriate. Mitigating factors are
factors that diminish the appropriateness of a death sentence.
{¶ 129} Factors that diminish the offender’s moral culpability are
mitigating. See State v. Steffen, 31 Ohio St.3d 111, 129, 509 N.E.2d 383 (1987);
State v. Sowell, 39 Ohio St.3d 322, 325, 530 N.E.2d 1294 (1988). And a sentencing
jury must be free to give a reasoned moral response to a capital defendant’s
mitigating evidence—“particularly that evidence which tends to diminish his
culpability.” (Emphasis added.) Brewer v. Quarterman, 550 U.S. 286, 289, 127
S.Ct. 1706, 167 L.Ed.2d 622 (2007).
{¶ 130} But it does not follow that a capital defendant is entitled to specific
“moral culpability” language in the jury instructions. Mitigating factors “are not

Appendix A
34

APPX-0034

January Term, 2020

necessarily related to a defendant’s culpability but, rather, are those factors that are
relevant to the issue of whether an offender * * * should be sentenced to death.”
(Emphasis added.) State v. Holloway, 38 Ohio St.3d 239, 527 N.E.2d 831 (1988),
paragraph one of the syllabus.
{¶ 131} The trial court’s instruction contained no language restricting the
jury’s ability to give a reasoned moral response to evidence tending to diminish
Kirkland’s culpability. Instead of singling out one category of mitigating factors
(those related to moral culpability), the instruction was inclusive, allowing the jury
to consider as mitigation anything that “diminish[ed] the appropriateness of a death
sentence” or “weigh[ed] in favor of a decision that a life sentence * * * is
appropriate.” Moreover, the trial court instructed that mitigating factors included
“any other factors that weigh in favor of a sentence other than death.”
{¶ 132} The trial court further instructed that mitigating factors included the
“history, character, and background of the defendant.” This instruction allowed the
jury to take account of Dr. van Eys’s testimony that Kirkland was an abused child.
Finally, the trial court instructed that the jury should consider as a mitigating factor
whether Kirkland lacked the substantial mental capacity to conform his conduct to
the law due to a mental disease or defect. Thus, “considered in context, the trial
court’s instructions adequately informed the jury as to the relevant mitigating
factors it must consider.” State v. Wilson, 74 Ohio St.3d 381, 397, 659 N.E.2d 292
(1996).
3. Verdict Forms (Caldwell Claim)
{¶ 133} Kirkland’s final argument under this proposition of law relates to
his request to amend the verdict forms. The verdict forms for each capital count
contained the language: “We therefore unanimously find that the sentence of death
should be imposed upon Anthony Kirkland.” (Emphasis added.) Kirkland asked
that “should” be changed to “shall” because “should” implied that a jury verdict in
favor of death was a recommendation, which Kirkland claimed would

Appendix A
35

APPX-0035

SUPREME COURT OF OHIO

unconstitutionally diminish the jury’s sense of responsibility for the death verdict.
See generally Caldwell v. Mississippi, 472 U.S. 320, 105 S.Ct. 2633, 86 L.Ed.2d
231 (1985).
{¶ 134} Caldwell, however, does not preclude accurately informing the jury
that its verdict recommending death is a recommendation. See, e.g., Maxwell, 139
Ohio St.3d 12, 2014-Ohio-1019, 9 N.E.3d 930, at ¶ 88. Kirkland was not entitled
to have the verdict forms changed to reflect his erroneous reading of Caldwell.
Kirkland’s eighth proposition of law is overruled.
F. Requiring Defendant to Wear Stun Cuff
{¶ 135} In his tenth proposition of law, Kirkland contends that the trial court
denied him due process of law by requiring him to stand trial wearing a “stun cuff,”
a remotely controlled taser worn around the ankle, underneath the pants leg.
{¶ 136} Due process “prohibit[s] the use of physical restraints visible to the
jury absent a trial court determination * * * that they are justified by a state interest
specific to a particular trial.” (Emphasis added.) Deck v. Missouri, 544 U.S. 622,
629, 125 S.Ct. 2007, 161 L.Ed.2d 953 (2005). This applies to both phases of a
capital proceeding. Id. at 632-633.
{¶ 137} Before trial, at the request of the Hamilton County sheriff’s
department, the trial court held a hearing on security measures. Deputy Sheriff
Emily Rose testified, asking that Kirkland be ordered to wear a stun cuff. Although
the defense questioned Rose, it did not object to or argue against the use of a stun
cuff. The trial judge granted the request, cautioning, “[The cuff] needs to stay not
visible” to the jury.
{¶ 138} Kirkland argues that the stun cuff was not needed to maintain
courtroom security, because there was no evidence he was a security threat. He
further contends that worrying about being tased distracted him from “adequately
and effectively participat[ing] in his defense.”

Appendix A
36

APPX-0036

January Term, 2020

{¶ 139} By failing to object at trial, Kirkland forfeited all but plain error,
and no plain error occurred here. The prohibition in Deck, 544 U.S. 622, 125 S.Ct.
2007, 161 L.Ed.2d 953, “concerned only visible restraints at trial,” (emphasis sic)
Mendoza v. Berghuis, 544 F.3d 650, 654 (6th Cir.2008), and thus, “a claim based
on Deck ‘rises or falls on the question of whether the [restraining device] was
visible to the jury,’ ” Leonard v. Warden, 846 F.3d 832, 842 (6th Cir.2017), quoting
Earhart v. Konteh, 589 F.3d 337, 349 (6th Cir.2009). The trial court’s order
specified that “[t]he physical restraints used at trial shall be concealed so as not to
be visible to the jury.” And nothing in the record suggests that the jury could see
the stun cuff.
{¶ 140} Kirkland does not dispute that the cuff was concealed but argues
that the officer holding the remote control was visible to the jury. Perhaps so, but
nothing in the record suggests that jurors could see the remote control. Speculation
about the remote control is not enough to establish plain error. Hence, Kirkland’s
tenth proposition of law is overruled.
G. Cumulative Error
{¶ 141} In his 11th and final proposition of law, Kirkland claims to have
identified “numerous errors any one of which warrant * * * granting relief from a
sentence of death,” but he asks us to view the errors together if we determine that
none of the errors is sufficient on its own to warrant relief. Invoking the doctrine
of cumulative error, see generally State v. DeMarco, 31 Ohio St.3d 191, 196-197,
509 N.E.2d 1256 (1987), he claims that the total effect of these errors made his
resentencing fundamentally unfair even if they were individually harmless. But,
Kirkland has failed to identify any significant error; he was resentenced in a
fundamentally fair proceeding.

Accordingly, his 11th proposition of law is

overruled.

Appendix A
37

APPX-0037

SUPREME COURT OF OHIO

H. Independent Sentence Evaluation
{¶ 142} Kirkland’s ninth proposition of law invokes our statutory duty to
independently review sentences of death. This court may affirm a death sentence
“only if the * * * court is persuaded from the record that the aggravating
circumstances the offender was found guilty of committing outweigh the mitigating
factors present in the case,” R.C. 2929.05(A), beyond a reasonable doubt, R.C.
2929.03(D)(1). In this proposition, Kirkland asks us to find on independent review
that the aggravating circumstances do not outweigh the mitigating factors and to
replace his death sentences with sentences of life in prison without parole for the
murders of Casonya C. and Esme K.
{¶ 143} On independent review, we must determine whether the evidence
supports the jury’s finding of aggravating circumstances, whether the aggravating
circumstances outweigh the mitigating factors, and whether the death sentences are
proportionate to those affirmed in similar cases. R.C. 2929.05(A).
1. Merger
{¶ 144} We begin by noting that Counts Two and Four involve the
aggravated murder of a single victim, Casonya, and therefore merge for sentencing
purposes. See State v. Lawson, 64 Ohio St.3d 336, 350, 595 N.E.2d 902 (1992).
The course-of-conduct specifications attached to those counts also merge with each
other. Id. For the same reason, Counts Nine and Eleven (aggravated murder of
Esme) merge, as do their course-of-conduct specifications.
2. Aggravating Circumstances
{¶ 145} In the guilt phase of Kirkland’s original trial, the jury found him
guilty of three aggravating circumstances as to each murder: felony-murder
predicated on attempted rape, felony-murder predicated on aggravated robbery, and
course of conduct involving two or more intentional killings. (The trial court
merged the escaping-detection specifications with the felony-murder specifications
for Counts Nine and Eleven.) As we found in Kirkland I, the evidence at trial was

Appendix A
38

APPX-0038

January Term, 2020

sufficient to establish these aggravating circumstances beyond a reasonable doubt.
140 Ohio St.3d 73, 2014-Ohio-1966, 15 N.E.3d 818, at ¶ 4-58 (recounting the
state’s evidence at trial).
3. Mitigating Factors
a. Traumatic Brain Injuries
{¶ 146} Dr. Wu testified on Kirkland’s behalf at the resentencing hearing.
Dr. Wu is a diplomate in psychiatry and professor emeritus at the University of
California, Irvine. He has studied, and published peer-reviewed articles on, the use
of positron-emission tomography (“PET”) and magnetic-resonance imaging
(“MRI”) to diagnose various psychiatric conditions, including traumatic brain
injury. He is not, however, a radiologist.
{¶ 147} Dr. Wu had three brain scans performed on Kirkland at the Wexner
Medical Center: a PET scan, an MRI quantitative volumetric scan, and an MRI
diffusion tensor imaging (“DTI”) scan.
{¶ 148} According to Dr. Wu, the PET scan revealed two significant
abnormalities in Kirkland’s brain. Dr. Wu found that the frontal cortex showed
“metabolic decrease” relative to the occipital cortex. He also found decreased
activity in the neocortex compared to the cerebellum; normally, he explained, the
neocortex has a significantly higher level of activity than the cerebellum. This
pattern, Dr. Wu believed, was consistent with multiple head traumas.
{¶ 149} Dr. Wu analyzed the DTI scan using a “voxel-wise” quantitative
analysis. According to Dr. Wu, this is a “much more reliable, much more sensitive
way of detecting abnormalities” in DTI scans of people with histories of traumatic
brain injury and this analysis showed abnormal decreases and increases in fractional
anisotropy, indicating brain injury in Kirkland.
{¶ 150} Dr. Wu testified that the MRI quantitative volumetric scan showed
an “abnormal increase in the right amygdala,” and he stated, “[T]he only condition
that I’m aware of that cause[s] a significant increase in the amygdala is significant

Appendix A
39

APPX-0039

SUPREME COURT OF OHIO

early childhood neglect.” But only one side of the amygdala was enlarged; Dr. Wu
was aware of no studies showing such a result. According to Dr. Wu, this is another
indication of brain trauma, because trauma causes shrinkage; in Dr. Wu’s opinion,
trauma probably caused one side of Kirkland’s enlarged amygdala to atrophy to
normal size.
{¶ 151} Dr. Wu also looked at Kirkland’s medical history. He found “at
least four separate events” consistent with the abnormalities he found in his reading
of the PET and MRI scans. Kirkland allegedly was abused by his father from age
6 to age 14, resulting in head contusions. At 17, he was involved in a workplace
accident, following which he reported memory loss and numbness in his
extremities. In 2004, at age 36, Kirkland fell off a bicycle, fracturing the right side
of his face. Dr. Wu testified that in 2006, Kirkland “sustained a traumatic brain
injury with a small hematoma in the left upper temporal area” in an auto accident.
Dr. Wu testified that both the “significant abnormalities” in Kirkland’s scans and
his medical history were consistent with multiple traumatic brain injuries.
{¶ 152} Dr. Wu testified about how such injuries can affect the personality.
Frontal-lobe damage can cause “significant alteration in your ability to regulate
aggression,” which can affect judgment and impulse control.

The effect is

exacerbated by “significant abuse and neglect” in childhood; the combination
“cause[s] a dramatic increase in the inability of an individual to regulate
aggression.”
{¶ 153} Dr. Wu concluded that Kirkland lacks the ability to control his
aggressive impulses in “an uncontrolled, unmanaged environment” because of the
combination of brain injury, neglect, and abuse. When asked whether the degree
of planning and execution involved in Kirkland’s crimes was inconsistent with an
inability to control impulses, Dr. Wu explained that a person whose history includes
multiple brain traumas, neglect, and abuse loses the ability to calm his anger or

Appendix A
40

APPX-0040

January Term, 2020

aggressive impulses; hence, instead of being “momentary,” his aggressive impulses
continue to “rage on.”
{¶ 154} The state called three witnesses to rebut Dr. Wu’s testimony: Drs.
Chadwick Wright, Alan Waxman, and Daniel Boulter.
{¶ 155} Dr. Wright, a radiologist at the Ohio State University Wexner
Medical Center, examined the images from Kirkland’s PET scan. Dr. Wright found
the scan to be “a normal appearing scan” that indicated that “the brain is functioning
properly.” He saw no evidence in the PET scan to indicate traumatic brain injury.
{¶ 156} Dr. Waxman is the director of nuclear medicine at Cedars-Sinai
Medical Center in Los Angeles. He sharply criticized Dr. Wu’s theories and
methods regarding PET scans.
{¶ 157} According to Dr. Waxman, PET scanning is not accepted as a tool
for diagnosing traumatic brain injury. Dr. Waxman noted that it is the view of the
American College of Radiology that PET scans are “not usually appropriate” for
diagnosing head injuries, that the American Academy of Neurology regards PET
scanning as still “investigational” as a tool for diagnosing head trauma, and that the
European Association of Nuclear Medicine also does not recognize or accept brain
imaging as a method for diagnosing head trauma. Dr. Waxman also cited a United
States Department of Defense study finding that PET scans are not useful for
diagnosing head trauma and a peer-reviewed 2015 article in the Journal of
Neurotrauma finding that PET scans do not yield a “recognizable pattern” for
traumatic brain injury.
{¶ 158} Dr. Waxman examined Kirkland’s PET scan and found it “textbook
normal,” yielding “no evidence of traumatic brain injury.” According to Dr.
Waxman, Kirkland’s scan “looked really good.”
{¶ 159} Dr. Waxman disagreed with Dr. Wu’s contention that metabolic
decreases in the frontal cortex relative to the occipital cortex are an abnormality.
Dr. Waxman testified, “You can’t prescribe a particular psychological construct to

Appendix A
41

APPX-0041

SUPREME COURT OF OHIO

these patterns” and, in fact, “a high percentage of people”—50 percent in one
study—show metabolic decreases in the front of the brain relative to the back.
{¶ 160} In general, Dr. Waxman testified, Dr. Wu is wrong in seeing
asymmetries as abnormal.

Normal brains—including brains characterized as

normal in Dr. Wu’s database—have asymmetries. In Dr. Waxman’s view, Dr. Wu
is interpreting “normal variations” as abnormalities, resulting in false positives. Dr.
Waxman testified that Dr. Wu “has read almost a thousand scans * * * and every
single scan except one he has called abnormal.” (On cross-examination, Dr. Wu
testified that he has read about 100 scans, but he admitted that he had found
abnormality in all but “a couple” of them.) In fact, Dr. Waxman said, “Dr. Wu has
no idea what his error rate is” because it has never been scientifically determined.
{¶ 161} Dr. Waxman noted that the normal brains in Dr. Wu’s database are
usually those of people in their 30s, while Kirkland was nearly 50 at the time of his
PET scan. Dr. Waxman testified that it would be normal for there to be a metabolic
decrease in Kirkland’s frontal lobe in comparison to those of people in their 30s.
Indeed, according to Dr. Waxman, Kirkland’s PET scan “is in the mid range of
normal variation compared to Dr. Wu’s own subjects.”
{¶ 162} Dr. Boulter is a neuroradiologist and the clinical director of MRI at
the Wexner Medical Center. He reviews MRI scans daily and has reviewed at least
20,000 brain MRI scans in his career. He reviewed the results of one of the MRI
scans performed on Kirkland. He found no abnormality, and specifically, no
evidence of traumatic brain injury.
{¶ 163} Unlike Dr. Wu, Dr. Boulter did not perform a voxel analysis. A
voxel analysis, he testified, may be a useful tool in the future, but at present, it
cannot be used to differentiate normal from abnormal. He further testified that the
American College of Radiology’s position is that it is not an appropriate tool for
determining whether a person has suffered a traumatic brain injury.

Appendix A
42

APPX-0042

January Term, 2020

b. Childhood Abuse and Neglect
{¶ 164} The second focus of Kirkland’s mitigation evidence was the
psychological effects of childhood abuse and neglect. He presented one witness on
this point: Dr. van Eys, a clinical psychologist who works with children who have
histories of abuse and neglect. Dr. van Eys interviewed Kirkland and administered
the Adverse Childhood Experiences Survey and the Dissociative Experiences
Scale. She also reviewed summaries of interviews with Kirkland, his mother, sister,
and brother and a former girlfriend. She diagnosed Kirkland as suffering from
posttraumatic stress disorder (“PTSD”) with dissociation and “other specified
dissociative disorder.”
{¶ 165} Dr. van Eys testified that Kirkland told her that when he was young,
his father beat him with his hands, brooms, and extension cords. Also, family
members reported that Kirkland’s mother was abused by Kirkland’s father when
Kirkland was a child.

From the information provided to her, Dr. van Eys

determined that Kirkland’s father left the home when Kirkland was about 13 years
old.3 Kirkland also told Dr. van Eys that as a child, he was sexually abused by
teenaged family members and a teenaged neighbor.
{¶ 166} Dr. van Eys explained that there are ten “adverse childhood
experiences” that place a child at risk for adverse health, mental-health, and social
outcomes. These are psychological abuse; physical abuse; sexual abuse; emotional
and physical neglect; substance abuse by family members; parental absence,
divorce, or separation; mental illness in a parent; a battered mother; domestic
violence by a parent; and the incarceration of a family member. When these things
happen between birth and age 18 years, they interrupt a child’s neurodevelopment.

3. During Kirkland’s original sentencing hearing in 2010, a different expert witness indicated that
Kirkland’s father left the home when Kirkland was nine or ten years old. Kirkland I, 140 Ohio St.3d
73, 2014-Ohio-1966, 15 N.E.3d 818, at ¶ 147.

Appendix A
43

APPX-0043

SUPREME COURT OF OHIO

According to Dr. van Eys, only a small fraction of the population reports eight or
more adverse childhood experiences. Kirkland reported nine.
{¶ 167} Dr. van Eys testified that the amygdala is the “survival part of the
brain,” the part that responds to perceived threats. Because the amygdala is
connected to the prefrontal cortex, the “thinking part” of the brain, an incorrect
threat alarm from the amygdala can be corrected. But toxic stress enlarges the
amygdala while weakening its connection to the prefrontal cortex. As a result, the
threat-response system can become overactive in abused children.
{¶ 168} According to Dr. van Eys, an abused child will read a facial
expression as angry that a normal child would perceive as fearful. Dr. van Eys
theorized that when Kirkland encountered Esme, she may have had a concerned or
fearful facial expression; Kirkland may have misinterpreted her expression as
threatening, or it may have reminded him of the helpless and scared expression of
his mother when she was being abused. Such a misinterpretation would throw the
amygdala into “survival mode,” according to Dr. van Eys. Similarly, she noted,
one of Kirkland’s victims (presumably Rolison) allegedly produced a knife during
their altercation, and another (presumably either Newton or Casonya) allegedly
struck Kirkland; according to Dr. van Eys, these actions could have triggered a
“survival response” from Kirkland, and after that, his acts would have been
“survival actions, not thinking actions.”
{¶ 169} Much of the information Dr. van Eys relied on in evaluating
Kirkland’s childhood came from Kirkland.

Many of Kirkland’s childhood

memories lacked specificity, and Dr. van Eys admitted on cross-examination that
this lack of specificity could raise questions about their credibility; however, she
testified that Kirkland “presented like a person who has had trauma,” not like
somebody making things up.

Appendix A
44

APPX-0044

January Term, 2020

c. Kirkland’s Unsworn Statement
{¶ 170} Kirkland made a brief unsworn statement to the jury. He admitted
responsibility for the deaths of the four victims and expressed remorse. He
discussed his childhood abuse and his early use of drugs and alcohol “to cope with
the lack of a sense of confidence and belonging.” He said that he could offer no
explanation for his acts, but added: “I am proof a young person deeply abused
physically and emotionally and mentally becomes the abuser.” He said that he did
not deserve to live, but he asked the jury to spare his life.
d. Other Factors
{¶ 171} The factors set forth in R.C. 2929.04(B)(1) and (2) and (4) through
(6) are inapplicable.

Youth is not a factor.

The degree of the defendant’s

participation is a factor only when the defendant is not the principal offender; here,
Kirkland was the principal offender and, in fact, was the sole offender. He does
not lack a substantial criminal record. There was no evidence that the victims
induced or facilitated the murder and no evidence of duress, coercion, or
provocation.
{¶ 172} Other mitigating factors, R.C. 2929.04(B)(7), include Kirkland’s
confession and his expression of remorse. However, the nature and circumstances
of the aggravated murders offer no mitigation here.
4. Weighing
{¶ 173} Dr. Wu testified that Kirkland was unable to conform his conduct
to the law (a mitigating factor under R.C. 2929.04(B)(3)) due to his trauma-induced
brain abnormalities. But serious questions exist concerning Dr. Wu’s theories and
diagnostic methods. It does not appear that the relevant scientific communities
accept either PET scanning or voxel analysis as a valid tool for diagnosing brain
injury. Drs. Waxman, Wright, and Boulter all testified that Kirkland’s scans were
normal. We find that Dr. Wu’s opinions are entitled to no weight in mitigation.

Appendix A
45

APPX-0045

SUPREME COURT OF OHIO

{¶ 174} Dr. van Eys testified that Kirkland’s childhood abuse and neglect
led to PTSD and dissociative disorder, and she expressed the opinion that because
of these disorders, Kirkland “was not able to conform to the norms of the law.”
However, we have seldom ascribed much weight in mitigation to a defendant’s
unstable or troubled childhood. See, e.g., State v. Campbell, 95 Ohio St.3d 48, 5154, 765 N.E.2d 334 (2002); State v. Cooey, 46 Ohio St.3d 20, 41, 544 N.E.2d 895
(1989).
{¶ 175} Nor do we here. Kirkland, who was born in 1968, committed these
murders when he was in his late 30s and early 40s. As we noted was true with
regard to a different capital defendant, “[h]e had reached ‘an age when * * *
maturity could have intervened’ and ‘had clearly made life choices as an adult
before committing [these] murder[s].’ ” See Campbell at 53 (Campbell committed
aggravated murder at the age of 49), quoting State v. Murphy, 65 Ohio St.3d 554,
588, 605 N.E.2d 884 (1992) (Moyer, C.J., dissenting). He had “had considerable
time to distance himself from his childhood and allow other factors to assert
themselves in his personality and his behavior.” Id.
{¶ 176} Kirkland’s history of alcohol and drug abuse is entitled to some
weight in mitigation. See Kirkland I, 140 Ohio St.3d 73, 2014-Ohio-1966, 15
N.E.3d 818, at ¶ 158, citing State v. Scott, 101 Ohio St.3d 31, 2004-Ohio-10, 800
N.E.2d 1133, ¶ 108.
{¶ 177} Finally, a confession is entitled to some weight in mitigation, and
Kirkland did confess. But he did it haltingly and grudgingly, telling an assortment
of different stories that denied or minimized his responsibility. This diminishes the
mitigating value of his confession and calls into question the sincerity of his
remorse. Still, “in the peculiar circumstances here, * * * Kirkland’s confession is
entitled to serious consideration because the information he voluntarily provided
enabled the police to identify the body of Kimya Rolison, and thus her family was
able to learn what had happened to her.” Kirkland I at ¶ 159.

Appendix A
46

APPX-0046

January Term, 2020

{¶ 178} We conclude that collectively the mitigating factors in this case
deserve only modest weight. The aggravating circumstances, on the other hand,
are entitled to significant weight.
{¶ 179} Course of conduct and attempted rape are especially grave
aggravating circumstances, and in this case, their gravity is exacerbated by the
nature and circumstances of these aggravating circumstances. As to the course-ofconduct aggravating circumstance, Kirkland’s course of conduct consisted of four
murders committed from 2006 to 2009. As to the attempted-rape aggravating
circumstance, we note that both victims were young—Casonya was 14, Esme 13—
and in attempting to rape Esme, Kirkland beat her severely. Finally, Kirkland
robbed Casonya and Esme; this aggravating circumstance is entitled to some
weight.
{¶ 180} Against the mitigating factors, we have weighed the aggravating
circumstances the jury found with respect to Casonya’s aggravated murder.
Likewise, we have separately weighed the aggravating circumstances of Esme’s
aggravated murder against the mitigating factors. See Cooey, 46 Ohio St.3d at 38,
544 N.E.2d 895.

In both cases, we find that the aggravating circumstances

outweigh the mitigating factors beyond a reasonable doubt.
5. Proportionality Review
{¶ 181} In Kirkland I, we concluded that Kirkland’s death sentences were
not excessive or disproportionate to the penalty imposed in similar cases:
In [State v.] Jones, 135 Ohio St.3d 10, 2012-Ohio-5677,
984 N.E.2d 948, at ¶ 265, this court affirmed the defendant’s
death sentence for aggravated murder in the course of committing
a rape. The court has also affirmed death sentences in cases
combining a course-of-conduct specification with a robberymurder specification. See [State v.] Perez, 124 Ohio St.3d 122,

Appendix A
47

APPX-0047

SUPREME COURT OF OHIO

2009-Ohio-6179, 920 N.E.2d 104, at ¶ 253, and cases cited
therein. Therefore, we find that the sentence is appropriate.
Kirkland I, 140 Ohio St.3d 73, 2014-Ohio-1966, 15 N.E.3d 818, at ¶ 168. That
conclusion remains sound. We find that the death sentences in this case are
proportionate and appropriate.
III. CONCLUSION
{¶ 182} We affirm the sentences of death imposed for the murders of
Casonya C. and Esme K. Accordingly, we affirm the judgment of the trial court.
Judgment affirmed.
O’CONNOR, C.J., and KENNEDY, FISCHER, DEWINE, and STEWART, JJ.,
concur.
DONNELLY, J., concurs in judgment only.
_________________
Joseph T. Deters, Hamilton County Prosecuting Attorney, Ronald W.
Springman, Chief Assistant Prosecuting Attorney, and Adam Tieger, Assistant
Prosecuting Attorney, for appellee.
Timothy J. McKenna and Roger W. Kirk, for appellant.
_________________

Appendix A
48

APPX-0048

Elbe

ﬁupreme (llourt of

State of Ohio

~

»».UC—

1

8

W0
~

Case No. 2018-1265

JUDGMENT ENTRY

v.

APPEAL FROM THE
COURT OF COMMON PLEAS

Anthony Kirkland

This cause, here on appeal from the Court of Common Pleas for Hamilton
County, was considered in the manner prescribed by law. On consideration thereof, the
judgment of the trial court is affirmed, consistent with the opinion rendered herein.
Furthermore, it is ordered by the court that thejudgment and sentence of the
Court of Common Pleas be carried into execution by the Warden of the Southern Ohio

Correctional Facility or, in his absence, by the Deputy Warden on Wednesday, the 18"‘
day of September, 2024, in accordance with the statutes so provided.
further ordered that a certified copy of this entry and a warrant under seal of
be certified to the Warden of the Southern Ohio Correctional Facility, and that
the Warden shall make due return to the clerk of the Court of Common Pleas for
Hamilton County.
It is

this court

It is

of Common

further ordered that a mandate be sent to
Pleas for Hamilton County,

and

(Hamilton County Court of Common Pleas; No.

filed

with the clerk of the Court

B 0901629)

Maureen O’Connor

Chief Justice

The

official case announcement, and opinion if issued, can be found at
lrttp://www.supremecourt.ohio.gov/ROD/docs/

Appendix A
APPX-0049

~~

ii

@112

._,

ﬁupreme Clluurt of Q9hin

CLERK OF

State of Ohio
V.

RECONSIDERATION ENTRY

\

Anthony Kirkland

V

Hamilton County

g;

It is

ordered by the court that the motion for reconsideration in this case

(Hamilton County Court of Common Pleas; No.

C{ll):'<T

scum OF OHIO

Case No. 2018-1265

‘i

is

denied.

B 0901629)

Maureen O‘Connor
ChiefJustice

The Official Case Announcement can be found

at

htlp://www.supremecourt.ohio.gov/ROD/docs/

Appendix B
APPX-0050

_,.;

H2020”

551

SUPRI-IVE

‘

[Cite as State v. Kirkland, 140 Ohio St.3d 73, 2014-Ohio-1966.]

THE STATE OF OHIO, APPELLEE, v. KIRKLAND, APPELLANT.
[Cite as State v. Kirkland, 140 Ohio St.3d 73, 2014-Ohio-1966.]
Criminal law—Aggravated murder—Substantially prejudicial prosecutorial
misconduct can be cured by the court’s independent evaluation of the
capital sentence—Death penalty affirmed.
(No. 2010-0854—Submitted September 11, 2013—Decided May 13, 2014.)
APPEAL from the Court of Common Pleas of Hamilton County,
No. B-0901629.
____________________
FRENCH, J.
{¶ 1} This is a death-penalty appeal of right.

Defendant-appellant,

Anthony Kirkland, was convicted of the aggravated murder of two girls in
Hamilton County between 2006 and 2009. He was also convicted of the murder
of two other women.
{¶ 2} On the first morning of trial, Kirkland voluntarily pled guilty to the
murders of Mary Jo Newton and Kimya Rolison, as well as to two counts of abuse
of a corpse. The jury convicted Kirkland on all remaining charges, including
aggravated murder with death specifications for the deaths of Esme K. and
Casonya C., and recommended a sentence of death. The trial court accepted the
recommendation and sentenced Kirkland accordingly.
{¶ 3} For the reasons explained below, we affirm Kirkland’s convictions
and sentence.
The State’s Evidence at Trial
{¶ 4} On the night of May 3, 2006, around 11:00 p.m., 14-year-old
Casonya C. left the home of her grandmother, Patricia C. She took her book bag,

Appendix C
APPX-0051

SUPREME COURT OF OHIO

gym shoes, and cell phone with her. Her grandmother assumed Casonya meant to
spend the night at her mother’s house.
{¶ 5} Around midnight, Casonya called her friend Tania H. from the front
porch of her friend’s house. Tania told Casonya she was already in bed and did
not want to go out, so Casonya said she was going back home.
{¶ 6} After leaving Tania’s house, as she headed for her grandmother’s
house, Casonya spoke on the phone with her boyfriend, Ra’Shaud B. The two
were having an argument when suddenly the phone cut off. Ra’Shaud tried for
three days to reach Casonya by telephone, but he never spoke to her again.
{¶ 7} The next morning, Casonya did not show up at school. Casonya’s
mother indicated that she had not seen her daughter, and calls to Casonya’s cell
phone went to voicemail.
{¶ 8} At approximately 1:30 p.m. on May 4, 2006, Patricia C. called the
police to report that her granddaughter was missing.
{¶ 9} On May 9, 2006, city workers doing landscaping discovered a body
underneath a pile of old tires. The body was located in a secluded wooded area,
approximately ten feet down the hillside from the end of a dead-end road.
{¶ 10} The body was heavily charred and decomposed, so much so that
the responding officer could not determine the race or gender of the body. The
front teeth had been recently knocked out. The only clothing on the body was a
sock on one foot.
{¶ 11} Just beyond the end of the road, police found a burn pit, a charred
site where they believed that the body was burned before it was dragged down the
hillside and buried under the tires. And near the pit they found a long piece of
timber, charred at one end, that appeared to have been used as a poker to stir the
fire.
{¶ 12} The forensic pathologist was unable to do a rape examination
because the pelvic area was almost completely charred. Investigators were also

Appendix
C
2
APPX-0052

January Term, 2014

unable to look for DNA evidence under the victim’s fingernails because the hands
and forearms were completely charred.
{¶ 13} The body was positively identified as that of Casonya C. by
comparison of dental x-rays.
{¶ 14} One month later, on June 15, 2006, the still hot and smoking
remains of a second human body were found approximately 35 feet from the end
of a dead-end street. The right foot was found 37 feet from the body. Tests
indicated that the fire was started using either lighter fluid or paint thinner.
{¶ 15} The autopsy was unable to determine a cause of death but did
demonstrate that the victim was already dead when the body was set on fire. The
body was eventually identified as that of Mary Jo Newton by comparison of
dental records.
{¶ 16} In the spring of 2008, skeletal remains of a third victim were
discovered in a heavily wooded area at the end of another dead-end street. The
bones were scattered, and the hands and feet were never found.
{¶ 17} The cause of death was a sharp-force injury to the neck caused by a
cutting instrument. The bones showed traces of burning on the face, the front of
the hip bones, and the thigh bones. A forensic anthropologist determined that the
victim was most likely an African-American woman, probably between 30 and 55
years of age. However, the victim’s identity remained unknown for nearly one
year.
{¶ 18} On the afternoon of Saturday, March 7, 2009, 13-year-old Esme K.
left her home to go jogging, wearing her iPod and a purple watch. Esme K.’s
mother called 9-1-1 at 4:21 p.m. to report Esme missing.
{¶ 19} Police searched abandoned houses and nearby woods. Eventually,
two canine-unit officers spotted a man, later identified as Anthony Kirkland,
sitting underneath some fir trees in the nearby woods.

Appendix
C
3
APPX-0053

SUPREME COURT OF OHIO

{¶ 20} The officers saw knives protruding from his left pants pocket, so
they disarmed him and searched him. They found a purple watch and an iPod in
his pockets. Etched on the back of the iPod were the words “Property of Esme
[K].”
{¶ 21} The officers placed Kirkland in handcuffs. Kirkland initially gave
his name as Anthony Palmore. He claimed that he had found the watch and iPod
in the woods. The police read Kirkland his Miranda rights.
{¶ 22} Efforts to confirm his identity through police databases were
unsuccessful, but after about 20 minutes, Kirkland gave his real name. As the
search for Esme continued, police transported Kirkland to the police station.
{¶ 23} At around 3:00 in the morning, searchers found the body of Esme
K. in the woods. She was naked except for her shoes and socks. Her body was
propped up against a tree branch, with her arms crossed and her legs spread. Her
groin, inner thighs, and left hand had all been severely burned.
{¶ 24} The official cause of death was asphyxiation due to ligature
strangulation, confirmed by a fracture of the hyoid bone, ligature marks on the
neck, and petechiae on her face consistent with a long struggle. There was also
evidence of premortem trauma to Esme’s vagina consistent with rape.
{¶ 25} Police found Esme’s top a few days later in the parking lot of a
nearby vacant building. The shirt had burn holes and had been cut open in the
front. A trail of burnt clothing led police to a white plastic bag containing Esme’s
grey sweatpants and underpants. The zipper pocket of the sweatpants was burned,
but the underwear was not.
{¶ 26} Investigators took DNA samples from Kirkland’s hands, his penis,
and a stain on his boxer shorts, and in all three cases, DNA consistent with
Esme’s was found. Partial shoe prints in the woods were consistent with the type
of sneaker Kirkland wore at the time.

Appendix
C
4
APPX-0054

January Term, 2014

{¶ 27} On the morning of March 8, 2009, Detective Keith Witherell
interviewed Kirkland. Witherell had previously interviewed Kirkland on March
15, 2007, in connection with the homicides of Casonya and Mary Jo. During the
2007 interrogation, Kirkland viewed a photograph of Casonya and said that he did
not recognize her. He admitted that he knew Mary Jo and that the nature of their
relationship was sexual, but denied having anything to do with her death.
{¶ 28} In 2007, police had no forensic evidence tying Kirkland to the
murders, no eyewitnesses, and no admissions from Kirkland. Consequently, they
were unable to arrest or charge him.
{¶ 29} The first March 2009 interview lasted over four hours. A video
recording of that interview was introduced into evidence and played for the jury.
{¶ 30} During that interview, Kirkland offered multiple, inconsistent
versions of events. At the outset, he professed confusion as to the reason for his
arrest, telling officers that he thought they brought him in because of outstanding
warrants relating to an altercation with his ex-girlfriend’s current boyfriend and
that he had no idea he was there because of the missing girl.
{¶ 31} He repeatedly denied seeing a young girl jogging (or anyone else)
in the vicinity of the reservoir near where he was found. He acted as if he did not
even know the race of the missing girl. And he professed surprise to learn that the
watch and radio,1 which he continued to insist he stumbled upon while walking in
the woods, belonged to the missing girl.
{¶ 32} After further questioning, Kirkland admitted meeting Esme at the
reservoir and told detectives that he could take them to her. He said that the two
literally ran into one another and that the collision caused Kirkland to drop his
beer and lose his temper. He punched Esme multiple times and kicked her. But
he claimed to have left her alive.

1. What Kirkland initially called a radio was in fact Esme’s iPod.

Appendix
C
5
APPX-0055

SUPREME COURT OF OHIO

{¶ 33} After detectives told Kirkland that her body had been found, he
changed his story. First claiming to have no memory of events, Kirkland then
admitted chasing Esme into the woods. But he continued to claim that he left her
injured but alive, and he repeatedly insisted that she was wearing clothes when he
left her.
{¶ 34} As the questioning continued, Kirkland claimed to have left Esme
alive with a man he knew only as Pedro.

But when challenged, Kirkland

confessed knowing all along that she was dead. He admitted that he had returned
to the reservoir some hours after the murder to move the body.
{¶ 35} Kirkland said Esme died “because of my hatred.” But when asked
directly if he had killed her, he still said no, and as the interview concluded,
Kirkland was still insisting that he had learned the location of the body from
Pedro.
{¶ 36} A second interview of Kirkland began approximately two hours
later. This time, Detective William Hilbert questioned Kirkland about Mary Jo
and Casonya. The interview occurred in two sessions, the first lasting about two
and one-half hours, and the second less than 90 minutes. Video recordings of
those interviews were introduced into evidence, and a redacted version was
played for the jury.
{¶ 37} Kirkland gave the following account of Mary Jo’s murder:
{¶ 38} He first met Mary Jo at the bus stop across the street from the
downtown Justice Center. She worked as a prostitute to support a drug habit. She
was just getting out of the Justice Center when Kirkland met her. He and Mary Jo
had sex together a couple of times.
{¶ 39} On the day she died, Kirkland picked her up in the College Hill
area. They went to a liquor store together, then to a Rally’s for food. They took
some drugs. Next they went by the house of Kirkland’s girlfriend, who was at
work at the time.

Appendix
C
6
APPX-0056

January Term, 2014

{¶ 40} As they continued to drive, an argument broke out.

Kirkland

choked Mary Jo to death from behind. Then he drove to Avondale and dumped
her body at the end of a dead-end street. He had a gas can in his vehicle that he
used to set the body on fire. According to Kirkland, he burned the body because
fire purifies and burning the body was “a proper burial” like the Vikings did. It
was still daylight at the time, but no one was around, so Kirkland stayed to watch
the flames.
{¶ 41} Hilbert shifted the conversation to Casonya, and Kirkland offered
this account:
{¶ 42} He first saw Casonya at the top of a bridge that crosses Interstate
71 near Walnut Hills High School. It was around 1:00 in the morning. Kirkland
was sitting smoking marijuana. He heard Casonya having an argument with
somebody on her cell phone, and when she saw him smoking, she hung up the
phone.
{¶ 43} According to Kirkland, Casonya asked him about the marijuana, he
asked if she was old enough for that, and she answered she was old enough to be
doing a lot of things.
{¶ 44} That led to a conversation in which Kirkland gave her $20 and
agreed to go as high as $60. He says the money was to pay her just to talk. The
two had an argument about, according to Kirkland, “girls playing games.”
Casonya threw the money back at him. At that point, Kirkland got mad and
grabbed Casonya. She kneed him, and he strangled her.
{¶ 45} Before the altercation, the pair had crossed the bridge together and
descended to Victory Parkway. From there, Kirkland carried her dead body to a
wooded area where he burned her, using lighter fluid he took from a nearby
house. He then carried her burned body down the hill and covered the body with
tires because he was scared. He stayed with the body all night long.
{¶ 46} Kirkland then offered the following account of Esme’s murder:

Appendix
C
7
APPX-0057

SUPREME COURT OF OHIO

{¶ 47} At around 3:00 in the afternoon, as he was walking near the
reservoir, Esme ran into him. She was apologetic, which only enraged Kirkland.
He punched her, called her names, and demanded to know her name and what
music she was listening to. At some point, he chased her into the woods, she
tripped over a small fence, and he continued to punch and choke her.
{¶ 48} At first, Kirkland denied raping Esme. But then he told Hilbert that
Esme said that “she would do whatever I wanted, just don’t hurt her,” and he
asked to have sex with her. However, he was unable to penetrate her completely,
so he made her masturbate him manually. Then he choked her to death with his
bare hands because he did not believe her when she said she would not tell
anyone. In a subsequent interview, he elaborated that he had used a rag to
strangle Esme when his efforts to kill her with his bare hands failed.
{¶ 49} He propped up her body against a tree and stayed for two hours
talking to her, apologizing to her. Then he tried to start a fire using her clothes as
an accelerant. It was dark when he left to find lighter fluid “to perform the ritual.”
He ate some food from a garbage can and eventually returned to the woods (but
not the body), where he fell asleep until the police found him.
{¶ 50} A third interview of Kirkland—also shown to the jury—
commenced 30 minutes later. In the interview, detectives asked him about the
unidentified burned body found in the spring of 2008. At first, Kirkland claimed
to have killed only three victims. And then, after a great deal of discussion,
Kirkland announced, “I, three—I wasn’t honest totally. * * * It was one more.”
{¶ 51} Kirkland knew her as Kim. She was working as a prostitute when
he met her on Reading Road in December 2006. He paid her $40, and they had
sex. As they continued to drive together, an argument broke out, and Kirkland
pulled the car over. He stabbed Kim in the throat with her own knife. He
dumped her body up a dead-end hill. He laid the body out on a bed of wood and

Appendix
C
8
APPX-0058

January Term, 2014

sprayed it with lighter fluid, then covered the body. He returned a few weeks
later, to find the skeleton still in place, but the leg bones missing.
{¶ 52} Police tried to identify those remains using information provided
by Kirkland, including the fact that on the night she died, she and Kirkland had
had an encounter with a uniformed police officer in Clifton who told them they
could not be in a public park after dark. An investigator reviewed a month’s
worth of records showing license-verification requests sent by Cincinnati police to
the state of California. The search revealed that on December 22, 2006, a police
officer working in Clifton ran an inquiry on a California driver’s license
belonging to Kimya Bodi Iamaya Corrine Rolison, whose date of birth roughly
matched the one Kirkland remembered seeing on her license. The Rolison family
confirmed that Kimya was missing. Dental records confirmed the identity of the
body.
{¶ 53} After the state finished playing the videotapes of Kirkland’s
confessions, and over the defense’s objection, the state called Kylah W. to testify.
Kylah testified that she was 13 years old in the fall of 2007. At the time, Kylah
was living with her mother. Kirkland was a friend of her mother’s who would
sometimes stay with them.
{¶ 54} Kylah testified that on September 26, 2007, she arrived home from
school at about 3:30 in the afternoon and found herself alone in the apartment
with Kirkland. Kylah was hungry, so she decided to cook herself a hamburger.
She left the food cooking on low to go into her bedroom to talk to a friend on the
telephone.
{¶ 55} According to Kylah, Kirkland knocked on her bedroom door, then
opened the door, put the hamburger on top of her dresser, and left the room,
closing the door behind him. Kylah continued her telephone conversation. But a
short time later, Kirkland opened her door again, and this time his “bottoms” were
down and his privates were exposed. Kirkland stood in the doorway without

Appendix
C
9
APPX-0059

SUPREME COURT OF OHIO

entering. Kylah repeatedly told him to get out of her room, which he eventually
did.
{¶ 56} Five or ten minutes later, Kirkland returned again. He was still
exposing himself. This time he was carrying a piece of paper, and he approached
Kylah and held the paper so she could read it. The note read, “I want to be the
first to eat you out and I’ll pay you.” Kylah continued telling him to leave, and
Kirkland did.
{¶ 57} But he came to her room a fourth time. This time he was dressed.
He walked into her room, placed five dollars on the dresser, and walked out.
{¶ 58} Unsure what to do, Kylah stayed on the phone with her friend for
another ten minutes and then left the apartment. When she later told her mother
what had happened, her mother told Kirkland to get out of the apartment, and then
the two women went to the local police station to report the incident. Kirkland
was eventually convicted of importuning and served about one year in prison, a
fact the jury did not learn until the penalty phase.
The Defense Case
{¶ 59} The defense did not call witnesses during the guilt phase.
Procedural History of the Case
{¶ 60} On March 17, 2009, the state filed a 12-count indictment against
Kirkland. The indictment included four counts of aggravated murder with deathpenalty specifications. Count Two charged Kirkland with the aggravated murder
of Casonya C. while committing or attempting to commit rape, a death-penalty
specification under R.C. 2929.04(A)(7), and Count Four charged Kirkland with
the aggravated murder of Casonya C. while committing or attempting to commit
aggravated robbery, R.C. 2929.04(A)(7). Counts Two and Four included “courseof-conduct” death-penalty specifications. R.C. 2929.04(A)(5).
{¶ 61} Counts Nine and Eleven contained rape and robbery aggravatedmurder charges in connection with the death of Esme K. Each of these counts

Appendix
C
10
APPX-0060

January Term, 2014

also included a course-of-conduct specification as well as an escape-detection-orapprehension specification under R.C. 2929.04(A)(3).
{¶ 62} The indictment contained eight additional counts: Count One,
attempted rape of Casonya; Count Three, aggravated robbery of Casonya; Count
Six, murder of Mary Jo Newton; Count Eight, attempted rape of Esme K.; Count
Ten, aggravated robbery of Esme K.; and Counts Five, Seven, and Twelve, gross
abuse of a corpse.
{¶ 63} Kirkland was indicted separately for murder and abuse of a corpse
relating to Kimya Rolison.

Over objection, the two indictments were

consolidated for trial.
{¶ 64} On the morning of trial, Kirkland voluntarily entered a plea of
guilty to the murder and abuse-of-a-corpse charges relating to Mary Jo Newton
and Kimya Rolison. On March 12, 2010, the jury found Kirkland guilty on all the
remaining

counts,

including

all

the

death-penalty

specifications,

and

recommended a sentence of death. For purposes of sentencing, the court merged
the escape-detection specifications with the specifications of felony murder while
attempting rape or robbery. The court then sentenced Kirkland to death for the
aggravated murder of Esme K. while committing or attempting to commit a rape
and for the aggravated murder of Casonya C. while committing or attempting to
commit a robbery. The court also sentenced Kirkland to 70 years to life for the
murders of Mary Jo Newton and Kimya Rolison.
Legal Analysis
{¶ 65} Kirkland seeks reversal of his convictions of aggravated murder
and the sentence of death in ten propositions of law.
1.

The admission of Kylah W.’s testimony (Proposition of Law I)
{¶ 66} In his first proposition of law, Kirkland argues that the trial court

violated Evid.R. 404(B) by allowing Kylah W. to testify that when she was 13

Appendix
C
11
APPX-0061

SUPREME COURT OF OHIO

years old, Kirkland exposed himself to her and offered her $5 to engage in oral
sex.
{¶ 67} The trial court has broad discretion in the admission and exclusion
of evidence, including evidence of other acts under Evid.R. 404(B). State v.
Morris, 132 Ohio St.3d 337, 2012-Ohio-2407, 972 N.E.2d 528, ¶ 22. Unless the
trial court has “clearly abused its discretion and the defendant has been materially
prejudiced thereby, this court should be slow to interfere” with the exercise of
such discretion. State v. Hymore, 9 Ohio St.2d 122, 128, 224 N.E.2d 126 (1967).
We have defined “abuse of discretion” as an “unreasonable, arbitrary, or
unconscionable use of discretion, or as a view or action that no conscientious
judge could honestly have taken.” State v. Brady, 119 Ohio St.3d 375, 2008Ohio-4493, 894 N.E.2d 671, ¶ 23.
{¶ 68} Evid.R. 404(B) states that “[e]vidence of other crimes, wrongs, or
acts is not admissible to prove the character of a person in order to show action in
conformity therewith.” Such evidence may, however, be admissible for other
purposes, “such as proof of motive, opportunity, intent, preparation, plan,
knowledge, identity, or absence of mistake or accident.”

Evid.R. 404(B).

Similarly, R.C. 2945.59 allows the admission of other-acts evidence tending to
show a defendant’s “motive or intent, the absence of mistake or accident on his
part, or the defendant’s scheme, plan, or system in doing the act in question.”
Generally, evidence of other acts is admissible if it is offered for a purpose other
than to prove the character of a person in order to show action in conformity with
that character, Evid.R. 404(B), it is relevant when offered for that purpose,
Evid.R. 401, and the danger of unfair prejudice does not substantially outweigh its
probative value, Evid.R. 403. State v. Williams, 134 Ohio St.3d 521, 2012-Ohio5695, 983 N.E.2d 1278, ¶ 20.
{¶ 69} The trial court did not abuse its discretion by admitting Kylah’s
testimony. The state introduced the evidence of her encounter with Kirkland for a

Appendix
C
12
APPX-0062

January Term, 2014

valid purpose other than proving character in order to show that he had acted in
conformity with that character: to show that Kirkland offered money to Casonya
not “just to talk” with her, as he told police, but that he had a sexual intent and
motive for doing so. Nor did the trial court admit Kylah’s testimony as proof of
character. In fact, in its final instructions to the jury, the trial court told the jury
that it could not consider evidence of any other acts for such a purpose. We
presume that the jury followed this limiting instruction. See id. at ¶ 23. Kylah’s
testimony was relevant to the attempted-rape allegations involving Casonya
because it tended to show a fact “of consequence,” i.e., that Kirkland had a sexual
interest in Casonya and a sexual purpose for approaching her. Evid.R. 401.
Moreover, the attempted rape of Casonya was one of the only crimes the defense
contested during the guilt phase, and Kylah’s testimony was relevant to refute the
defense’s suggestion that Kirkland had an innocent purpose for offering Casonya
money and that he did not have sex with her.
{¶ 70} Finally, the danger of unfair prejudice did not substantially
outweigh the probative value of Kylah’s testimony. The trial court reduced any
danger of undue prejudice in its limiting instruction to the jury. See State v.
Jones, 135 Ohio St.3d 10, 2012-Ohio-5677, 984 N.E.2d 948, ¶ 194 (limiting
instruction “minimized the likelihood of any undue prejudice” caused by the
admission of Evid.R. 404(B) evidence); see also Williams at ¶ 24. The only claim
of prejudice in Kirkland’s brief is his conclusory statement that Kylah’s testimony
“made the difference between life and death,” a statement that seems to refer to
the outcome of the mitigation phase rather than the guilt phase. Kirkland supports
this claim by citing two newspaper articles that contain posttrial statements from
the prosecuting attorney and one victim’s stepmother. These materials are not in
the record, and we cannot consider them. State v. Ishmail, 54 Ohio St.2d 402, 377
N.E.2d 500 (1978), paragraph one of the syllabus (“A reviewing court cannot add

Appendix
C
13
APPX-0063

SUPREME COURT OF OHIO

matter to the record before it, which was not part of the trial court’s proceedings,
and then decide the appeal on the basis of the new matter”).
{¶ 71} We overrule Kirkland’s first proposition of law.
2.

Ineffective assistance of counsel (Proposition of Law II)
{¶ 72} In his second proposition of law, Kirkland alleges two incidents of

ineffective assistance of counsel. First, Kirkland alleges that his trial counsel told
the jury in the mitigation-phase opening statement that an uncle would testify to
explain why Kirkland’s parents were not in attendance and why Kirkland should
receive a sentence other than death. But the uncle was not called to the stand, and
the jury was given no explanation in closing argument for the uncle’s absence.
{¶ 73} The record does not show defense counsel making any such
representation to the jury in an opening statement, either at the guilt phase or the
mitigation phase. Defense counsel told the judge that a family member might
testify but later reported that the family would not cooperate. Those statements
were made outside the presence of the jury. The record does not support this
allegation of ineffective assistance.
{¶ 74} The second alleged deficiency concerns the testimony of
Kirkland’s mitigation expert witness, Dr. Scott Bresler, a forensic psychiatrist,
who testified that Kirkland is a psychopath. Dr. Bresler testified that psychopaths
have reduced serotonin levels and that a low serotonin level is associated with
impulsive aggression. On cross-examination, Dr. Bresler conceded that no brain
scans or chemical tests were performed on Kirkland. Kirkland now alleges that
his counsel was ineffective for failing to arrange blood tests for possible lack of
serotonin.
{¶ 75} To prove an allegation of ineffective assistance of counsel, a
defendant must satisfy a two-prong test. Strickland v. Washington, 466 U.S. 668,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). First, he must establish that counsel’s
performance fell below an objective standard of reasonable representation. Id. at

Appendix
C
14
APPX-0064

January Term, 2014

687. And second, he must show that the deficient performance caused him
prejudice. Id. A defendant can establish prejudice by showing a reasonable
probability that but for counsel’s errors, the result of the trial would have been
different. State v. Bradley, 42 Ohio St.3d 136, 538 N.E.2d 373 (1989), paragraph
three of the syllabus.
{¶ 76} Kirkland cannot prevail on this claim at this stage of the
proceedings. To prove prejudice, he would need to show that the results of a
serotonin test would support his case. In other words, he would need to supply
proof outside the record, which this court cannot consider on direct appeal. State
v. Madrigal, 87 Ohio St.3d 378, 390-391, 721 N.E.2d 52 (2000).
{¶ 77} We overrule Kirkland’s second proposition of law.
3.

Prosecutorial misconduct (Proposition of Law III)
{¶ 78} In his third proposition of law, Kirkland alleges prosecutorial

misconduct in the course of penalty-phase closing arguments.
{¶ 79} Allegations of prosecutorial misconduct implicate due-process
concerns, and the touchstone of the analysis is the “ ‘fairness of the trial, not the
culpability of the prosecutor.’ ” State v. Newton, 108 Ohio St.3d 13, 2006-Ohio81, 840 N.E.2d 593, at ¶ 92, quoting Smith v. Phillips, 455 U.S. 209, 219, 102
S.Ct. 940, 71 L.Ed.2d 78 (1982). The test for prejudice in closing arguments,
including penalty-phase closing arguments, is “ ‘ “whether the remarks were
improper, and, if so, whether they prejudicially affected substantial rights of the
defendant.” ’ ” State v. Braden, 98 Ohio St.3d 354, 2003-Ohio-1325, 785 N.E.2d
439, ¶ 83, quoting State v. Hessler, 90 Ohio St.3d 108, 125, 734 N.E.2d 1237
(2000), quoting State v. Smith, 14 Ohio St.3d 13, 14, 470 N.E.2d 883 (1984).
{¶ 80} By the time the jury heard closing arguments in the penalty phase,
Kirkland had already pled guilty to the murders of Mary Jo Newton and Kimya
Rolison. In urging the jury to return a sentence of death for the other two
murders, the prosecutor told the jury: “Finally, for the murder of Mary Jo and

Appendix
C
15
APPX-0065

SUPREME COURT OF OHIO

Kimya, which he admitted to before opening statements, he’s going to jail for the
rest of his life now. He’s gone. So I guess Casonya and Esme are just freebies
for him—” (Emphasis added.) The trial court did not sustain the defense’s
objection. Thereafter, the prosecutor stated, “Again, and I’ll be very clear about
this, [life in prison] should not be something you even consider, okay. He’s going
to jail on those other two for the rest of his life.”
{¶ 81} According to Kirkland, the message to the jury was plain: if you do
not return a recommendation of death, Kirkland will receive no punishment for
two murders. Kirkland challenges these statements as improper.
{¶ 82} We agree.

“[I]t is improper for a prosecutor to argue that a

sentence less than death is meaningless and would not hold the defendant
accountable for a victim’s death when he is already serving a life sentence.”
Hanson v. State, 2009 OK CR 13, 206 P.3d 1020, ¶ 24. In capital-sentencing
deliberations, the jury must weigh the aggravating and mitigating circumstances
of the offense. But by suggesting that Kirkland would receive no punishment for
killing Esme and Casonya unless the jury returned a verdict of death for their
murders, the state asked the jury to set aside its proper assignment and return a
recommendation of death based on improper considerations.
{¶ 83} We also find that the prosecutor’s closing argument prejudicially
affected Kirkland’s substantial rights.
{¶ 84} For a prosecutor’s closing argument to be prejudicial, the remarks
must be “so inflammatory as to render the jury’s decision a product solely of
passion and prejudice.” State v. Williams, 23 Ohio St.3d 16, 20, 490 N.E.2d 906
(1986).

To determine whether the remarks were prejudicial, the court must

review the closing argument in its entirety. State v. Slagle, 65 Ohio St.3d 597,
607, 605 N.E.2d 916 (1992); State v. Moritz, 63 Ohio St.2d 150, 157, 407 N.E.2d
1268 (1980). Thus, the court must consider all of the prosecutor’s remarks,
irrespective of whether the defense preserved an objection. State v. Keenan, 66

Appendix
C
16
APPX-0066

January Term, 2014

Ohio St.3d 402, 410, 613 N.E.2d 203 (1993) (“even though the defense waived
objection to many remarks, those remarks still form part of the context in which
we evaluate the effect on the jury of errors that were not waived”).
{¶ 85} The objectionable statements in the state’s closing argument fall
into a number of categories.
References to the subjective experiences of the victims
{¶ 86} It is error for a prosecutor to invite the jury to consider what the
victim experienced and felt in her last moments of life, because it improperly
“ ‘invites the jury to speculate on facts not in evidence.’ ” State v. Lynch, 98 Ohio
St.3d 514, 2003-Ohio-2284, 787 N.E.2d 1185, ¶ 122, quoting State v.
Wogenstahl, 75 Ohio St.3d 344, 357, 662 N.E.2d 311 (1996); State v. Combs, 62
Ohio St.3d 278, 283, 581 N.E.2d 1071 (1991). The state’s closing argument
employed this method on a number of occasions:
What was it like for Casonya that night? It was dark, she’s alone,
and the only person escorting her is him. * * * What was it like for
her then?
***
* * * [A]fter he confronts Esme on the back of that
building, he talks about how she’s cringing and he’s calling her
names. You’re nothing but a lying bitch, this little girl, 4-foot-11.
What did that evoke in her?
And she’s petrified.
***
What’s this little girl going through naked in the woods
except for her shoes and this little top? * * *
We know at some point she’s actually vomiting on herself,
she’s so terrified. * * *

Appendix
C
17
APPX-0067

SUPREME COURT OF OHIO

* * * [Y]ou saw all the scrapes and cuts and raw skin on
her back and on her behind. She probably never even felt that
because of the horrible pain between her legs at that point.

Facts outside the record
{¶ 87} A closing argument that goes beyond the record in order to arouse
an emotional response in the jury may be prejudicial. State v. Loza, 71 Ohio St.3d
61, 78-79, 641 N.E.2d 1082 (1994). Although the prosecution is entitled to a
degree of latitude in closing argument, it is improper for prosecutors to incite the
jurors’ emotions through insinuations and assertions that are not supported by the
evidence and that are therefore “calculated to mislead the jury.” Smith, 14 Ohio
St.3d at 14, 470 N.E.2d 883.
{¶ 88} After graphically describing the strangulation of Esme, the
prosecutor concluded by saying, “[S]he’s not fighting anymore.

She’s not

struggling. She just pounds her little hands on the ground and digs into the dirt.
At that point she’s no longer begging that man to let her live. She’s begging that
man to let her die.” (Emphasis added.) Nothing in the record supports the claim
that Esme begged Kirkland to let her die.
{¶ 89} To generate jury sympathy for Casonya, the prosecutor said,
“[Y]ou talk about tough childhoods. How about her? Her dad is in prison when
she’s born. She hardly ever sees him. Her mom chose drugs over her little girl,
and as a result she’s brought up with some other brothers and sister and cousins
by her grandma.”

None of this information is in the record.

Casonya’s

grandmother, Patricia C., testified that she had custody of Casonya and two of her
brothers “because the mother ran into problems and the children were placed with
me.” Patricia did not identify the nature of the problems, much less testify that
Casonya’s mother chose drugs over her daughter. Nor is there any testimony
about the father being in jail or Casonya living with sisters or cousins.

Appendix
C
18
APPX-0068

January Term, 2014

The “nature and circumstances” of the
murder as aggravating circumstances
{¶ 90} While a prosecutor in the penalty phase of a capital trial may refer
in closing argument to the nature and circumstances of the offense, that
prosecutor may not “ ‘make any comment before a jury that the nature and
circumstances of the offense are “aggravating circumstances.” ’ ” State v. Were,
118 Ohio St.3d 448, 2008-Ohio-2762, 890 N.E.2d 263, ¶ 209, quoting
Wogenstahl, 75 Ohio St.3d 344, 662 N.E.2d 311, paragraph two of the syllabus;
see also State v. Hale, 119 Ohio St.3d 118, 2008-Ohio-3426, 892 N.E.2d 864, ¶
200.
{¶ 91} The state can describe the crime to prove the existence of the
statutory aggravating factors. Hale at ¶ 199-200 (a prosecutor described the
circumstances of the murder to prove that the defendant acted with prior
calculation and design, which is a statutory aggravating circumstance); Newton,
108 Ohio St.3d 13, 2006-Ohio-81, 840 N.E.2d 593, at ¶ 54 (the facts of the case
were relevant to prove that the murder occurred while the defendant was in a
prison); State v. Jackson, 107 Ohio St.3d 53, 2005-Ohio-5981, 836 N.E.2d 1173,
at ¶ 93 (the state could properly have victims testify in the penalty phase about
their experience to establish the course-of-conduct aggravating circumstance).
{¶ 92} The state may also argue the nature and circumstances of the
offense to suggest that there is nothing mitigating about the circumstances of the
offense. State v. Davis, 116 Ohio St.3d 404, 2008-Ohio-2, 880 N.E.2d 31, ¶ 324;
State v. Hoffner, 102 Ohio St.3d 358, 2004-Ohio-3430, 811 N.E.2d 48, ¶ 79; State
v. Bryan, 101 Ohio St.3d 272, 2004-Ohio-971, 804 N.E.2d 433, ¶ 178-179. And,
if the defense argues that the nature or circumstances of the crime is actually
mitigating, the state may argue the nature and circumstances of the offense to
rebut the defense’s assertion. State v. Frazier, 115 Ohio St.3d 139, 2007-Ohio-

Appendix
C
19
APPX-0069

SUPREME COURT OF OHIO

5048, 873 N.E.2d 1263, at ¶ 184; State v. Smith, 87 Ohio St.3d 424, 443-444, 721
N.E.2d 93 (2000).
{¶ 93} And finally, the state may argue the nature and circumstances of
the aggravating offense to explain why the aggravating circumstances outweigh
the mitigation evidence. State v. Sheppard, 84 Ohio St.3d 230, 238, 703 N.E.2d
286 (1998).
{¶ 94} But the state may not tell the decisionmaker that the nature and
circumstances of the murder itself are the aggravating circumstances. State v.
Ketterer, 111 Ohio St.3d 70, 2006-Ohio-5283, 855 N.E.2d 48, ¶ 165-166. Nor
can the prosecutor tell the jury to weigh the circumstances of the murder as
aggravating circumstances against the mitigation evidence. State v. Skatzes, 104
Ohio St.3d 195, 2004-Ohio-6391, 819 N.E.2d 215, ¶ 189; State v. Clemons, 82
Ohio St.3d 438, 446-447, 696 N.E.2d 1009 (1998).
{¶ 95} In this case, the prosecution repeatedly urged the jury to weigh the
specific details of the murder against the mitigation:
[Kirkland] wants you to say, hey, I’m a psychopath, that outweighs
what I did. It does just the opposite.
And the last thing he tells us as he’s choking the life out of
that little girl and squeezing the last breaths out of her little body,
he says she’s not fighting anymore. She’s not struggling. She just
pounds her little hands on the ground and digs into the dirt. At that
point she’s no longer begging that man to let her live. She’s
begging that man to let her die. And thankfully it ended for her.
You’ll never see a case with aggravating circumstances
that weigh more or mitigation that weighs any less.
***

Appendix
C
20
APPX-0070

January Term, 2014

* * * He takes a rag out of the back of his pocket. He
twists it up and he slowly and methodically strangles Esme [K.] to
death. She never fought. She dug her fingers into the dirt as she
vomited and slowly died.
Now, let’s weigh that against the mitigation that he is a
psychopath and a self-proclaimed monster.

Again, ladies and

gentlemen, strike four, not even a close call.
(Emphasis added.) With these remarks, the state led the jurors to believe that they
had to weigh the circumstances of the murder itself against the mitigation.
{¶ 96} In sum, we find that the state’s closing remarks in the penalty phase
were improper and substantially prejudicial.

Accordingly, we conclude that

Kirkland’s third proposition of law is well taken.
{¶ 97} Nevertheless, we decline to remand the case for a new sentencing
hearing.

Pursuant to R.C. 2929.05(A), this court must conduct its own

independent evaluation of the capital sentence, and that evaluation can cure errors
in penalty-phase proceedings. See, e.g., Hale, 119 Ohio St.3d 118, 2008-Ohio3426, 892 N.E.2d 864, at ¶ 131-132 (improper questions of a penalty-phase
witness were cured by the independent sentence review); State v. Sanders, 92
Ohio St.3d 245, 267, 750 N.E.2d 90 (2001) (the independent review can cure a
trial court’s erroneous decision to exclude a witness, whose testimony had been
proffered, from the mitigation hearing). In State v. Mills, 62 Ohio St.3d 357, 373374, 582 N.E.2d 972 (1992), for example, this court held that a prosecutor’s
sentencing argument was “clearly improper” but that the court’s independent
sentence evaluation would cure any prejudice the argument had caused.
{¶ 98} Accordingly, the issues raised in the third proposition of law will
be cured by this court’s review of the sentence, which will not consider the state’s
improper arguments.

Appendix
C
21
APPX-0071

SUPREME COURT OF OHIO

4.

“Automatic death” jurors (Proposition of Law IV)
{¶ 99} In his fourth proposition of law, Kirkland claims ineffective

assistance of counsel based on his trial counsel’s alleged failure to weed out those
jurors who would automatically vote for death without regard to mitigating
factors. Kirkland asserts that his counsel performed only a “garden variety”
felony-jury selection, rather than a specialized, specific, and focused voir dire.
{¶ 100} This proposition of law does not satisfy either prong of the
Strickland test. Kirkland does not identify a question that his attorneys should
have asked but did not, a question that they did ask but should not have, or a
specific objection that they failed to raise. Therefore, we have no basis on which
to conclude that his counsel’s performance was deficient.
{¶ 101} Likewise, we have no basis on which to conclude that the manner
in which defense counsel conducted voir dire resulted in prejudice. In fact,
defense counsel did identify at least one “automatic death” member of the panel
and successfully had that person removed for cause.
{¶ 102} We overrule Kirkland’s fourth proposition of law.
5.

The weight of mitigation evidence (Proposition of Law V)
{¶ 103} In his fifth proposition of law, Kirkland challenges his sentence of

death, given the alleged weight of mitigation.

This presents an issue best

addressed concurrently with the court’s independent sentence evaluation, and we
will discuss it in that context. See Jones, 135 Ohio St.3d 10, 2012-Ohio-5677,
984 N.E.2d 948, at ¶ 211 (consideration of a challenge to a trial court’s weighing
of aggravating and mitigating factors deferred until the independent sentence
evaluation).
6.

Constitutional challenges to the death penalty (Proposition of Law VI)
{¶ 104} Kirkland’s sixth proposition of law consists of nine subparts

(some with multiple subheadings) challenging the constitutionality of Ohio’s
death penalty. The court has addressed most of these issues in previous cases.

Appendix
C
22
APPX-0072

January Term, 2014

Subpart 1. “The death penalty is arbitrary and unequal punishment”
{¶ 105} We have rejected each argument presented in Subpart 1 at least
once:
{¶ 106} ● State v. Jenkins, 15 Ohio St.3d 164, 169, 473 N.E.2d 264
(1984), citing Gregg v. Georgia, 428 U.S. 153, 96 S.Ct. 2909, 49 L.Ed.2d 859
(1976) (rejecting the claim that Ohio’s death-penalty scheme is unconstitutional
because it gives prosecutors unfettered discretion to indict);
{¶ 107} ●

State v. Short, 129 Ohio St.3d 360, 2011-Ohio-3641, 952

N.E.2d 1121, ¶ 137, and State v. Mink, 101 Ohio St.3d 350, 2004-Ohio-1580, 805
N.E.2d 1064, ¶ 103 (both rejecting the claim that Ohio’s death penalty is applied
in a racially discriminatory manner);
{¶ 108} ● State v. Buell, 22 Ohio St.3d 124, 136, 489 N.E.2d 795 (1986)
(rejecting an equal-protection challenge based on the geographic disparity of
death sentences); and
{¶ 109} ● Mink at ¶ 103; Jenkins, 15 Ohio St.3d at 168, 473 N.E.2d 264
(rejecting the claim that the death penalty is unconstitutional because it is neither
the least restrictive punishment nor an effective deterrent).
Subpart 2. Ohio uses “unreliable sentencing procedures”
{¶ 110} In State v. Glenn, 28 Ohio St.3d 451, 453, 504 N.E.2d 701 (1986),
this court rejected the argument that allowing juries to weigh aggravating and
mitigating factors leads to arbitrary and capricious imposition of the death
penalty.
Subpart 3(A). Use of the same jury at trial and sentencing burdens
a defendant’s rights to counsel and an impartial jury
{¶ 111} This court rejected this argument in State v. Mapes, 19 Ohio St.3d
108, 116-117, 484 N.E.2d 140 (1985).

Appendix
C
23
APPX-0073

SUPREME COURT OF OHIO

Subpart 3(B). Ohio’s death-penalty statutes unconstitutionally
fail to provide individualized sentencing because they
require proof of aggravating circumstances during the guilt phase
{¶ 112} This court rejected this argument in State v. Ferguson, 108 Ohio
St.3d 451, 2006-Ohio-1502, 844 N.E.2d 806, ¶ 88.
Subpart 3(C). Ohio imposes an impermissible risk of death on capital
defendants who choose their right to trial because a trial judge,
in the interest of justice, may dismiss the death-penalty specification
{¶ 113} This court rejected this argument in State v. Van Hook, 39 Ohio
St.3d 256, 264, 530 N.E.2d 883 (1988).
Subpart 3(D). R.C. 2929.04(B)(7) unconstitutionally allows
a sentencer to convert mitigation evidence into an aggravating factor
{¶ 114} This court rejected this argument in State v. Scott, 101 Ohio St.3d
31, 2004-Ohio-10, 800 N.E.2d 1133, ¶ 52-53.
Subpart 4. R.C. 2929.04(A)(7) is unconstitutional because, by setting forth as
aggravating factors the same felony-murder specifications that distinguish
aggravated murder from murder, R.C. 2929.04(A)(7) does nothing to narrow the
class of persons eligible for the death penalty
{¶ 115} This court rejected this argument in State v. Henderson, 39 Ohio
St.3d 24, 28-29, 528 N.E.2d 1237 (1988).
Subpart 5. R.C. 2929.03(D)(1) and 2929.04 are unconstitutionally vague
{¶ 116} This court rejected a vagueness challenge to R.C. 2929.03(D)(1)
in State v. McNeill, 83 Ohio St.3d 438, 453, 700 N.E.2d 596 (1998). We upheld
R.C. 2929.04 in State v. Chinn, 85 Ohio St.3d 548, 567-568, 709 N.E.2d 1166
(1999).

Appendix
C
24
APPX-0074

January Term, 2014

Subpart 6. The court’s proportionality review is unconstitutional
{¶ 117} This court summarily rejected this argument in Jones, 135 Ohio
St.3d 10, 2012-Ohio-5677, 984 N.E.2d 948, at ¶ 207, and Scott, 101 Ohio St.3d
31, 2004-Ohio-10, 800 N.E.2d 1133, at ¶ 51.
Subpart 7. Lethal injection is cruel and unusual punishment
{¶ 118} Kirkland argues that lethal injection violates the Eighth
Amendment to the United States Constitution.

However, the United States

Supreme Court has affirmed the constitutionality of lethal injection as a method of
execution. Baze v. Rees, 553 U.S. 35, 128 S.Ct. 1520, 170 L.Ed.2d 420 (2008).
This court has reached the same conclusion. State v. Adams, 103 Ohio St.3d 508,
2004-Ohio-5845, 817 N.E.2d 29, ¶ 131; State v. Carter, 89 Ohio St.3d 593, 608,
734 N.E.2d 345 (2000).
Subpart 8. The death penalty violates Ohio’s obligations under
international charters, treaties, and conventions
{¶ 119} This court has addressed most, but not all, of these claims before.
In State v. Phillips, 74 Ohio St.3d 72, 103-104, 656 N.E.2d 643 (1995), we held
that capital punishment does not violate obligations owed under the American
Declaration of the Rights and Duties of Man. We reaffirmed this holding as to the
Declaration in State v. Issa, 93 Ohio St.3d 49, 69, 752 N.E.2d 904 (2001). And in
Short, we rejected claims that the death penalty is barred by the International
Covenant on Civil and Political Rights, the United Nations Covenant against
Torture, and the international-law norm. 129 Ohio St.3d 360, 2011-Ohio-3641,
952 N.E.2d 1121, at ¶ 138, citing Buell v. Mitchell, 274 F.3d 337, 370-372 (6th
Cir.2001); People v. Perry, 38 Cal.4th 302, 322, 42 Cal.Rptr.3d 30, 132 P.3d 235
(2006); Sorto v. State, 173 S.W.3d 469, 490 (Tex.Crim.App.2005).
{¶ 120} However, we have not previously addressed the contention that
Ohio’s death-penalty scheme violates the International Convention on the
Elimination of All Forms of Racial Discrimination or the Convention Against

Appendix
C
25
APPX-0075

SUPREME COURT OF OHIO

Torture and Other Cruel, Inhuman, or Degrading Treatment of Punishment. But
as noted above, we have repeatedly held that Ohio’s death-penalty procedures are
not unconstitutional or imposed in a racially discriminatory manner. See, e.g.,
Short at ¶ 137; Mink, 101 Ohio St.3d 350, 2004-Ohio-1580, 805 N.E.2d 1064, at
¶ 103.

And Kirkland “has not advanced any argument that these issues, as

defined under international law, differ in any significant way from the
constitutional arguments * * * already addressed, e.g., that equal protection and
arbitrariness would be evaluated differently under international law than they are
under the United States or Ohio Constitutions.”

State v. Skatzes, 2d Dist.

Montgomery No. 15848, 2003-Ohio-516, ¶ 407; see also State v. Tenace, 6th
Dist. Lucas No. L-00-1002, 2003-Ohio-3458, ¶ 175-185. In short, these claims
fail for the same reasons as prior death-penalty challenges based on international
law.
{¶ 121} Finally, in subpart 9, Kirkland presents a general challenge to the
constitutionality of Ohio’s death penalty.

Because this claim is wholly

conclusory, we summarily reject this argument. Carter, 89 Ohio St.3d at 607, 734
N.E.2d 345; Jenkins, 15 Ohio St.3d at 179, 473 N.E.2d 264.
{¶ 122} For these reasons, we reject Kirkland’s sixth proposition of law in
its entirety.
7.

Ohio’s jury instructions (Proposition of Law VII)
{¶ 123} Consistent with the definition set forth in R.C. 2901.05(E), the

trial court instructed the jury that
[r]easonable doubt is present when the jurors, after they have
carefully considered and compared all the evidence, cannot say
they are firmly convinced of the truth of the charge. It is a doubt
based on reason and common sense. Reasonable doubt is not mere
possible doubt because everything relating to human affairs or

Appendix
C
26
APPX-0076

January Term, 2014

depending on moral evidence is open to some possible or
imaginary doubt.
Proof beyond a reasonable doubt is proof of such character
that an ordinary person would be willing to rely and act upon it in
the most important of his or her own affairs.
Kirkland contends in his seventh proposition that the phrases “willing to act” and
“firmly convinced” allowed the jury to convict based on a lower standard of
proof, namely clear and convincing evidence, in violation of due process. And he
alleges that the use of the phrase “moral evidence” allowed the jury to convict
based on subjective moral decisions, rather than demanding proof beyond a
reasonable doubt.
{¶ 124} We have repeatedly upheld the constitutionality of Ohio’s
reasonable-doubt instruction. Frazier, 115 Ohio St.3d 139, 2007-Ohio-5048, 873
N.E.2d 1263, ¶ 242; State v. Gapen, 104 Ohio St.3d 358, 2004-Ohio-6548, 819
N.E.2d 1047, ¶ 145.

The phrases “willing to act” and “firmly convinced”

adequately convey the difficult concept of reasonable doubt, and they do not
establish a lower, clear-and-convincing standard. State v. Nabozny, 54 Ohio St.2d
195, 201-203, 375 N.E.2d 784 (1978), citing Holland v. United States, 348 U.S.
121, 139-140, 75 S.Ct. 127, 99 L.Ed. 150 (1954).
{¶ 125} This court has not specifically discussed the constitutionality of
the phrase “moral evidence.” Compare State v. Frazier, 8th Dist. Cuyahoga No.
62557, 1994 WL 50703 (Feb. 17, 1994), with State v. Frazier, 73 Ohio St.3d 323,
330, 652 N.E.2d 1000 (1995). However, the United States Supreme Court has
considered the meaning of that phrase and concluded that the phrase “moral
evidence” means the same thing as “beyond a reasonable doubt.
Nebraska, 511 U.S. 1, 10-12, 114 S.Ct. 1239, 127 L.Ed.2d 583 (1994).

Appendix
C
27
APPX-0077

Victor v.

SUPREME COURT OF OHIO

{¶ 126} Based upon Victor, we reject Kirkland’s seventh proposition of
law.
8.

Imposition of costs on indigent defendants (Proposition of Law VIII)
{¶ 127} In State v. White, 103 Ohio St.3d 580, 2004-Ohio-5989, 817

N.E.2d 393, we held that the imposition of court costs upon an indigent defendant
does not violate the Equal Protection Clause. In a subsequent decision, this court
held that “although costs in criminal cases are assessed at sentencing and are
included in the sentencing entry, costs are not punishment.” State v. Threatt, 108
Ohio St.3d 277, 2006-Ohio-905, 843 N.E.2d 164, ¶ 15. If the imposition of costs
does not constitute “punishment,” it cannot implicate constitutional prohibitions
on cruel and unusual punishment.
{¶ 128} Kirkland asks the court to reconsider its rulings in White and
Threatt but provides no compelling reason, such as an intervening change in
United States Supreme Court precedent, to do so.
{¶ 129} Alternatively, Kirkland suggests that the court should stay the
collection of costs. But the logic of White suggests no reason why felons should
be exempt from payment of costs while they remain incarcerated.
{¶ 130} Accordingly, we reject Kirkland’s eighth proposition of law.
9.

Insufficient evidence of attempted rape and/or aggravated robbery

(Proposition of Law IX)
{¶ 131} Kirkland asserts that the state presented insufficient evidence to
convict him of attempted rape or robbery in connection with the murder of
Casonya C. At the close of the evidence, the defense moved for acquittal on these
charges. The trial court denied the motion and allowed all the charges to proceed
to the jury.
{¶ 132} When reviewing a record for sufficiency, we must consider
whether any rational trier of fact could have found the essential elements of the
crime proven beyond a reasonable doubt. State v. Leonard, 104 Ohio St.3d 54,

Appendix
C
28
APPX-0078

January Term, 2014

2004-Ohio-6235, 818 N.E.2d 229, ¶ 77; State v. Jenks, 61 Ohio St.3d 259, 574
N.E.2d 492 (1991), paragraph two of the syllabus. The court must view the
evidence in the light most favorable to the prosecution and defer to the trier of
fact on questions of credibility and the weight assigned to the evidence. State v.
Fry, 125 Ohio St.3d 163, 2010-Ohio-1017, 926 N.E.2d 1239, ¶ 146.
Aggravated robbery
{¶ 133} Count Four of the indictment charged Kirkland with aggravated
murder and included an aggravated-robbery specification. “Aggravated robbery”
means a theft offense in which the offender inflicts or attempts to inflict serious
physical harm on another. R.C. 2911.01(A)(3).
{¶ 134} The state provided sufficient evidence to support the charge based
on the fact that Casonya’s backpack and cell phone were never located. Tania H.
testified that Casonya always carried her book bag with her. Patricia C. testified
that the book bag was missing. And Kirkland and Ra’Shaud B. agreed that
Casonya was talking on her cell phone at the time she encountered Kirkland.
These facts are sufficient evidence to sustain a conviction for aggravated robbery.
See State v. Davis, 76 Ohio St.3d 107, 115-116, 666 N.E.2d 1099 (1996).2
Attempted rape
{¶ 135} The relevant definition of rape is “engag[ing] in sexual conduct
with another when the offender purposely compels the other person to submit by
force or threat of force.” R.C. 2907.02(A)(2). A criminal attempt occurs when a
person, “purposely or knowingly, and when purpose or knowledge is sufficient
culpability for the commission of an offense, * * * engage[s] in conduct that, if
successful, would constitute or result in the offense.” R.C. 2923.02(A). We have
likened Ohio’s definition of “attempt” to that in the Model Penal Code, which
2. The state argues that “[p]hone records demonstrated the continued use of the phone after
Casonya’s death,” thus suggesting that Kirkland had possession of the cell phone. However,
police testified at trial only that the phone continued to give off a locational signal for about a
week, but that there were no calls or texts made from the phone after Casonya disappeared.

Appendix
C
29
APPX-0079

SUPREME COURT OF OHIO

requires that the offender not only intended to commit the completed offense, but
also engaged in conduct constituting a substantial step toward completing the
offense. State v. Woods, 48 Ohio St.2d 127, 132, 357 N.E.2d 1059 (1976),
overruled on other grounds, State v. Downs, 51 Ohio St.2d 47, 364 N.E.2d 1140
(1977).

“To constitute a substantial step, the conduct must be strongly

corroborative of the actor’s criminal purpose.” Woods at paragraph one of the
syllabus.
{¶ 136} Kirkland confessed to killing Casonya after she rejected his offer
of money “to talk.” Any rational juror could have equated this offer with an offer
of sex, and even Kirkland concedes “soliciting Casonya to have sex for hire” in
his brief. Kirkland’s description of the conversation with Casonya was replete
with sexual innuendo. Kirkland told police that when he asked Casonya if she
was old enough to smoke marijuana, she replied that “she was old enough to be
doing a lot of things.” According to Kirkland, he began arguing with Casonya
about “girls playing games” and the “things that some women wouldn’t do,” and
Casonya threw the money back at him.
{¶ 137} That Kirkland attacked Casonya only after she refused his sexual
advances created a strong inference that he acted with a sexual purpose—that
being, to forcibly compel from her what she had refused to give him. The
physical evidence corroborated this purpose. Casonya’s body was found in the
woods, with nothing more than one sock, indicating that Kirkland transported her
to a secluded area and forcibly undressed her. See State v. Scudder, 71 Ohio St.3d
263, 274-275, 643 N.E.2d 524 (1994) (finding that the location of the victim’s
pants around her ankles and underwear at midthigh supported the conclusion that
she was forcibly undressed); State v. Biros, 78 Ohio St.3d 426, 448, 678 N.E.2d
891 (1997) (the fact that the victim’s sweater, pants, and undergarments were
never found revealed the defendant’s “concealment or destruction” of evidence
and “consciousness of guilt” for purposes of proving attempted rape). Moreover,

Appendix
C
30
APPX-0080

January Term, 2014

Kirkland burned Casonya’s entire body so severely that her “pelvic area had
almost been completely charred by fire,” and so similarly to that of 13-year-old
Esme K., whom he did confess to raping. This court has previously found that the
“evisceration” of a victim’s sexual organs can create a “reasonable inference” of
an “attempt[] to conceal evidence of rape or attempted rape.” Id. While there
was no testimony about where the fire originated on Casonya’s body, there was
evidence that the burning of Esme’s body originated in her pubic area. Kirkland’s
burning of Casonya revealed the consciousness of guilt.
{¶ 138} Viewing the evidence, including all permissible inferences, in
favor of the state, we find that any rational trier of fact could conclude that
Kirkland formed a purpose to forcibly rape Casonya and engaged in a course of
conduct—i.e., grabbing, choking, transporting her to a secluded area, and
undressing her—qualifying as a substantial step toward the completion of that
crime.
{¶ 139} Accordingly, we overrule Kirkland’s ninth proposition of law.
10.

Cumulative error (Proposition of Law X)
{¶ 140} In his tenth proposition of law, Kirkland argues that the court

should reverse his conviction based on the doctrine of cumulative error. Under
that doctrine, this court will reverse a conviction when the cumulative effect of
errors deprives a defendant of a fair trial even though each of the instances of
trial-court error does not individually constitute cause for reversal.

State v.

Powell, 132 Ohio St.3d 233, 2012-Ohio-2577, 971 N.E.2d 865, at ¶ 223; State v.
DeMarco, 31 Ohio St.3d 191, 196-197, 509 N.E.2d 1256 (1987). Cumulative
error does not apply in cases such as this one where any error in the trial court is
curable through the court’s independent review. State v. Brown, 100 Ohio St.3d
51, 2003-Ohio-5059, 796 N.E.2d 506, ¶ 48.

Appendix
C
31
APPX-0081

SUPREME COURT OF OHIO

Independent Sentence Evaluation
{¶ 141} Having considered Kirkland’s propositions of law, this court must
now independently review Kirkland’s death sentence.

First, the court must

review and independently weigh all facts and other evidence disclosed in the
record, “and consider the offense and the offender to determine whether the
aggravating circumstances the offender was found guilty of committing outweigh
the mitigating factors in the case, and whether the sentence of death is
appropriate.” R.C. 2929.05(A).
Aggravating circumstances
{¶ 142} The evidence at trial established beyond a reasonable doubt that
Kirkland murdered Esme K., with the aggravating circumstance of murdering her
while committing or attempting rape or aggravated robbery. The evidence also
established beyond a reasonable doubt that he murdered Casonya C. with the
aggravating circumstance of murdering her while committing or attempting
aggravated robbery or rape.
{¶ 143} The jury also found an additional aggravating circumstance in
connection with each murder, namely that the murders were part of a course of
conduct.
Mitigating evidence
{¶ 144} Against these aggravating circumstances, this court must weigh
the evidence in mitigation submitted by Kirkland.
{¶ 145} Kirkland called a single witness to testify in mitigation. Dr. Scott
Bresler testified that he had performed an evaluation of Anthony Kirkland. He
diagnosed Kirkland as having “an adjustment disorder with mixed emotional
issues and conduct” as well as an antisocial personality disorder. Kirkland’s
condition causes him to have trouble thinking as well as difficulty in emotions,
interpersonal functioning, and impulse control. In lay terms, he is a psychopath.

Appendix
C
32
APPX-0082

January Term, 2014

{¶ 146} Dr. Bresler testified that the condition manifests in unlawful
behaviors,

a pattern

of deceitfulness,

impulsivity,

irritability,

extreme

aggressiveness, reckless disregard for the safety of himself and others, “a
consistent kind of irresponsibility over a life force,” and lack of remorse. The
problem manifests at an early age.

Individuals appear to be genetically

predisposed.
{¶ 147} At the same time, the circumstances of his upbringing played a
role. Kirkland’s biological father was alcohol-dependent and extremely violent
toward Kirkland and his mother. Until his father left (when Kirkland was about
nine or ten), Kirkland was often beaten by his father, often watched his father beat
his mother, and was forced to watch his father rape his mother.
{¶ 148} By his early teens, Kirkland had engaged in extensive substance
abuse. He often fought with other kids. He suffered from depression, for which
he did not seek treatment until his adult years.
{¶ 149} Meanwhile, his mother remarried and got help for herself and
some of the children, but not Kirkland, who was the oldest. As a result, his
attachment to his family, which the forensic psychiatrist testified allows a person
to adapt to the world and to live responsibly, was damaged. Throughout his
adulthood, he formed no stable relationships, maintained no steady income, drank
and took drugs, and, after his release from prison, became homeless. According
to Dr. Bresler, Kirkland “cannot live responsibly in society ever.”
{¶ 150} Dr. Bresler also testified that Kirkland was able to justify his
crimes, with one exception: he cannot rationalize his killing of Esme K., and “so
oftentimes when he talks about her he’ll cry.”
{¶ 151} Finally, Dr. Bresler stated that Kirkland would have a difficult
time adjusting to life in prison, but prison can handle him, as shown by the fact
that he had already spent 17 years in prison.

Appendix
C
33
APPX-0083

SUPREME COURT OF OHIO

{¶ 152} This statement from Dr. Bresler was the first time the jury learned
that Kirkland spent an extended period of time in jail. Kirkland went to prison in
1987 after murdering Leola Douglas and setting her on fire. And while he was
incarcerated, he threatened various prison officials and staff.
{¶ 153} Finally, Dr. Bresler testified on cross-examination that Kirkland’s
sisters were sexually abused by their father, and also by Kirkland himself when he
was 13.
{¶ 154} Kirkland made a brief unsworn statement to the jury. He accepted
responsibility for the deaths of the four women. He said he “get[s] so angry and
cannot stop [him]self,” though he acknowledged that was no excuse.

He

expressed a desire to be locked away forever. “I cannot believe how horrible I
am. I will never forgive—forget or rest or be at peace, nor should I.” He said he
confessed to the police because he wanted it to stop. And in conclusion, he told
the jury: “I do not blame you if you kill me. I don’t deserve to live, but please
spare my life.”
Sentence evaluation
{¶ 155} R.C. 2929.04(B)(7) provides that the court may consider as
mitigation, in addition to other factors listed in the statute, “any other factors that
are relevant to the issue of whether the offender should be sentenced to death.”
Kirkland has pointed to several facts that may have mitigating weight under
division (B)(7):
{¶ 156} ● His personality disorder: This court has traditionally accorded
personality disorders some, but little, weight. State v. Cunningham, 105 Ohio
St.3d 197, 2004-Ohio-7007, 824 N.E.2d 504, ¶ 138; Hoffner, 102 Ohio St.3d 358,
2004-Ohio-3430, 811 N.E.2d 48, at ¶ 119.
{¶ 157} ●

His abusive childhood: The court accords some, but not

decisive, weight to evidence that the defendant suffered an abusive childhood.

Appendix
C
34
APPX-0084

January Term, 2014

Powell, 132 Ohio St.3d 233, 2012-Ohio-2577, 971 N.E.2d 865, at ¶ 276; Hale,
119 Ohio St.3d 118, 2008-Ohio-3426, 892 N.E.2d 864, at ¶ 265.
{¶ 158} ● His history of alcohol and drug abuse: A history of drug and
alcohol abuse is entitled to weight in mitigation. Scott, 101 Ohio St.3d 31, 2004Ohio-10, 800 N.E.2d 1133, ¶ 108.
{¶ 159} ● His confession and cooperation with police: A defendant’s
confession and cooperation with law enforcement are mitigating factors. State v.
Bethel, 110 Ohio St.3d 416, 2006-Ohio-4853, 854 N.E.2d 150, ¶ 191.

The

mitigation value of Kirkland’s confessions would usually receive little weight,
given that he initially lied to police and tried to blame Esme K.’s murder on the
fictitious Pedro. State v. Perez, 124 Ohio St.3d 122, 2009-Ohio-6179, 920 N.E.2d
104, ¶ 247. However, in the peculiar circumstances here, we believe Kirkland’s
confession is entitled to serious consideration because the information he
voluntarily provided enabled the police to identify the body of Kimya Rolison,
and thus her family was able to learn what had happened to her.
{¶ 160} ● Remorse: Apologies and expressions of remorse in an unsworn
statement are given some mitigating weight. State v. Trimble, 122 Ohio St.3d
297, 2009-Ohio-2961, 911 N.E.2d 242, at ¶ 327. Although the transcript cannot
capture his tone or affect, there is no question that Kirkland expressed a good deal
of self-loathing in his unsworn statement.
{¶ 161} The sincerity of his remorse was a hotly contested issue. Dr.
Bresler testified that Kirkland cried during their sessions when he talked about
killing Esme K. Detective Hilbert, on the other hand, had the impression that
when Kirkland cried during his police interviews, it was more out of self-regard
than concern for the victims. Kirkland’s allocution consisted of six simple words:
“Offer an apology to the family.” The statement is revealing: he apologized to the
family, singular, probably the family of Esme K. Whatever credit he is due for his
remorse over killing Esme is offset by his apparent lack of remorse for the pain

Appendix
C
35
APPX-0085

SUPREME COURT OF OHIO

and suffering he caused his other victims and their families. His expressions of
remorse are too infrequent, too ambiguous, and ultimately too self-serving to
justify according them significant weight.
{¶ 162} ● Mercy: The trial court gave some mitigating value to Kirkland’s
request for mercy in his unsworn statement. But mercy is not a mitigating factor.
State v. O’Neal, 87 Ohio St.3d 402, 416, 721 N.E.2d 73 (2000).
{¶ 163} In State v. Tenace, 109 Ohio St.3d 255, 2006-Ohio-2417, 847
N.E.2d 386, ¶ 97-106, this court vacated a death sentence on the grounds that the
aggravating circumstances of the offense did not outweigh the mitigating factors.
The court afforded great weight to the tragic circumstances of Tenace’s
childhood. Both his parents were criminals and substance abusers, and they were
neglectful and abusive to the children. Id. at ¶ 103. Tenace was sexually abused
himself, including being sold by his mother for sexual services, and forced to
watch the sexual abuse of his sister. Id. at ¶ 102. He was exposed to substance
abuse by his mother and her boyfriends, who encouraged him to commit crimes.
Id.
{¶ 164} In contrast, we declined to vacate the death sentence based on
childhood circumstances in State v. Mundt, 115 Ohio St.3d 22, 2007-Ohio-4836,
873 N.E.2d 828, ¶ 206. Mundt’s mother had eight children by four different
fathers. Id. at ¶ 192. A children’s protective agency removed Mundt from his
mother’s custody for one month when he was an infant. Id. And when he was
approximately five years old, his mother voluntarily surrendered custody of her
children because she was homeless. Id. However, this court concluded that
Mundt’s mitigation evidence “present[ed] nothing comparable to Tenace.” Id. at
¶ 206.
{¶ 165} Kirkland’s

case

falls

somewhere

between

the

extremes

represented by Tenace and Mundt. The testimony of pervasive physical and
sexual abuse in Kirkland’s home exceeds anything alleged by Mundt. At the

Appendix
C
36
APPX-0086

January Term, 2014

same time, it does not equate to the facts in Tenace. Kirkland was abused by one
parent, his father, George Palmore.

So unlike Tenace, Kirkland had one

nonabusive parent in his life. Moreover, his father left the home when Kirkland
was nine or ten years old, and there is no evidence that any abuse continued
during his teen years when he lived with his mother. The fact that Kirkland is a
psychopath from a dysfunctional home is tragic, but not sufficient to outweigh the
aggravating circumstances of his crimes, even when coupled with the other
mitigating factors identified above.
{¶ 166} We therefore affirm the sentence and, in doing so, reject
Kirkland’s contention that the aggravating circumstances did not outweigh the
mitigating evidence.
Proportionality review
{¶ 167} The second part of the court’s independent review requires us to
decide whether a sentence of death satisfies the requirement of proportionality.
R.C. 2929.05(A) requires this court to “consider whether the sentence is excessive
or disproportionate to the penalty imposed in similar cases.”
{¶ 168} In Jones, 135 Ohio St.3d 10, 2012-Ohio-5677, 984 N.E.2d 948, at
¶ 265, this court affirmed the defendant’s death sentence for aggravated murder in
the course of committing a rape. The court has also affirmed death sentences in
cases combining a course-of-conduct specification with a robbery-murder
specification. See Perez, 124 Ohio St.3d 122, 2009-Ohio-6179, 920 N.E.2d 104,
at ¶ 253, and cases cited therein.

Therefore, we find that the sentence is

appropriate.
Judgment affirmed.
O’CONNOR, C.J., and O’DONNELL and KENNEDY, JJ., concur.
PFEIFER and LANZINGER, JJ., concur in part and dissent in part.
O’NEILL, J., dissents.
____________________

Appendix
C
37
APPX-0087

SUPREME COURT OF OHIO

PFEIFER, J., concurring in part and dissenting in part.
{¶ 169} Ohio continues to employ the death penalty as part of our
criminal-justice punishment scheme, and Anthony Kirkland’s predatory, brutal,
and heinous crimes clearly qualify him for that ultimate penalty. The state had a
seemingly airtight case against Kirkland, but overzealousness in both the guilt and
punishment phases has tainted its efforts; this court will taint the law if we bless
the state’s actions. In regard to the penalty phase, I concur in Justice Lanzinger’s
opinion that Kirkland should be resentenced due to the prejudicial effects of
prosecutorial misconduct. In regard to the guilt phase, I write separately to
dissent from the majority’s holding sustaining Kirkland’s conviction on the
attempted rape of Casonya C.
I
{¶ 170} I dissent from the majority’s holding regarding the “other acts”
evidence introduced at trial through the testimony of Kylah W. Kylah testified
that when she was 13 years old, Kirkland had exposed himself to her and solicited
sex from her.

In my judgment, Evid.R. 404(B) should have precluded the

admission of that testimony; also, its admission was unfairly prejudicial pursuant
to Evid.R. 403.
{¶ 171} The state’s theory is that Kirkland’s September 26, 2007 offer to
pay Kylah for a sex act is evidence that is admissible to prove that Kirkland
attempted to rape Casonya over a year earlier, in May 2006. There is no doubt
that the testimony regarding Kirkland’s exposing himself to Kylah and offering to
pay her for a sex act are revelatory. The acts show him to be an evil person who
sexualizes underage girls and is willing to pay for sex. That is, the evidence
demonstrates his character. The state admitted as much in its closing argument
when it told the jury that the kind of a man who would pay a girlfriend’s child for
sex acts is the kind of man who would rape Casonya:

Appendix
C
38
APPX-0088

January Term, 2014

First count, again, is a charge of attempted rape; that when
he approached Casonya [C.] on that bridge, when he walked with
her and when he offered her money, it was an act, it was an attempt
to have sexual contact with her.
And, again, this is where the other acts testimony comes in.
* * * This is a young girl [Kylah W.] that actually was the
daughter of one of his girlfriends, but he sees her as he sees all
women, as a sex object.
And what does he do, offers this little 13-year-old girl,
whose mother actually is nice enough to let him live there from
time to time, five dollars for, his words, to be the first to eat her
out.
***
But he wants you to believe that when confronted by a
stranger, a 14-year-old girl walking across the bridge, he offered
her 20 dollars and it got up to 60 dollars to talk.
Well, I’m sure if this little girl was offered 60 dollars just to
talk, she would have taken it, but something he said or did made
her take that money, throw it back in this predator’s face and knee
him. Did she do that because he said let’s talk, or did he say I want
to have sex with you—
***
You look at his pattern. You look at what he does when he
sees a woman. You see what’s in his eyes. He sees sex. And he’s
going to get it. He’ll barter for it, he’ll pay for it, but he’s gonna
get it.
We don’t know if he was successful or not [in raping
Casonya C.]. He did a pretty good job destroying it.

Appendix
C
39
APPX-0089

SUPREME COURT OF OHIO

As demonstrated by the state’s use of the evidence in closing argument, Kylah’s
testimony was not relevant to prove any consequential fact. Its only probative
value was to show that Kirkland is a very bad person who would pay for sex with
an underage girl, and therefore he must have raped Casonya.
{¶ 172} Evidence that an accused committed a crime other than the one
for which he is on trial is not admissible when its sole purpose is to show the
accused’s propensity or inclination to commit crime, that is, to show that he acted
in conformity with his bad character. State v. Curry, 43 Ohio St.2d 66, 68, 330
N.E.2d 720 (1975). Evid.R. 404(B) codifies the common law with respect to
evidence of other acts of wrongdoing and is construed against admissibility. State
v. Lowe, 69 Ohio St.3d 527, 530, 634 N.E.2d 616 (1994). The standard for
determining the admissibility of such evidence is strict. State v. Broom, 40 Ohio
St.3d 277, 533 N.E.2d 682 (1988), paragraph one of the syllabus.
{¶ 173} Evid.R.

404(B)

establishes

when

other-acts

evidence

is

admissible:
Evidence of other crimes, wrongs, or acts is not admissible
to prove the character of a person in order to show action in
conformity therewith. It may, however, be admissible for other
purposes such as proof of motive, opportunity, intent, preparation,
knowledge, identity, or absence of mistake or accident.
The majority rules that Kylah’s testimony is admissible under Evid.R. 404(B)
because Kirkland’s act—soliciting Kylah—demonstrated that “he had a sexual
intent and motive” for offering Casonya money. Majority opinion at ¶ 69. But
Kirkland faces the death penalty for the death of Casonya not because he offered
her money for a sex act but because he allegedly attempted to rape her before

Appendix
C
40
APPX-0090

January Term, 2014

killing her. Intent to solicit sex is not the same thing as intent to compel sex. And
murder committed in anger because a sexual advance has been refused is not the
same crime as murder in the course of rape. The state needed to show, pursuant
to Evid.R. 404(B), that the act of soliciting Kylah established a motive for the
attempted rape of Casonya or that the act of soliciting Kylah established that
Kirkland’s intent was to rape Casonya.

On the pivotal question of whether

Kirkland attempted to rape Casonya, Kylah’s testimony sheds no light. When
Kylah rejected Kirkland’s proposition, he did not rape her. He walked away.
Thus, Kirkland’s bad act shows no intent or motive regarding the crime at issue,
and the testimony is not admissible under Evid.R. 404(B).
{¶ 174} Further, I would find Kylah’s testimony inadmissible under
Evid.R. 403 because its probative value is substantially outweighed by the danger
of unfair prejudice. Because of the complete lack of corresponding operative
facts between the behavior toward Kylah and the murder of Casonya, Kylah’s
testimony was of limited probative value. Kylah was the daughter of a friend of
Kirkland, and he would sometimes stay with the family.

Kirkland exposed

himself to Kylah while she was in her bedroom, but then left the room. He
returned with a note offering to pay her for a sex act and then left the room again.
Finally, after again entering the room—while dressed—he put a five-dollar bill on
her dresser and then left. Kirkland did not react violently when Kylah refused his
offer.
{¶ 175} In contrast, Casonya was a stranger.

The encounter between

Kirkland and Casonya occurred randomly, in public, and at night. There is no
evidence that Kirkland solicited Casonya for sex or that Kirkland exposed himself
to her.

Finally, after offering money to Casonya, Kirkland responded with

violence when she threw the money back at him. The question in this case is
whether there was a rape at all. Kirkland’s criminal but nonviolent activity with
Kylah is being offered to show that a rape occurred. That is, a situation where no

Appendix
C
41
APPX-0091

SUPREME COURT OF OHIO

rape occurred is being used as evidence that a rape occurred. The evidence is thus
of limited probative value.
{¶ 176} Kylah’s testimony was undoubtedly prejudicial, even to a
defendant as demonstrably repugnant as Kirkland.

The majority mentions a

newspaper article that it dared not quote because it is not in the record. The
defense claims that it demonstrates prejudice. I will save the reader the trip to the
Internet: Hamilton County Prosecutor Joe Deters told the Cincinnati Enquirer
that Kylah’s testimony was pivotal in Kirkland’s conviction for the capital murder
of Casonya:
Deters wonders if the jury would have recommended the
death sentence in the case involving Casonya without the girl’s
testimony.
“I think it would have been a coin flip,” Deters said. “There
is no question she made the difference in Casonya’s case.”
Perry, Deters: Teen’s testimony could seal killer Anthony Kirkland’s fate, The
Cincinnati Enquirer (March 31, 2010).

Certainly, Prosecutor Deters was

attempting to publicly recognize a young girl for her courage and may have
overstated her importance in the case, but there can be no doubt that Kylah’s
testimony was highly prejudicial against Kirkland.
{¶ 177} Without question, evidence that a grown man sexually solicited
and exposed himself to a girl he knew to be 13 years old is prejudicial. The
testimony was unfairly prejudicial because the state, by its own admission, used
the testimony to convince the jury that Kirkland must have tried to rape Casonya.
The state rested its entire opposition to Kirkland’s Civ.R. 29 motion on Kylah’s
testimony: “Specifically in regard to the attempted rape on Casonya [C.], this last
witness [Kylah] has shown there was a common scheme or plan.”

Appendix
C
42
APPX-0092

January Term, 2014

{¶ 178} Because the other-acts testimony reflected on Kirkland’s
character, did not meet the requirements of Evid.R. 404(B), and was unfairly
prejudicial under Evid.R. 403, I would find that Kirkland’s first proposition of
law has merit.
II
{¶ 179} Kirkland asserts in his ninth proposition of law that there was
insufficient evidence to convict him of attempted rape in connection with the
murder of Casonya C. At the close of the evidence, the defense made a Crim.R.
29 motion for acquittal on that charge. The trial court denied the motion and
allowed all charges to proceed to the jury. I would find that there is insufficient
evidence to convict Kirkland of attempted rape.
{¶ 180} When reviewing a record for sufficiency, the court must consider
whether, viewing the evidence in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements of the crime proved
beyond a reasonable doubt. State v. Leonard, 104 Ohio St.3d 54, 2004-Ohio6235, 818 N.E.2d 229, at ¶ 77; State v. Jenks, 61 Ohio St.3d 259, 574 N.E.2d 492
(1991), paragraph two of the syllabus. The court must view the evidence in the
light most favorable to the prosecution and defer to the trier of fact on questions
of credibility and the weight to assign evidence. State v. Fry, 125 Ohio St.3d 163,
2010-Ohio-1017, 926 N.E.2d 1239, at ¶ 146.
{¶ 181} The crime of rape is “engag[ing] in sexual conduct with another
when the offender purposely compels the other person to submit by force or threat
of force.” R.C. 2907.02(A)(2). The crime of attempted rape is complete when an
offender purposely engages in conduct that, if successful, would constitute or
result in the offense of rape. R.C. 2923.02(A). We have explained a “criminal
attempt” as an act “constituting a substantial step in a course of conduct planned
to culminate” in an offender’s commission of the crime. State v. Woods, 48 Ohio
St.2d 127, 357 N.E.2d 1059 (1976), at paragraph one of the syllabus.

Appendix
C
43
APPX-0093

To

SUPREME COURT OF OHIO

constitute a “substantial step,” the conduct must be strongly corroborative of the
offender’s purpose to commit the crime, thus directing attention to the offender’s
overt acts. State v. Group, 98 Ohio St.3d 248, 2002-Ohio-7247, 781 N.E.2d 980,
at ¶ 95.
{¶ 182} The element of force for purposes of proving the attempted rape
of Casonya C. is obvious and indisputable. The question, then, is what overt acts
were presented as evidence to prove that Kirkland attempted to compel sexual
conduct. The police collected no physical evidence of rape from a rape kit,
because the fire damage to Casonya’s body, specifically her pelvic area,
prevented the forensic pathologist from taking any specimens. And during his
police interrogation, Kirkland repeatedly denied having sex with Casonya.
{¶ 183} The majority states that Kirkland’s offer of money to Casonya “to
talk” was an offer of sex. But without Kylah’s testimony, the state had no
evidence from which to conclude that the offer of money was for sexual services.
And even if there were evidence that Kirkland offered Casonya money for sex,
that evidence would not be probative of whether he attempted to rape her before
he killed her.
{¶ 184} The majority points to physical evidence that it says is consistent
with a sexual purpose behind the murder. Casonya was found naked save for a
single sock. The state argues that that fact, standing alone, is sufficient to sustain
the attempted-rape conviction. However, even in the cases cited by the majority,
the naked condition of the body was not the sole evidence of sexual assault. See
State v. Scudder, 71 Ohio St.3d 263, 274-275, 643 N.E.2d 524 (1994); State v.
Biros, 78 Ohio St.3d 426, 447-448, 678 N.E.2d 891 (1997).
{¶ 185} This court’s holding in State v. Heinish, 50 Ohio St.3d 231, 553
N.E.2d 1026 (1990), suggests that the naked condition of the body, standing
alone, is insufficient to sustain a conviction for aggravated rape. In Heinish, the
murdered victim was found with her jeans partially unzipped and pulled down

Appendix
C
44
APPX-0094

January Term, 2014

several inches from her hips. Id. at 232. Her shoes, jacket, and watch were
missing, and there was no underwear on the body. There was also a saliva stain
on the crotch of her jeans that, according to laboratory tests, was consistent with
the defendant’s. Despite this evidence, this court vacated Heinish’s attemptedrape conviction, because “[e]vidence of finding the victim’s body in the condition
noted above does not allow the fact-finder to conclude beyond a reasonable doubt
that an attempted rape has occurred.” Id. at 239.
{¶ 186} The burning of Casonya’s body, coupled with other-acts evidence
concerning Kirkland’s sexual assault of another victim, Esme K., presents a closer
call. According to the state, Kirkland’s intent to rape Casonya is evident from the
fact that he raped Esme: “The stark similarities between the defendant’s attack on
Esme [K.], i.e., the beating, the vaginal burning, the nude body, are particularly
relevant.”
{¶ 187} When Kirkland burned the body of Esme K.—a girl we know he
did rape—he started the fire in her pubic area. Based on that evidence, the state
argues for an inference of rape of Casonya C. because the fire was started in or
was concentrated in the vaginal area, which the state characterizes as an obvious
attempt to destroy any evidence of rape.
{¶ 188} However, the record does not support the state’s assertion that the
fire was started in or concentrated on Casonya’s vaginal area. Obinna Ugwu,
M.D., a deputy coroner and forensic pathologist employed by the county, offered
no testimony as to the origin point of the fire on Casonya’s body. The only
opinion came from Elizabeth Murray, Ph.D., a forensic anthropology consultant.
Dr. Murray testified that “[i]t looked like the center of the fire was at the center of
the body.” Dr. Murray was not asked to clarify whether, by “the center of the
body,” she meant the vaginal area or somewhere on the torso. However, it is clear
in context that she meant the latter: she testified that the hands and forearms were
most burned because they were likely folded across the body. Also, she noted

Appendix
C
45
APPX-0095

SUPREME COURT OF OHIO

that the legs were not as severely burned, suggesting again that she believed the
fire began higher on the body. In fact, Casonya’s legs were the only part of the
body not substantially charred by the fire.
{¶ 189} Burning Casonya’s body may well have been an attempt to
destroy evidence of her murder, not to destroy evidence of an attempted rape.
Kirkland burned the bodies of all four of his victims, not just Esme and Casonya.
Ultimately, all the state was able to prove was that Kirkland destroyed the bodies
of his victims, including the bodies of two victims who were not raped. The fact
that he burned Casonya’s body is not probative evidence of whether he attempted
to rape her first.
{¶ 190} In summary, the state presented insufficient evidence of attempted
rape, and I would therefore reverse Kirkland’s conviction on that charge.
III
{¶ 191} In conclusion, I believe that the case should be remanded for
resentencing without a consideration of the attempted rape of Casonya Crawford
as an aggravating circumstance. The protections afforded by state law and our
Constitutions are only as meaningful as this court’s willingness to recognize them.
____________________
LANZINGER, J., concurring in part and dissenting in part.
{¶ 192} I concur in the judgment affirming Kirkland’s convictions. But
because I believe that the prosecutorial misconduct in this case violated
Kirkland’s rights to due process, I respectfully dissent from the majority’s
decision to affirm his death sentence and would remand the case for a new
sentencing hearing pursuant to R.C. 2929.06(B).
{¶ 193} Although I agree with the majority’s conclusion that “the
prosecutor’s closing argument prejudicially affected Kirkland’s substantial
rights,” majority opinion at ¶ 83, I disagree with the majority’s decision declining
to remand the case for a new sentencing hearing. Our procedures for sentencing

Appendix
C
46
APPX-0096

January Term, 2014

in capital cases charge two independent bodies with evaluating whether the death
penalty is proper: the jury or a three-judge panel at the trial level and this court at
the appellate level. In cases like this, where a jury has recommended a sentence
of death, our independent review of a death sentence should occur only if proper
sentencing-phase procedures were followed leading up to the jury’s
recommendation.
{¶ 194} While R.C. 2929.05(A) provides that we must conduct an
independent evaluation of the death sentence, we should not conduct this
evaluation when the sentence was recommended by a jury that was exposed to
substantial and prejudicial prosecutorial misconduct. We have typically used our
independent evaluation of the death sentence to correct errors of law by the trial
court in its sentencing opinion. See, e.g., State v. Lang, 129 Ohio St.3d 512,
2011-Ohio-4215, 954 N.E.2d 596, ¶ 298; State v. Fox, 69 Ohio St.3d 183, 191,
631 N.E.2d 124 (1994). By declining to remand this case, the majority fails to
preserve the unique role of the jury in capital cases.
{¶ 195} As noted in the majority opinion, a prosecutor’s closing argument
is prejudicial when it is “so inflammatory as to render the jury’s decision a
product solely of passion and prejudice.” State v. Williams, 23 Ohio St.3d 16, 20,
490 N.E.2d 906 (1986). The majority opinion cites repeated remarks by the
prosecutor that meet this standard in this case, and it concludes that “the state’s
closing remarks in the penalty phase were improper and substantially prejudicial.”
Majority opinion at ¶ 96. This conclusion is borne out by the record.
{¶ 196} Because the prosecutorial misconduct in this case potentially
rendered the jury’s decision recommending death “a product solely of passion and
prejudice,” it cannot be cured by this court’s independent review of the sentence.
While our own evaluation can cure errors occurring during the penalty phase, it
cannot cure an error that may have caused the jury to recommend a sentence that
is solely a product of prejudice. The majority cites State v. Mills, 62 Ohio St.3d

Appendix
C
47
APPX-0097

SUPREME COURT OF OHIO

357, 373-374, 582 N.E.2d 972 (1992). In Mills, however, there were far fewer
instances of prosecutorial misconduct, and the defendant failed to object. Most
significantly, we did not conclude that the state’s actions were substantially
prejudicial. Kirkland’s case, on the other hand, is not a case in which offhand
remarks by the prosecutor may have had a negligible effect. Here, the majority
has concluded that the prosecutorial misconduct was substantially prejudicial. I
do not believe that we can conduct an independent review of a death sentence that
was not properly recommended, and I therefore would reverse the judgment and
remand for a proper sentencing hearing.
{¶ 197} Reversing the judgment sentencing Kirkland to death would not
mean that he has escaped the death penalty for his actions. Because this case
would be remanded due to an error that occurred during the sentencing phase of
the trial, Kirkland would still be eligible for the death penalty pursuant to R.C.
2929.06(B). Although the crimes Kirkland is alleged to have committed are
horrific, due process requires that a jury be free from prejudice before
recommending the death penalty. Due process, in my view, demands a reversal
and remand for resentencing.
____________________
O’NEILL, J., dissenting.
{¶ 198} As a justice and as a citizen, it is truly difficult in this case to
separate personal outrage from clinical constitutional analysis.

The latter,

however, is required by my oath of office. Anthony Kirkland’s actions were
monstrous—he must be punished and society must be vigilantly protected from
him. He deserves nothing less than life in prison without possibility of release,
and the horror of his crimes certainly makes it easy to suggest that death is the
only fit punishment for him. But because the death penalty “is inherently both
cruel and unusual,” State v. Wogenstahl, 134 Ohio St.3d 1437, 2013-Ohio-164,
981 N.E.2d 900, ¶ 2 (O’Neill, J., dissenting), I cannot accept that easy suggestion.

Appendix
C
48
APPX-0098

January Term, 2014

And because the majority’s analysis results in a denial of the defendant’s right to
a fair jury trial, even if I believed that the death penalty could be constitutionally
imposed, I would still be compelled to dissent in this case.
{¶ 199} The majority correctly concludes that the state’s closing remarks
in the penalty phase “were improper and substantially prejudicial.” Majority
opinion at ¶ 96. Compare Carter, Harmless Error in the Penalty Phase of a
Capital Case: A Doctrine Misunderstood and Misapplied, 28 Ga.L.Rev. 125, 131,
134 (1993) (discussing harmless, as opposed to prejudicial, error). But instead of
reversing the sentence and remanding for a new sentencing hearing, the majority
holds that our independent evaluation and approval of the capital sentence cured
the errors in the penalty-phase proceedings. I disagree. This court has relied
upon its independent review to “cure” trial-court penalty-phase deficiencies in
preparing a written sentencing opinion, State v. Gumm, 73 Ohio St.3d 413, 424,
653 N.E.2d 253 (1995), allowing improper testimony from a state expert witness,
State v. Hale, 119 Ohio St.3d 118, 2008-Ohio-3426, 892 N.E.2d 864, ¶ 132, and
giving erroneous jury instructions, State v. Dixon, 101 Ohio St.3d 328, 2004Ohio-1585, 805 N.E.2d 1042, ¶ 84. Today, it holds that independent review of a
sentence can also “cure” prejudicial penalty-phase prosecutorial misconduct that
this court has repeatedly determined to be improper: arguing facts outside the
record, arguing the subjective experiences of the victim, and arguing that the
circumstances of the murder are themselves aggravating factors. That holding, in
my opinion, undermines the very foundation of the jury system in Ohio. And it
does not comport with the Sixth Amendment to the United States Constitution,
which in this context requires that the facts permitting the imposition of a death
sentence must be found by a jury.
{¶ 200} In Clemons v. Mississippi, 494 U.S. 738, 745, 110 S.Ct. 1441, 108
L.Ed.2d 725 (1990), the United States Supreme Court held that it was permissible
for the Mississippi Supreme Court to impose a sentence of death based on its

Appendix
C
49
APPX-0099

SUPREME COURT OF OHIO

independent reweighing of aggravating and mitigating circumstances after the
state court struck down as unconstitutional one of the aggravating factors found
by the jury. This court has recognized that Ohio’s system for imposing and
reviewing death sentences is analogous to the Mississippi system approved in
Clemons. See State v. Landrum, 53 Ohio St.3d 107, 124, 559 N.E.2d 710 (1990).
{¶ 201} But in Ring v. Arizona, 536 U.S. 584, 609, 122 S.Ct. 2428, 153
L.Ed.2d 556 (2002), the United States Supreme Court concluded that the Sixth
Amendment right to a jury trial required that a jury, rather than a judge, find the
presence of aggravating circumstances necessary for the imposition of the death
penalty. The Supreme Court stated that “[t]he right to trial by jury guaranteed by
the Sixth Amendment would be senselessly diminished if it encompassed the
factfinding necessary to increase a defendant's sentence by two years, but not the
factfinding necessary to put him to death.” Id.
{¶ 202} When it is applied to this case, Clemons, standing alone, would
compel the conclusion that this court does not violate the United States
Constitution by “curing” prejudicial errors in the penalty phase of a death-penalty
case by independently reviewing the death sentence. But I simply cannot accept
the proposition that our independent review somehow comports with the Sixth
Amendment right to have a jury weigh mitigating and aggravating circumstances.
In my opinion, Clemons is inconsistent with the United States Supreme Court’s
pronouncement in Ring, because Clemons rests on a premise—“the Sixth
Amendment does not require that a jury specify the aggravating factors that
permit the imposition of capital punishment, nor does it require jury sentencing,
even where the sentence turns on specific findings of fact”—that Ring has shown
to be faulty. (Citation omitted.) Clemons at 746. As Ring demonstrates, the
Sixth Amendment requires precisely those things: “enumerated aggravating
factors operate as ‘the functional equivalent of an element of a greater offense,’
[and therefore] the Sixth Amendment requires that they be found by a jury.” Ring

Appendix
C
50
APPX-0100

January Term, 2014

at 609, quoting Apprendi v. New Jersey, 530 U.S. 466, 494, 120 S.Ct. 2348, 147
L.E.2d 435 (2000), fn. 19. Moreover, in Alleyne v. United States, ___ U.S. ___,
133 S.Ct. 2151, 2155, 186 L.Ed.2d 314 (2013), the court concluded that any fact
that increases the mandatory minimum punishment for a crime “is an ‘element’
that must be submitted to the jury and found beyond a reasonable doubt.” See
also id. at 2165-2166 (Sotomayor, J., concurring) (demonstrating how Ring
compels the decision in Alleyne).
{¶ 203} In short, as one federal judge has observed, “[i]f a defendant has a
right to have a jury find all the facts that make him eligible for the death penalty,
he must also have the right to have a jury make the final determination that he
actually will be sentenced to death.” Baston v. Bagley, 420 F.3d 632, 639, fn.1
(6th Cir.2005) (Merritt, J., dissenting) (arguing that “Ring has overruled
Clemons”).

In light of Apprendi, Ring, and Alleyne, it seems obvious that

Clemons is bad law that will someday be explicitly overruled. And given that this
court has already concluded that the defendant’s penalty-phase hearing was
unfair, it compounds that unfairness for this court to simply reimpose the death
penalty instead of remanding the case for a sentencing jury to make that
determination.
{¶ 204} I have stated my belief that capital punishment itself is
unconstitutional; with today’s decision, the court plainly demonstrates that Ohio’s
system of imposing and reviewing death sentences is unconstitutional as well.
Accordingly, I dissent.
____________________
Joseph T. Deters, Hamilton County Prosecuting Attorney, and William E.
Breyer, Chief Assistant Prosecuting Attorney, for appellee.
Herbert E. Freeman and Bruce K. Hust, for appellant.
_________________________

Appendix
C
51
APPX-0101

^.
C hP $ upruw CLixuTt Of C04tO

RLED
?'s A`'^ 11317 ^ 141

CLERK OF COURT
SUPREME COURT OF OHIO
State of Ohio

Case No. 2010m0$54

V.

JUDGMENT ENTRY

Anthony Kirkland

APPEAL FROM THE
COURT OF COMMON I'LLAS

This cause, here on appeal from the Court of Common Pleas for Hamilton
County, was considered in the mai-iner prescribed by law. On consideration thereof, the
judgment of the Court of Common Pleas is affirmed, consistent with the opinion rendered
herein.
Furthermore, it appearing to the court that the date fixed for the execution of
judgment and sentence of the Court of Common Pleas has passed, it is ordered by the
court that the sentence be carried into execution by the Warden of the Southem Ohio
Correctional Facility or, in his absence, by the Deputy Warden on Wednesday, the 11 tr'
day of January, 2017, in accordance with the statutes so provided.
It is further ordered that a certified copy of this entry and a warrant under the seal
of this court be certified to the Warden of the Southern Ohio Correctional Facility, and
that the Warden shall make due return to the Clerk of the Court of Common Pleas for
1-lamilton County.
It is further ordered by the Cor.rrt that a mandate be sent to the Court of Common
Pleas for Hamilton County to carry this judgment into execution, and that a copy of this
entry be certified to the Clerk of the Court of Common Pleas for I-lamilton County for
entry.

(Hanailton County Court of Common Pleas; No. B0901629)

Maureen O'C.onnor
Chief Justice

Appendix C
APPX-0102

State v. Kirkland
Supreme Court of Ohio
September 24, 2014, Decided
2010-0854.
Reporter
2014 Ohio LEXIS 2350 *; 140 Ohio St. 3d 1442; 2014-Ohio-4160; 16 N.E.3d 684

State v. Kirkland.

Notice: DECISION WITHOUT PUBLISHED OPINION

Prior History: Hamilton C.P. No. B0901629. Reported at 140 Ohio St.3d 73, 2014-Ohio-1966, 15
N.E.3d 818 [*1] .
State v. Kirkland, 140 Ohio St. 3d 73, 2014-Ohio-1966, 2014 Ohio LEXIS 1043, 15 N.E.3d 818 (May 13,
2014)

Judges: Pfeifer, Lanzinger, and O'Neill, JJ., dissent.

Opinion

RECONSIDERATION OF PRIOR DECISION
On motion for reconsideration. Motion denied.
Pfeifer, Lanzinger, and O'Neill, JJ., dissent.
End of Document

Appendix D
APPX-0103

Kirkland v. Ohio
Supreme Court of the United States
April 6, 2015, Decided
No. 14-7726.
Reporter
2015 U.S. LEXIS 2436 *; 575 U.S. 952; 135 S. Ct. 1735; 191 L. Ed. 2d 705; 83 U.S.L.W. 3785

Anthony Kirkland, Petitioner v. Ohio.

Prior History: State v. Kirkland, 140 Ohio St. 3d 73, 2014-Ohio-1966, 2014 Ohio LEXIS 1043, 15
N.E.3d 818 (May 13, 2014)

Judges: [*1] Roberts, Scalia, Kennedy, Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan.

Opinion
Petition for writ of certiorari to the Supreme Court of Ohio denied.
End of Document

Appendix E
APPX-0104

State v. Kirkland
Supreme Court of Ohio
May 4, 2016, Decided
2010-0854.
Reporter
2016 Ohio LEXIS 1182 *; 145 Ohio St. 3d 1455; 2016-Ohio-2807; 49 N.E.3d 318

State v. Kirkland.

Notice: DECISION WITHOUT PUBLISHED OPINION

Subsequent History: Reconsideration denied by State v. Kirkland, 147 Ohio St. 3d 1440, 2016-Ohio7681, 2016 Ohio LEXIS 2781, 63 N.E.3d 158 (Nov. 9, 2016)

Prior History: [*1] Hamilton C.P. No. B0901629.
State v. Kirkland, 125 Ohio St. 3d 1427, 2010-Ohio-2261, 927 N.E.2d 1, 2010 Ohio LEXIS 1131 (May
24, 2010)

Judges: Pfeifer, O'Donnell, and Kennedy, JJ., dissent and would deny the motion for order or relief.

Opinion

MOTION AND PROCEDURAL RULING
On application for reopening under S.Ct.Prac.R. 11.06. Application denied. On motion for order or relief.
Motion granted. Cause remanded for new mitigation and sentencing hearing.
Pfeifer, O'Donnell, and Kennedy, JJ., dissent and would deny the motion for order or relief.
End of Document

Appendix F
APPX-0105

ﬁlhe

ﬁupreme Guurt

~
of

Clﬁhilzr

in

C

,_

1]

H0‘!

-9
,

1

State

ofOhio

2016

~

;__0l

RI

Case No. 2010-0854

v.

RECONSIDERATION ENTRY

Anthony Kirkland

Hamilton County
It is

ordered by the court that the motion for reconsideration in this case

is

denied.

(Hamilton County Court of Common Pleas; No. B0901629)

Maureen O’Connor

Chief Justice

The Ofﬁcial Case Announcement can be found

at

hItp://www.supremecourt.ohio.gov/ROD/docs/

Appendix F

APPX-0106

1'

OF OHIO

ENTERED
AUG2 9 2018

COURT OF COMMON PLEAS
HAMIL TON COUNTY, OHIO

STATE OF OHIO

Case Nos. B 0901629

Plaintiff

(Judge Pat Dinkelacker)

vs.
ANTHONY KIRKLAND

SENTENCING OPINION IN
COMPLIANCE WITH OHIO
REVISED CODE 2929.03(F)

Defendant

This opinionis renderedin compliancewith O.R.C. 2929.03(F).
Ohio Revised Code 2929.03(F) requires in pertinent part the following:
"The Court ... when it imposes sentence of death, shall state in a
separate opinion its specific findings as to the exfstence of any of the
mitigating factors set forth in Division (B) of Section 2929.04 of the
Revised Code, the existence of any other mitigating factors, the
aggravating circumstances the offender was found guilty of committing,
and the reasons why the aggravating circumstances the offender was
found guilty of committing were sufficient to outweigh the mitigating
factors."
* * *

"For cases in which a sentence of death is imposed for an offense
committed on or after January 1, 1995 ... the Court ... shall file the
opinion required to be prepared by this division with the Clerk of the
Supreme Court within fifteen days after the Court ... imposes
sentence.»

I.

PROCEDURAL POSTURE
The defendant, Anthony Kirkland, ("Kirkland") was found guilty pursuant to a

jury trial in 2010 of the aggravated murder of Casonya
murder of Esme~-

c=-

and the aggravated

The jury further found Kirkland guilty of aggravating

AppendixG

APPX-0107

IIIIH\lliH
D122962874

VERIFY RECORD

circumstances in both aggravated murders that qualified him for death penalty
consideration by the jury.
Resultantly, after a full hearing in the penalty/sentencing phase, Kirkland was
determined by the jury to be an appropriate person for the imposition of the death
penalty.
Judge Charles Kubicki, Jr., the Judge assigned to the case and the Judge
who presided over the case, concurred with the jury's recommendation and imposed
the sentence of death on Kirkland.
Pursuant to an order of the Ohio Supreme Court dated May 4, 2016 that
states "cause remanded for new mitigation and sentencing hearing", 145 Ohio St.3d
1455, 49 N.E.3d 318, 2010-Ohio-2807, this Court was assigned the duty of
conducting a new trial on the sentencing phase only.
The Court conducted a new mitigation and sentencing hearing/trial which
began on July 19, 2018 and ended with a verdict on August 6, 2018.
The jury returned verdicts on Counts 2, 4, 9 and 11. All of the verdicts found
unanimously that the sentence of death should be imposed on Anthony Kirkland.

II.

RETRIAL EVIDENCE - STATE
During the re-trial on the sentencing phase, the State presented extensive

evidence regarding the aggravating circumstances surrounding the aggravated
murder of each victim.
The State called the following witnesses who testified in Court in person, by
way of deposition or by transcript:

Appendix
G
2
APPX-0108

Patricia Crawford, Barb McAvoy, Gary Rolison , Lisa Kenney, Dr. Gretel
Stephens, Dr. Karen Looman, Sgt. Howard Grant, Sgt. Jennifer Mitsch, Detective
Keith Witherell, Detective Bill Hilbert, Dr. Chadwick Wright, Dr. Alan Waxman and
Dr. Daniel Boulter.
The State further produced numerous exhibits which were admitted into
evidence.
All of the above were reviewed and considered by the Court regarding its
decision.

B) Retrial Evidence - Defense
The Defense presented extensive evidence regarding mitigating factors on
behalf of Kirkland.
The Defense called the following witnesses:
Dr. Joseph Wu, Patti Van Eys, Ph.D. and Kirkland who made an unsworn
statement.
Further, the Defense presented and had admitted many exhibits including
extensive material produced by the experts who testified for Kirkland.
All of the above was reviewed and considered by the Court regarding its
decision.

Ill.

ANALYSIS

OFEVIDENCE

The evidence clearly showed the following:

Appendix
G
3
APPX-0109

1.~
On May 4, 2006, Kirkland attacked, viciously beat, attempted to rape and then
Ms. ~ was 14 years old at the time of

strangled to death Casonya ~.

her death. He also took from her personal items.
Kirkland then burned the body of Ms. ~ almost to the point of an
inability to have her remains identified.

2.~
On March 7, 2009, Kirkland attacked, beat mercilessly, attempted to rape
(causing significant injury) and ultimately strangled to death Ms. ~ with some
type of ligature. While this cruel and painful beating and death by strangulation was
taking place, Kirkland (in his own words) acknowledged Ms. ~ begged for her
life.
Kirkland burned portions of Ms. ~ body that may have contained
evidence inculpatory to Kirkland.
3.

Mary Jo Newton

On or about June 14, 2006 Kirkland strangled to death Mary Jo Newton.
After her death, Kirkland burned her body.
4.

Kimya Rolison

On December 22, 2006 Kirkland stabbed Kimya Rolison in the neck with a
knife resulting in her death. Kirkland then burned the body of Ms. Rolinson almost to
the point of never being able to identify her remains.

Appel\dix G

APPX-0110

IV.

SENTENCING PHASE - LAW - BURDEN OF PROOF
The prosecution shall have the burden of proving, by proof beyond a
reasonable doubt, that the aggravating circumstances the defendant
was found guilty of committing are sufficient to outweigh the factors in
mitigation of the imposition of the sentence of death. If the trial jury
recommends that the sentence of death be imposed upon the offender,
the court shall proceed to impose sentence pursuant to R.C.
2929.03(0)(3).
Upon consideration of the relevant evidence raised at trial, the
testimony, other evidence, statement of the offender, arguments of
counsel, and, if applicable, the reports submitted to the court ... , if,
after receiving ... the trial jury's recommendation that the sentence of
death be imposed, the court finds, by proof beyond a reasonable
doubt, ... that the aggravating circumstances the offender was found
guilty of committing outweigh the mitigating factors, it shall impose
sentence of death on the offender.
Absent such a finding by the court ... , the court ... shall impose one of
the following sentences on the offender: ... , one of the following: [l]ife
imprisonment without parole; ... life imprisonment with parole eligibility
after serving twenty-five full years of imprisonment; ... ; life
imprisonment with parole eligibility after serving thirty full years of
imprisonment.

V.

AGGRAVATING CIRCUMSTANCES
The aggravating circumstances applicable to each count are as follows:

Count 2 regarding Casonya ~:
1) The offense was part of a course of conduct involving the purposeful
killing of or attempt to kill two or more persons by the defendant.
2) The offense was committed while the defendant was committing,
attempting to commit, fleeing immediately after committing or attempting
to commit the offense of RAPE and the defendant was the principal
offender in the commission of the AGGRAVATED MURDER.

Appendix
G
5

APPX-0111

Count 4 regarding Casonya ~:
1) The offense at bar was part of a course of conduct involving the
purposeful killing of or attempt to kill two or more persons by ANTHONY
KIRKLAND.
2) The offense was committed while the defendant was committing,

attempting to commit, fleeing immediately after committing or attempting
to commit the offense of AGGRAVATED ROBBERY and the defendant
was the principal offender in the commission of the AGGRAVATED
MURDER.

Count 9 regarding Esme ~:
1) The offense at bar was part of a course of conduct involving the
purposeful killing of or attempt to kill two or more persons by ANTHONY
KIRKLAND.
2) The offense was committed while the said defendant was committing,
attempting to commit, or fleeing immediately after committing or
attempting to commit RAPE and the offender was the principal offender in
the commission of the AGGRA VA TEO MURDER.

Count 11 regarding Esme~
1) The offense at bar was part of a course of conduct involving the
purposeful killing of or attempt to kill two or more persons by ANTHONY
KIRKLAND.
2) The offense was committed while the said defendant was committing,
attempting to commit, fleeing immediately after committing or attempting

Appendix
G
6

APPX-0112

to commit the offense of AGGRAVATED ROBBERY and the offense was
the principal offender in the commission of the AGGRAVATED MURDER.

VI.

MITIGATING FACTORS
* LAW: O.R.C. 2929.04(8)(1)-

(7) defines the mitigating factors the Court

must consider. The statute reads in pertinent part as follows:
(8) If one or more of the aggravating circumstances listed in division (A)
of this section is specified in the indictment or count in the indictment
and proved beyond a reasonable doubt, and if the offender did not raise
the matter of age pursuant to section 2929.023 of the Revised Code, the
court shall consider, and weigh against the aggravating circumstances
proved beyond a reasonable doubt the nature and circumstances of the
offense, the history, character, and background of the offender, and all
of the following factors:
(1) Whether the victim of the offense induced or facilitated it;
(2) Whether it is unlikely that the offense would have been committed,
but for the fact that the offender was under duress, coercion, or
strong provocation;
(3) Whether, at the time of committing the offense, the offender,
because of a mental disease or defect, lacked substantial capacity
to appreciate the criminality of the offender's conduct or to conform
the offender's conduct to the requirements of the law;
(4) The youth of the offender;
(5) The offender's lack of a significant history of prior criminal
convictions and delinquency adjudications;
(6) If the offender was a participant in the offense but not the principal
offender, the degree of the offender's participation in the offense
and the degree of the offender's participation in the acts that led to
the death of the victim;
(7) Any other factors that are relevant to the issues of whether the
offender should be sentenced to death.
(C) The defendant shall be given great latitude in the presentation of
evidence of the factors listed in division (B) of this section and of any
other factors in mitigation of the imposition of the sentence of death.

Appendix
G
7
APPX-0113

The existence of any of the mitigating factors listed in division (B) of
this section does not preclude the imposition of a sentence of death on
the offender but shall be weighed pursuant to divisions (D)(2) and (3)
of section 2929.03 of the Revised Code by the trial court against the
aggravating circumstances the offender was found guilty of committing .

., ., .,
Mitigating factors are factors about an indivictual or an offense that
weigh in favor of a decision that a life sentence rather than a death
sentence is appropriate. Mitigating factors are factors that diminish the
appropriateness of a death sentence. All of the mitigating factors
presented must be considered.

VII.

AGGRAVATED CIRCUMSTANCES WEIGHED AGAINST MITIGATING
FACTORS
The Court has in weighing the aggravated circumstances against the

mitigating factors considered each and every aspect of any mitigating factor and the
mitigating factors as a whole. Further, the Court has used any aspect of

a mitigating

factor as it is weighed against the aggravating circumstance of each individual count.

VIII.

THE WEIGHING PROCESS
O.R.C. 2929.04(8)
A) Nature and Circumstances of the Offenses

The nature and circumstances of the offenses are subject to consideration by
the Court only if there is any mitigation for the Defendant.
In this case, Kirkland beat to death 14 year old Casonya ~-·

He

attempted to rape her and did in fact commit the offense of aggravated robbery
against her. Kirkland claims Ms. ~ threw money back at him and "kneed"
him.

Appe°sdix G

APPX-0114

Further, Kirkland beat severely, raped or attempted to rape causing serious
injury while doing so and committed the offense of aggravated robbery against 13

year old Esme~.
Ms.~

Per Kirkland's statement, this horrifying episode began with

accidentally running into Kirkland.
The Court is hard-pressed to find (even if Kirkland's statements are true) any

semblance or trace amount of mitigation in the nature and circumstances of the
offense.
Accordingly, the Court finds nothing positive for Kirkland in the nature and
circumstances of the offense.
B) History, Character and Background of the Offender
The history, character and background of Kirkland were alluded to and
discussed at various times during the trial.
The evidence presented at trial provides little to no mitigation whatsoever
regarding Kirkland's history, character and background.
In order to comply with the law, the Court will not consider the aforementioned

issues since they can only be considered for mitigation purposes.
O.RC. 2929.04(B) following factors:
1) Whether the victim of the offense induced or facilitated it;
The Court finds that despite the statement of Kirkland in his statement to the
police, Casonya ~ and Esme ~ in no way induced or facilitated their
aggravated murders.
The Court finds no mitigation in this factor.
2) Whether it is unlikely that the offense would have been committed, but for
the fact that the offender was under duress, coercion, or strong provocation;

Appe~dix G

APPX-0115

Kirkland in his statement made mention of possible duress affiliated with the
killing of Esme ~-

But in viewing all of the evidence, Ms. ~ did not lose

her life to Kirkland because Kirkland was under duress.
Kirkland makes no claim of duress regarding his murdering Casonya

~Further, nothing in the evidence indicates any form of coercion causing
Kirkland to kill.
Finally, the Court finds nothing close to any strong provocation enacted by
either victim.
The Court finds no mitigation in this factor.
3) Whether, at the time of committing the offense, the offender, because of a
mental disease or defect, lacked substantial capacity to appreciate the
criminality of the offender's conduct or to conform the offender's conduct
to the requirements of the law;
This factor was presented in full measure and vigorously argued by Kirkland
during the trial.
Kirkland claimed that due to brain damage/injury suffered through various
incidents in his life, the Court should afford some measure of mitigation.
Kirkland asserted this quest for finding of mitigation through the testimony and
exhibits offered by Dr. Joseph Wu (Psychiatrist) and Patti Van Eys, Ph.D.
Dr. Wu testified extensively at two separate settings regarding his opinion that
Kirkland suffered brain damage. The testimony speaks for itself. If taken as a
medically sound expert opinion regarding the medical status of Kirkland's brain, one
would have to surmise Kirkland suffered from some brain damage.

APPX-0116

But further inquiry and evaluation of Dr. Wu's testimony, exhibits and reports
show Dr. Wu uniformly, finds some aspect of brain damage to any subject he
examines for forensic purposes.
Note: [There was testimony Dr. Wu did find one patient to not have brain damage
subsequent to an examination by him. But no name of that patient was ever testified
to].
Further, the methodology employed by Dr. Wu in his comparison of brain
images or scans was of concern to the Court. The Court certainly questioned the
reliability of Dr. Wu's opinion. This questioning of reliability was enhanced by Dr.
Wu's consideration of statements by Kirkland as being true, the medical records not
substantiating items Dr. Wu took as true and were unverified, and the testimony of
three (3) State's witnesses offered as rebuttal.
Dr. Wu also, it must be noted, for some reason requested the radiologists at
Ohio State Wexner Center (who performed the brain scans/brain imaging scans on
Kirkland) to withhold interpretation of the scans ... this, even though, is what Ors.
Boulter and Wright do routinely on a daily basis.
Dr. Alan Waxman, Board Certified in Nuclear Medicine, offered a blanket and
particularized rebuttal to Dr. Wu's opinion.
In direct contrast to Dr. Wu's opinion, Dr. Waxman opined Kirkland's brain
was without any measurable brain damage and was normal.
Dr. Daniel Boulter, a Radiologist/Neuro Radiologist, employed at the Ohio
State Wexner Medical Center, performed an MRI of Kirkland's brain and found no
brain damage.

Appendix
G
11
APPX-0117

Dr. Chadwick Wright, a Radiologist and Nuclear Medicine Physician at the
Ohio State Wexner Medical Center also opined findings in opposition to those of Dr.
Wu.
The Court in light of all the evidence presented during the trial cannot find that
Kirkland lacked substantial capacity due to a mental disease or defect to appreciate
the criminality of his conduct or was un·able to conform his conduct to the
requirements of the law.
There is no proof before the Court that any alleged injury to Kirkland's brain
provides any basis for mitigation.
Patti Van Eys, a Clinical Psychologist, performed a forensic evaluation on
Kirkland, prepared a report and testified regarding that evaluation.
The report and the testimony of Dr. Van Eys speaks for itself.
Her ultimate opinion regarding Kirkland of post-traumatic stress disorder with
disassociation and resultant lack of substantial capacity to conform to the norms of
the law was considered strongly by the Court. If the Court were to find the aforesaid
stated opinion were based on sound medical and psychological grounds, the Court
would find substantial mitigation on behalf of Kirkland.
The Court can make no such finding.
Dr. Van Eys' foundation for her opinion is based on the findings of Dr. Wu and
the statements of Kirkland. As stated earlier, the opinions and findings of Dr. Wu are
found by this Court to be without any semblance of persuasion. Accordingly, Dr.
Van Eys' opinions are without a proper basis to be afforded any value by the Court.

Appendix
G
12
APPX-0118

There was no discernible damage to Kirkland's brain and to base psychological
opinions based on brain damage is of no benefit to the Court.
Further, Dr. Van Eys' opinions were also based in part on Kirkland's
statements to her. It is obvious that many of Kirkland's assertions were without
verification and, quite frankly, not true.
Again this certainly caused the Court to question the validity of Dr. Van Eys'
opinions.
The Court therefore finds Dr. Van Eys' opinions provide no basis for the Court
to assess any mitigation on this factor to Kirkland.
Despite the testimony of the two defense experts and all the evidence
produced regarding this factor, the Court finds no mitigation value.
4) The youth of the offender;
This is not an aspect of consideration in this case.
5) The offender's lack of a significant history of prior criminal convictions and
delinquency adjudications;
Without going into detail, there is nothing mitigating about Kirkland's history or
prior criminal convictions.
6) If the offender was a participant in the offense but not the principal
offender, the degree of the offender's participation in the offense and the
degree of the offender's participation in the acts that led to the death of the
victim;
Kirkland was the principal and only person participating in the aggravated
murders. There is no mitigation on this factor.
7) Any other factors that are relevant to the issue of whether the offender
should be sentenced to death.

Appendix
G
13
APPX-0119

The Court in reviewing all the evidence and giving full consideration to the
statutory authority regarding factors considered the following as possible mitigating
factors:

A) Bad Childhood
If Kirkland suffered from a bad, abusive childhood, then certainly the Court
would take that to be a possible mitigating factor. But the totality of the evidence
does not support Kirkland's statement to Dr. Van Eys and to the police (or other
statements to others in various reports). Cross-examination of Dr. Van Eys gives
cause to question if in fact Kirkland did have an abusive childhood. The only alleged
evidence of abuse comes from Kirkland.
The Court also notes that many, many years passed between the time the
abuse was allegedly put upon Kirkland and the time he killed human beings. If
Kirkland was abused it is still difficult to find any excuse tied to such abuse or find
any real source of mitigation.
An alleged abusive childhood did not cause Kirkland to kill. The Court
attaches minimal mitigation at best.

B) Cooperation With Police
The Court can attach some mitigation for Kirkland's cooperation with the
police. Though he did lie to the police and tried to shift blame from himself, he did
eventually admit to additional murders, besides those of Casonya ~ and
Esme~.
The Court assesses minimal mitigation.

AppendixG
14

APPX-0120

C) Remorse
The evidence before the Court does indicate Kirkland may have shown some
slight degree of remorse. He did indicate that Esme ~ did not deserve to die
the way she did.
Further, in his unsworn statement, Kirkland did state he "hurt so many people
with these horrible crimes" and in talking to the families, friends and loved ones of
the victims, he stated he was "truly sorry for your pain".
The Court is not impressed with the extremely late tokens of remorse by
Kirkland. He lied for hours about what he had done to the victims. He

gave no

thought to the victims after his horrible deeds. All of his statements are basically
aimed at helping himself with little to no true concern or remorse.
The Court finds a very small amount of mitigation, if any, regarding remorse.

D) Unsworn Statement
Kirkland's unsworn statement to the Court and jury was reviewed and
analyzed by the Court.
Kirkland does take responsibility for the deaths of Casonya ~.
Newton, Kimya Rolison and Esme ~-

Mary Jo

He does refer to the crimes he

committed as "atrocious acts" and "horrible crimes".
Further, he did apologize for the pain he caused to the ''families, friends and
loved ones" of the victims.
He also stated he was" ... not here to beg for mercy nor your forgiveness".
He said also "I cannot offer any justifiable explanations for my senseless acts".

AppendixG
15

APPX-0121

On one hand, Kirkland does admit responsibility for taking the lives of his
victims. On the other hand, within the same short statement, he blames abuse by
others and substance abuse for the vicious and purposeful attacks he committed.
The closing words uttered by Anthony Kirkland:
"I do not blame you if you kill me. I do not deserve to live. But please spare
my life".
These words and all of the words uttered by Kirkland do not give rise to
mitigation. The Court is hard-pressed to find plausible grounds within Kirkland's
statement for anything more than a minimal amount of mitigation.

E) History of Drug and Alcohol Abuse
Though Kirkland may have had some history of abuse of drugs and alcohol,
there is nothing of any significance that would constitute any mitigation or show the
substance abuse caused him to perform the horrendous acts he did.

F) Mental Health
Some evidence was presented and or alluded to during the trial regarding
Kirkland's mental health.
There was nothing presented that would allow the Court or require the Court
to make a finding that any real or perceived mental health issue provided any or
even minor mitigation.

IX.

SEPARATELY WEIGHING EACH COUNT: AGGRAVATING
CIRCUMSTANCES VERSUS MITIGATING FACTORS
In weighing the aggravating circumstances applicable to each count of
the aggravated murders separately against these mitigating factors,

Appendix
G
16
APPX-0122

the Court finds that the aggravating circumstances as to each count
outweighs the mitigating factors by proof beyond a reasonable doubt.
Specifically, the Court finds that each count included a "course of
conduct involving the purposeful killing of or attempt to kill two or more
persons by the defendant" specification. The RC. 2929.04(A)(5)
specification constitutes a severe aggravating circumstance that merits
major consideration.
Also each of the counts at issue contains a felony murder specification:

* Ct. 2: Casonya ~ - " ... The defendant was committing, attempting
to commit ... rape ... "
* Ct.

4: Casonya ~ -

11
•••

The defendant was committing, attempting

to commit ... the offense of ... aggravated robbery ... "

* Ct. 9: Esme ~-"

... The defendant was committing, attempting to

commit the offense of rape ... "
* Ct. 11: Esme ~ -

11
•••

The defendant was committing, attempting to

commit ... the offense of ... aggravated robbery ... "
Count 2: Both aggravating circumstances attendant to Count 2 (Casonya
~)

are egregious and atrocious. Ms. ~ was killed during a vicious

murder spree. The brutal sexual assault on the 14 year old victim also constituted
egregious behavior.
The aggravating circumstances far, outweigh beyond a reasonable doubt the
almost insignificant mitigation offered by Kirkland regarding Count 2.
Count 4: Both aggravating circumstances attendant to Count 4 (Casonya
~)

are egregious and atrocious. Casonya ~ was a murder victim who

died as a result of Kirkland's murder spree. The aggravated robbery further showed
the depravity of Kirkland.

AppendixG
17

APPX-0123

The aggravating circumstances far outweigh beyond a reasonable doubt the
almost insignificant mitigation offered by Kirkland regarding Count 4.
Count 9: Both aggravating circumstances attendant to Count 9 (Esme
~)

are egregious and atrocious. Ms. ~ was the last murder victim in a

vicious murder spree conducted by Kirkland. The brutal sexual attack on the 13
year old Esme ~ during her slow and agonizing descent into death was
particularly egregious.
The aggravating circumstances far outweigh beyond a reasonable doubt the
almost insignificant mitigation offered by Kirkland regarding Count 9.
Count 11 : Both aggravating circumstances attendant to Count 11 (Esme
~)

are egregious and atrocious. The aggravated Robbery further evidenced

the depravity of Kirkland.
The aggravating circumstances far outweigh beyond a reasonable doubt the
almost insignificant mitigation offered by Kirkland regarding Count 11.

X.

CONCLUSION
The Court has carefully reviewed and considered all of the appropriate

evidence legally before the Court, the arguments presented by counsel, the law and
the unsworn statement of Kirkland.
Because of the reasons and findings stated in this sentencing opinion, the
Court without any reservation whatsoever finds by proof beyond a reasonable doubt
that the aggravating circumstances Defendant Kirkland was found guilty of
committing outweigh the mitigating factors.

AppendixG
18

APPX-0124

Accordingly, the Court whole-heartedly agrees with the findings of the jury as
stated in the returned verdicts and finds as follows:
Count Two: For the aggravated murder of Casonya ~.

a special

felony in violation of O.R.C. 2903.01(8) with specifications 1 and 2, in violation of
O.R.C. 2929.04(A)(5) and O.R.C. 2929.04(A)(7) the Court imposes the sentence of
death.
Count Four: For the aggravated murder of Casonya ~.

a special

felony in violation of O.R.C. 2903.01(8) with specifications 1 and 2, in violation of
O.R.C. 2929.04(A)(5) and O.R.C. 2929.04(A)(7) the Court imposes the sentence of
death.
Count Nine: For the aggravated murder of Esme ~.

a special felony in

violation of O.R.C. 2903.01(A) with specifications 1 and 2, in violation of O.R.C.
2929.04(A)(5) and 2929.04(A)(7), the Court imposes the sentence of death.
Count Eleven: For the aggravated murder of Esme ~.

a special felony

in violation of O.R.C. 2903.01 (A) with specifications 1 and 2, in violation of O.R.C.
2929.04(A)(5) and 2929.04(A)(7), the Court imposes the sentence of death.

XI.

EXECUTION DATE
Pursuant to the dictates of O.R.C. 2947.08, the Court orders the execution of

Anthony Kirkland on March 7, 2019.
IT IS SO ORDERED.

Oa->124/Uf
Judge Patrick Dinkelacker

Appendix
G
19

APPX-0125

p..)9-JP

Appendix G
APPX-0126

APPX-0127

Appendix H
APPX-0128

APPX-0129

APPX-0130

APPX-0131

APPX-0132

APPX-0133

APPX-0134

APPX-0135

APPX-0136

APPX-0137

APPX-0138

Appendix H
APPX-0139

APPX-0140

APPX-0141

APPX-0142

Appendix H
APPX-0143

Appendix H
APPX-0144

Appendix H
APPX-0145

Appendix H
APPX-0146

